    Department of Labor
    Office of Inspector General Hotline

    202-219-5227    or 1-800-347-3756

    The O1(3 Hotline is open to the public and to Federal
    employees 24 hours a day, 7 days a week to receive
    allegations of fraud, waste, and abuse. An operator
    is on duty during normal business hours. At all other
    times, a message can be recorded.

    Written complaints may be sent to:

    O1(3 Hotline
    U. S. Department of Labor
    Office of Inspector General
    Room S-5514
    200 Constitution Avenue, N.Wo
    Washington, D.C. 20210


I
     OFFICE        OF       INSPECTOR                  GENERAL




                       Semiannual Report to the Congress
                          April 1 - September 30, 1994




UNITED        STATES          DEPARTMENT                    OF   LABOR
   SemiannualReportto the Congress                                                April 1 - September30, 1994




   THE INSPECTOR GENERAL'S STATEMENT

   This SemiannualReport,coveringthe periodfromApril I throughSeptember30, 1994, documents
   manysignificantaccomplishments   of themenandwomenofthe U.S. Departmentof Labor's(DOL)
   Officeof InspectorGeneral(OIG). Particularly
                                              noteworthyistheOIGnationwideauditoftheTargeted
   JobsTax CreditProgram;an extensiveinvestigation  of corruptioninvolvingMine SafetyandHealth
   inspectors;theconclusionofan investigation intoa multi-million
                                                                dollarhealthinsurancescam;and
   the OIG's auditon the impactof pensionplanterminationson participants.

    From a legislativeperspective,twoareas critical to the missionof the OIG were addressed in this
   Congress. First,largelyas a resultof the OIG activelyworkingwiththe Congressandthe Depart-
   ment,legislationto permanentlyamendthe FederalEmployees'CompensationACt(FECA) andits
   relatedcriminalstatuteswas introducedbySenatorHarkinof Iowaandenacted. The OIG believes
   thatthischangein the lawwill greatlydeterfraudand abuse of the FECA program. Second,the
    FederalAcquisitionStreamliningAct, introducedbySenatorGlennof Ohio,was passedby Con-
   gress.Thiscomprehensiveprocurementreformmeasurecontainsprovisionsthatcodifyandclarify
   what costscontractorsmaysubmitto theGovernmentandprovidesall Federal agencieswiththe
   sameauthoritytoassesspenaltiesagainstabusers.OIG auditshaverepeatedlyidentifiedabuses
   and, in Mayof thisyear,I testifiedbeforetheSenate CommitteeonAppropriations,Subcommittee
   onLaborthatI believedthistobe a widespreadGovernmentproblem.The OIG isoftheopinionthat
   this measurewillgoa longwaytowardsdeterringcontractorsfromsubmittingimproperchargesto
   the Government.

   During this period, in keepingwith the Governmentwidestreamlining and reinvention principles of
   the NationalPerformance Review,the OIG initiated a comprehensivereview of its intemal organiza-
   tional structure in order to consolidate functions and to the extent possible, eliminate supervisory
   and senior management positions, especially within headquarters. Through consolidation of OIG
   managementresponsibilities, 3 Senior ExecutiveService (SES)and 10 GS-15 positions have been
   eliminated, for a reduction of one-third of the headquarters SES and GS-15 positions. The OIG
   intendsto continue to identify and implementfurther streamlining initiatives.

   As in the past, my staffand I remain committedto working with Secretary Reich and the DOL man-
   agement team to ensure that DOL programs andfunds are effectively, efficiently,and economically
   managed; and that program results are maximized.




_lhspector    General
SemiannualReporttothe Congress                                                       Apdl 1 - September30, 1994




SIGNIFICANT CONCERNS
OF THE INSPECTOR GENERAL

                                 The TargetedJobsTaxCredit (TJTC) Programwas createdto induce
Ineffective                      employersto hiredisadvantagedindividualsin exchangefor Federal
TJTC Program                     tax credits. However,a recent OIG nationwideauditof the program
Should be Eliminated             determinedthat92 percentoftheemployeesinourauditsamplewould
                                 havebeenhiredregardlessof thetaxcredit. Inmostcases,TJTC eligi-
                                 bilitywas determinedafterthe decisionto hirewas made. As a result
                                 of the auditfindings,the OIG recommendedin the reportand in testi-
                                 monybeforethe House Committeeon GovernmentOperations,Sub-
                                 committeeon Employment,Housing,andAviationthattheprogrambe
                                 eliminated. The Administration testifiedat thathearingandbeforethe
                                 House Committeeon Ways and Means, Subcommitteeon Special
                                 RevenueMeasures,thatitdoesnotsupportextensionof theprogramin
                                 itscurrentform.

                                 The TJTC programwasnotre,authorizedduringthisCongressand,there-
                                 fore, will expire in December of this year. As Congress continues to
                                 assess the effectiveness of the TJTC program, the OIG urges that the
                                 program be eliminated, since the tax credit results in a windfall for em-
                                 ployers rather than in inducing them to hire the disadvantaged.


                                 The Job Corps Program was created 30 years ago as a residential
Pockets of                       education and training program to assist disadvantaged youths to be-
Ineffectiveness in the           comemoreemployable,productivecitizens.The OIGbelievesthispro-
Job Corps Need                   gram is an importanttool in helpingdisadvantagedyoungmen and
to be Addressed                  womento turntheirlivesaroundand increasetheireconomicearning
                                 power.This importantmission,coupledwiththefact thattheprogram's
                                 costsexceed$1 billionperyear,makesensuringJobCorps'success
                                 vitallyimportant. At a recentcongressionalhearing,the OIG testified
                                 that,while DOL has generallytaken correctiveaction in responseto
                                 OIG recommendationsto improvethe program,there continueto be
                                 pocketsof ineffectiveness  withintheprogramthatneedto beaddressed
                                 by DOL before it continuesto recommendthat Job Corpsbe signifi-
                                 cantly expanded. The OIG notesthatwidevariances inoverall perfor-
                                 mance among Job Corps centers remain. The OIG believes attention
                                 is needed in this important area to ensure that every student entering
                                 Job Corps has the same chance to succeed, regardless of what center
                                 he or she attends, and to ensure that scarce resources are not wasted.
SemiannualReporttothe Congress                                                      April 1 - September30, 1994




                                 Since 1984,the OIG has reported that hundreds of billions of dollars in
Audits of                        employeepensionfundsare not beingfully auditedby independentpublic
Pension Plan Assets              accountantstoensurethattheyarebeingsafeguardedandavailablein
by Public Accountants            thefutureto pay promisedbenefits.The limitedscopeauditprovision
Are Inadequate                   oftheEmployeeRetirementIncomeSecurityAct (ERISA) of 1974 isan
                                 importantcontributorto the dangerof incompleteauditingofpension
                                 planassets. The limitedscopeauditprovisionexemptsfromreviewby
                                 anauditorall pensionplanfundsthathavebeeninvestedin institutions
                                 suchassavingsand loans,banks,or insurancecompaniesalreadyregu-
                                 lated by Federalor StateGovernments. At the time ERISAwas passed,
                                 it wasassumedthat allfunds investedin those regulatedindustrieswere
                                 being adequately audited. Unfortunately, as has since been discov-
                                 ered, this is far from true. The OIG has long recommended that ERISA
                                 be amendedto repeal the limited scopeaudit provision. Such a change
                                 will be a major step that will involve public accountants in the kind of
                                 active role that ERISAoriginally intendedthem to take - that of offering
                                 a first line of defense to pension plan participants by apprising them of
                                 potential problemswith their pension plans.

                                  In addition,the OIG isconcerned with someof the potentialconflictsof
                                  interestthat are inherent inthe audit procurementprocess. Specifically,
                                 the current pension plan audit process is flawed by the system that is
                                  being used to procure pension plan audits, since the plan administra-
                                 tors are the ones who normally select and pay the auditors of their own
                                 plans. Moreover,the publicaccountantsgenerally report their findings
                                 directly to the same plan administrators who are responsible for their
                                 being hired. This creates an awkward situation at best, and a potential
                                 conflict of interestatworst,since a public accountantwho finds fault with
                                 a plan may bejeopardizing the chance to be considered by thatplan for
                                 future engagements. Furthermore,if the public accountant reportsonly
                                 to the plan administrator, the administrator may not possessthe initia-
                                 tive and/or independence necessaryto take any necessarycorrective
                                 actions. Although this past Labor Day markedthe 20th anniversary of
                                 the enactmentof ERISA, the OIG is concerned that very little progress
                                 has been madeto correct these vulnerabilities.


                                 Criminalinvestigationsby the OIG's Officeof Labor Racketeering(OLR)
The OIG Continues to             continue to uncover multi-million dollar, multi-state health care fraud
Uncover Health Care              schemesin Multiple EmployerWelfareArrangements(MEWAs). These
Fraud Schemes                    are arrangementsamonggroupsof employerswith a commoninterest
                                 to poolresourcesto providehealthcarecoveragetotheir employees.




                                                       .°.
                                                      III
SemiannualReportto the Congress                                                      April1 - September30, 1994




                                  Since 1989, OLR has uncovered several "entrepreneurial" iViEWAs,
                                  whichare arrangedandsoldbyoperatorswithnorelationtothepartici-
                                  patingemployers.A number of these MEWAswere managedby inex-
                                  periencedand, in somecases, unscrupulousindividualswho falsely
                                  claimedto be exemptfromstate insuranceregulation. Usingthe pre-
                                  emptionfeatureoftheERISAas a shield,somefraudulentMEWAshave
                                  swindledtens of thousandsofAmericanworkersoutof millionsof dol-
                                  larsinpremiums,and leftmanymillionsmoreinunpaidmedicalclaims.
                                   Itisevidentthatthe largeamountsof moneyresidinginpensionplans
                                  (estimatedat a totalin excessof $2.7 trillion)andthebillionsof dollars
                                  flowing throughemployeebenefit plans is a lucrativetarget for rack-
                                  eteers.

                                  Recently, OLR investigationshave narrowed their focus from typical
                                  iViEVAoperationsto boguslaborunions. Initialindicationsshowthat
                                  these"unions"conductno legitimatecollectivebargainingand provide
                                  no representationfor theirmembers,butmerelyserve as vehiclesfor
                                  the saleof insuranceoutsideofthe scrutinyof state insuranceregula-
                                  tors.

                                  In light of the financial ruin that many American families have suffered
                                  because of the lossof medical coverage and benefits,OLR will con-
                                  tinue itspriorityto combat criminalactivityin employeebenefitfunds.
                                  Throughourinvestigative      efforts,theOLR seeksto preventthesefraudu-
                                  lenthealthcareoperationsfromgainingan airof legitimacyunderhealth
                                  care reformand toprevent the operatorsfrom marketing a productdes-
                                  tined for abuse.
SemiannualReporttothe Congress                                                                                                              April 1 - September30, 1994




TABLE OF CONTENTS

THE INSPECTOR                   GENERAUS               STATEMENT .........................................................................................

SIGNIFICANT              CONCERNS OF THE INSPECTOR                                      GENERAL ............................................................ t_

IneffectiveTJTCProgramShouldbeEliminated.................................................................................................. ii
Pocketsof Ineffectivenessinthe JobCorpsNeed to beAddressed..................................................................... ii
Auditsof PensionPlan Assetsby PublicAccountantsAre Inadequate .............................................................. iii
The OIG Continuesto UncoverHealthCareFraudSchemes.............................................................................. iii

SELECTED STATISTICS
  April 1 - September30, 1994 ........................................................................................................................            1

OFFICE OF AUDIT .......................................................................................................................................           2

Employment and Training Administration ..................................................................................................... 2
State EmploymentSecurityAgencies ............................................................................................................... 2
JTPA"13tlesII and III Programs...........................................................................................................................   6
JTPA"l-dieIV Programs.....................................................................................................................................  7
OlderWorkerPrograms...................................................................................................................................     12
InternalControlsImplementedby ETAto PreventExcessiveCashDrawdowns.................................................. 13

Pension Plan Terminations ..........................................................................................................................             13

Financial Management ................................................................................................................................            18

Revised Management Decisions ..................................................................................................................                  30


OFFICE OF INVESTIGATIONS                             ........................................................................................................    31

Summary of Program Investigations ...........................................................................................................                    31
SignificantAccomplishments .......................................................................................................................               33
FederalEmployees'CompensationAct(FECA) ...............................................................................................                           40
JobTrainingPartnershipAct(JTPA).................................................................................................................                 43
UnemploymentInsurance(Ul) ..........................................................................................................................             45
EmployeeIntegrity....................................... . ..................................................................................................    45
BlackLungProgram.......................................................................................................................................          46
Wage and Hour...............................................................................................................................................     47
Complaint Analysis Office Activities ............................................................................................................                47
Appendix - Office of Investigations Financial Accomplishments ...............................................................                                    48
SemiannualReportto the Congress                                                                                                           April1 - September30, 1994




OFFICE OF LABOR RACKETEERING ...................................................................................................                                 49

Continuing Emphasis on Impact ..................................................................................................................                 49
Significant Accomplishments .......................................................................................................................              50
Employee Benefit Plans ..................................................................................................................................        50
Labor-ManagementRelations ..........................................................................................................................             60
InternalUnionAffairs .......................................................................................................................................     64
Other InvestigativeActivities ............................................................................................................................       65


EXECUTIVE             DIRECTION             AND MANAGEMENT                       .............................................................................   69

Office of Resource Management and Legislative Assessment ...................................................................                                     69
Legislativeand RegulatoryAssessmentand Review.........................................................................................                           69
 IssuesReviewedorAddressedin the 103rdCongress...................................................................................                                69
 MeasuresRequiringCongressionalAction....................................................................................................                        72
Special Projects Office .................................................................................................................................        74
Reporting Requirements Under The Inspector General Act of 1978...........................................................                                        76


AUDIT SCHEDULES .................................................................................................................................                77
MoneyOwedtheDepartmentof Labor.............................................................................................................                      79
Summaryof AuditActivityof DOLPrograms....................................................................................................                        80
Summaryof AuditActivityof ETA Programs.....................................................................................................                      81
Summary of AuditsPerformedUnderthe SingleAuditACt................................................................................                                82
Summary of AuditsPerformedUndertheSingleAuditACt- Multi-AgencyProgramReports ..............................                                                      83
Auditsby Non-FederalAuditors,PCIE SemiannualReporting- Summary Resultsof IG Reviews .......................                                                      84
Summary of AuditResolutionActivity- QuestionedCosts ................................................................................                             85
Summaryof AuditResolutionActivity- UnsupportedQuestionedCosts............................................................                                        86
Summary ofAuditResolutionActivity- FundsPutto BetterUse ......................................................................                                   87
UnresolvedAuditsOver6 Months....................................................................................................................                 88
Summary of FinalActionActivity- DisallowedCosts........................................................................................                          g0
Summary of FinalActionActivity- FundsPutto Better Use ...............................................................................                            91
SignificantRecommendationsResolvedfor Over OneYearonwhich
 CorrectiveActionHas Not BeenCompleted(as of September30, 1994) .........................................................                                        92
FinalAuditReportsIssued ..............................................................................................................................           g6




                                                                                 vi
Semiannual
        ReporttotheCongress                                                                                     April1 - September
                                                                                                                                 30, 1994




SELECTED STATISTICS
April I - September 30, 1994


Office of Audit

Reportsissuedon DOL activities......................................................................................... 178
Totalquestionedcosts............................................................................................ $13.2 million
Dollarsresolved..................................................................................................... $ 23.4 million
      Allowed........................................................................................ $11.9 million
      Disallowed................................................................................... $ 5.8 million
      Agreedfundsputtobetteruse ...................................................... $ 5.7 million

Office of Investigations

Casesopened ..................................................................................................................... 168
Cases closed....................................................................................................................... 186
Cases referredfor prosecution.............................................................................................. 115
Casesreferredforadministrativecivilaction ........................................................................ 108
Indictments ........................................................................................................................... 108
Convictions............................................................................................................................ 77
Recoveries,costefficiencies,restitutions,                 fines/penalties,
  and civilmonetaryactions..................................................................................... $ 2.1 million


Office of Labor Racketeering

Casesopened ....................................................................................................................... 57
Casesclosed......................................................................................................................... 56
indictments............................................... ................................................................. ,............ 76
Convictions............................................................................................................................ 76
Fines........................................................................................................................ $ 0.6 million
Restitutions.............................................................................................................. $ 2.9 million
Forfeitures............................................................................................................... $ 6.2 million




NOTE: The Office of Investigations   and the Office of Labor Racketeeringconductcriminalinvestigationsof individualswhich
can lead to prosecutions("indictments")by criminalcomplaints, warrants, informations,indictments,or pre-trialdiversion
agreements. Successfulprosecutionsmay carry sentencessuch as fines, restitutions,forfeitures,or other monetary penal-
ties. The Office of Investigations'monetary resultsalso includeadministrativeand civilactionswhich are further detailed and
defined in an Appendixon page 48 of this report.
SemiannualReporttothe Congress                                                   April1 - September30, 1994




OFFICE OF AUDIT

                                 During this reporting period, 178 audits of program activities,grants
                                 and contracts were issued. Of these, 21 were performed by OIG
                                 auditors, 15 by CPA auditors under OIG contract, 23 by State and
                                 Local Governmentauditorsfor DOL grantees andsubrecipients,and
                                 119by CPAfirms hired by DOL grantees or subrecipients. A list of
                                 these audit reports is contained in the Audit and Schedules Section
                                 of this report.


•                                The Employment and Training Administration (ETA)administers a
EMPLOYM ENT                      number of statutesrelated toemploymentand training services for
                                 the unemployedandunderemployed,   employmentsecurityfor work-
AND TRAINING
                                 ers, andotherprogramsthatare directedtotheemploymentneeds
ADMINISTRATION                   ofthe Nation.

                                 A major ETA responsibility is to administer the Job Training Part-
                                 nership Act (JTPA). JTPA authorizes a decentralized structure for
                                 the delivery of employment and training services, which is funded
                                 through grantsand administeredpredominantlyby the states. ETA's
                                 employmentsecurityfunctionsare carried out by the Unemployment
                                 Insurance Service(UIS),which administers a nationwide unemploy-
                                 ment compensation system, and the U.S. Employment Service
                                 (USES), which administers a nationwide public employment ser-
                                 vice system.


STATE EMPLOYMENT                 Programsunderthe UISand the USES are operated by State Em-
SECURITY AGENCIES                ploymentSecurityAgencies(SESAs).

Targeted Jobs Tax Credit         The TargetedJobsTaxCredit(TJTC) programwas enacted in 1978.
Program                          The purposeof the programisto induceemployersto hire mem-
                                 bersof ninetargetedgroups-- predominantlydisadvantaged,hard-
                                 to-employindividuals- inexchangefortax credits.The JointCom-
                                 mitteeon Taxationestimatesthat in 1994, the TJTC programwill
                                 resultin revenuelossesof nearly$300 million.
SemiannualReportto the Congress                                                     April 1 - September30, 1994




                                  Nationwide Audit of the Tar.qetedJobs Tax Credit Pro,qram

                                  During this reporting period, the OIG completed a nationwide audit
                                  of the TJTC programwhich examinedactivities for the period July 1,
                                  1991 through June 30, 1992. The audit covered 9 states and in-
                                  cluded an evaluation of 1,150 individuals for whom employers re-
                                  ceived TJTC eligibility certifications. The audit sample design al-
                                  lowed the OIG to statistically project its sample results to the pro-
                                  gram nationwide.

                                  The OIG found that the tax credits did not induce employers to hire
                                  members of the targeted groups. Nationally, the OIG projects 92
                                  percentof those individualsforwhom employerscould have claimed
                                  a credit would have been hired regardless of the tax subsidy.More-
                                  over, employerstypically checkedfor TJTC eligibility after the hiring
                                  decision was made. Most employerspaid contractors to determine
                                  whether job applicants met the TJTC program's eligibility require-
                                  ments and to assist in obtaining an eligibility certification from State
                                  Employment Security Agencies (SESAs).

                                  For the audit period, the OIG estimates that the costs of the TJTC
                                  program exceeded its benefits by over $234 million. That is, for
                                  each dollar in administrative costs and tax credits, only about 37
                                  cents in economic benefits were returned.

                                  The audit disclosed that TJTC employment is typically character-
                                  ized by low-wage,low-skill,high-turnoverjobs that offer no benefits.
                                  The OIGprojectsthat through their TJTC employment, about:

                                  •   1 in 3 employees was paid the minimum wage allowed by law;
                                      for all TJTC jobs in our sample,starting wages averaged $4.96.

                                  •   2 of 3 employeesworked part-time.

                                  •   2 of 3 employees received no fringe benefits, such as health or
                                      life insurance.

                                  •   3 of 4 employees were no longer with the TJTC employer five
                                      quarters after being hired.

                                  The OIG also compared TJTC employment-related wages, hours
                                  worked, fringe benefits and other job characteristics with the same
SemiannualReporttothe Congress                                                      April1 - September30, 1994




                                 measuresfor jobs employees held before and after theirTJTC em-
                                 ployment. Overall, the TJTC jobs were much like other jobs in the
                                 individuals' employment histories. That is, the TJTC job was an-
                                 other entry-level, low-pay,low-skilljob in a successionof similarjobs
                                 many of the individualshad previouslyheld. TJTC-coveredemploy-
                                 ment was the first job for only 13 percent of the individuals we
                                 sampled.

                                 The OIGconcluded thatthe TJTC program is notan effectivemeans
                                 of helping target group members find employment. For the most
                                 part, the TJTC program simply does not cause the employment of
                                 the target group members. As a result, the OIG recommended that
                                 the SecretaryencourageCongressto discontinuethe programwhen
                                 its authorization expires on December 31, 1994.

                                  In its response to the OIG report, ETAcommented that past studies
                                 have cast doubt on the TJTC program's effectiveness and that the
                                 audit report, "... adds tOthose indications and deepens our concern
                                 about the program's design." However, ETA suggested that the
                                 audit is insufficient and that a "scientific study"with a "carefully con-
                                 structedmethodology"is necessaryto determinethe program'slong-
                                 term impact. ETA indicated it shares OIG's concern that the pro-
                                 gram "does not effectively provide incentives for employers to hire
                                 individualsin the targetedgroups"andwill "continueto examineways
                                 to strengthen achievement.., including commissioning of a scien-
                                 tific study on the program's overall effectiveness."

                                 The OIG isdisappointed by ETA'sresponse. We believe continuing
                                 the program while funding yet another study of this already exten-
                                 sively studied program will only add to its considerable expense,
                                 delay corrective action, and frustrate the objectives of the Vice
                                 President'sNational Performance Review. Moreover,in its 16-year
                                 history,a number of amendmentshave unsuccessfully attemptedto
                                 "fix" the program. The OIG is of the opinion that because the pro-
                                 gram seldom achieves its intended purpose - to cause the employ-
                                 ment of these target group members --it should be eliminated.

                                 Congressionalhearings by twoHousesubcommitteesonthefate of
                                 the program were held following the issuance of the OIG report and
                                 are discussed in the Executive Direction and Management section
                                 of this report. (Report No. 04-94-021-03-320, issued August 18, 1994)
Semiannual
        ReporttotheCongress                                                    April1 - September
                                                                                               30, 1994




Arizona Department of         ArizonaDepartmentof EconomicSecurityAuditofTaskIV Analysis
Economic Security
                              The OIG auditedtheTaskIV analysispreparedby theArizona De-
                              partmentof EconomicSecurity(ADES) forthe period October1,
                               1987throughSeptember30, 1990. Byagreementbetweenthe U.S.
                              Departmentof Laborand the ADES, ADES was requiredto com-
                              pleteseveralspecifictasksto correctdeficienciesnotedduringthe
                              FYs 1988, 1989, and 1990 auditsperformedunder provisionsof
                              the SingleAuditAct, andto provideassurancethatFederalexpen-
                              ditureswerecorrectlyaccountedforandreported.TaskIVcalledfor
                              ADES to providereasonableassurancesthatexpendituresin ex-
                              cessof obligationalauthorityforthe periodOctober1, 1984 through
                              September30, 1990,werefundedwithnon-Federaldollars.

                              The OIG audit contains a scope limitationon the Task IV Analysis
                              and one finding. The scope was limited because the audit did not
                              include a test of allowability of individual transactions for non-DOL
                              programs, nor for DOL programs for the period October 1, 1987 to
                              September 30, 1988. The finding involves duplicate billings of
                              $731,178which were madeunder a Wagner-Peyser grant for JTPA
                              and RehabilitationServicesAdministrationactivities. (Report      No.12-
                              94-018-03-325, issued August 24, 1994)


                              ADES Scheduleof DOL FinancialAssistance

                              The OIG performedan auditon the schedulesofthe Department's
                              financialassistancetotheArizonaDepartmentofEconomicSecu-
                              rity(ADES) for the 2 yearsended June30, 1990, and the 2 years
                              endedSeptember30, 1990. The auditreportcontainsan unquali-
                              fied opiniononthe schedules.

                              The internalcontrol report notesthree reportableconditionswhich
                              are considered material weaknesses: (1) ADES did not maintain
                              documentation to support allowability of costs incurred outside the
                              specified grant period; (2) ADES did not maintain adequate docu-
                              mentation to supportjournal entries usedto transfer costs between
                              DOL grants; and (3) ADES did not perform regular reconciliations
                              between the ADES accounting systems and the State of Arizona
                              accounting system.

                              The compliancefindings include:(1) nonpersonnelservicecostsof
                              $101,215 that were charged to incorrect DOL grants; (2) reported
                              coststhat include$174,193ofcosts incurredsubsequentto the grant
SemiannualReportto the Congress                                                     April 1 - September30, 1994




                                  period; and (3) $326,493 of costs that were transferred between
                                  grants without documentation to support benefit to the DOL grants
                                  charged. (ReportNo.12-.94-017-03-325,
                                                                     issuedAugust24,1994)


JTPA TITLES II AND Ill            Title II of the JTPA authorizesemploymentand training servicesfor
PROGRAMS                          eligibleadultsandyouthand isfundedthroughgrantsadministered
                                  by the states. Title III authorizesthe EconomicDislocationand
                                  WorkerAdjustmentAssistance(EDWAA) programwhichprovides
                                  comprehensiveemployment,training,and supportservicesto eli-
                                  gibledislocatedworkers.

                                  GeorgiaMountainsRe_qional
                                                         DevelopmentCenter

                                  The Georgia Mountains;Regional Development Center was estab-
                                  lished to promoteeconomic developmentwithin a 13-countyarea in
                                  northern Georgia. The Center has been designated as the Service
                                  DeliveryArea for North Georgia. In addition to DOL grants, the cen-
                                  ter administers other Federal and State programs.

                                  As a result of concerns raised by ETA, the OIG audited selected
                                  expenditures of the $2.6 million which was charged to DOL grants
                                  for Program Year 1992. However,the audit disclosed issueswhich
                                  caused us to examine earlier years' financial activities.

                                  Georgia law prohibits regional development centers from directly
                                  providing participant assistance services to the public. To avoid
                                  this prohibition, the Center created related nonprofit corporations
                                  and contractedwith them for delivery of services. In 1992,the Geor-
                                  gia State Attorney General issued an opinion indicating it was im-
                                  proper for the Center to have created and contracted with the re-
                                  lated entities.

                                  Followingthe opinion, the Center began contracting with a for-profit
                                  organization to serve the programs' participants. Many of the costs
                                  claimed by the contractor are for items or facilities the Center or its
                                  related entitieshave available. Consequently,the contractswith for-
                                  profit vendors have increased administrative costs of the programs
                                  and reduced funds available to assist those needing help.

                                  The audit also found indirect costs the Center charged to the DOL
                                  grants often provided little or no benefitto Labor's programs. When
                                  beneficial, the servicesfor which Labor programs were charged in-



                                                   6
SemiannualReporttothe Congress                                                April1 - September30, 1994




                                 direct costscouldhave been obtained at little or no costfromother
                                 sources.


                                 The OIG auditalsoidentifiedabusesrelatedto a $336,000contract
                                 modificationinvolvinga contractbetweentheCenteranda for-profit
                                 contractor.The fundswereintendedtoprovideparticipants withon-
                                 the-jobtraining. However,becausethe contract'stermswere im-
                                 properlynegotiated,thecontractorretainednearlytwo-thirdsofthe
                                 fundsasfees. The OIG didnotquestionthese chargesbecausea
                                 recentETAreviewhasrecommendedtheirrecovery.

                                 TheOIGquestioned    rentalcostsof$164,506,chargedtoDOLgrants,
                                 for space in buildingswhichwere purchasedpredominantlywith
                                 Federalfunds.The Centercontinuedto chargerentforofficespace
                                 after the buildings'constructiondebtwas retiredthrough"rental"
                                 chargesto Federalgrants.

                                 The OIG recommendedtheAssistantSecretaryforEmployment   and
                                 Trainingrequirethe Stateto pursuea morecosteffectiveprogram
                                 deliverysystem. As severalotherGeorgiaRegionalDevelopment
                                 Centersoperatein similarcircumstances,correctiveactionshould
                                 alsoaddresstheiractivities. We also recommendedrecoveryof
                                 $164,506 in improperrentalcharges.

                                 In hisresponse,theCenter'sExecutiveDirectorexpressedgeneral
                                 agreementthatthe Center'slimitedcapabilitytodeliverparticipant
                                 serviceshas increasedadministrativecostsbornebyFederal pro-
                                 grams. However,the Directorcontendsthatthe rentalchargesin-
                                 cludedallowableoperationand maintenanceexpenses. (Report   No.
                                 04-94-025-03-340,
                                                issued
                                                     August11,1994)


JTPA TITLE IV                    JTPATitleIV authorizesemploymentandtrainingprogramsfor Na-
PROGRAMS                         tiveAmericans,SeasonalFarmworkers, andotheractivitiesandpro-
                                 gramscollectivelyknownas "NationalPrograms."


Native American                  JTPATitle IV grantsawardedto NativeAmerican groupsare de-
Programs                         signedtoimprovetheeconomicwell-beingof NativeAmericans(In-
                                 dians,Eskimos,Aleuts,andNativeHawaiians)byproviding jobtrain-
                                 ingandemployment-related servicestoeligibleindividuals.
Semiannual
        ReporttotheCongress                                                    April1 - September
                                                                                               30, 1994




                              The Falmouth Institute($141,882 Disallowed)

                              The FalmouthInstituteisa for-profitcorporation
                                                                           that largelyprovides
                              consultantservicesto NativeAmerican and Indianorganizations.
                              ETAawardedFalmoutha contractto providetrainingandtechnical
                              assistance
                                       throughon-sitevisitsforNativeAmedcanandIndiangrant-
                              eesfundedunderJTPAandtoconductspecifiedtrainingseminars.

                              On September 7, 1994, the ETA Contracting Officer issued a final
                              decision disallowing $1.41,882of the $145,411 questioned costs in
                              the OIG audit report issued on October 29, 1993. The questioned
                              costs result from the OIG's audit of the direct and indirect costs
                              claimed during the period June 20, 1990 to June 20, 1992. (Report
                              No. 18-94-001-07-735, issued October 29, 1993)



Seasonal Farmworker           JTPA Title IV also authorizes employment and training programs
Programs                      designedto meet the specialneeds of seasonal farmworkers.


                              CaliforniaHumanDevelopmentCorporation(CHDC)
                              ($1,165,160 questioned)

                               CHDC is a nonprofit c/:)rporationthat received a number of grants
                              directly from the Department of Labor to operate employment and
                              training programs for migrant and seasonal farmworkers in three
                              States (California,Oregon and Washington). The OIG performeda
                              financial and compliance audit of expenditures made by CHDC's
                              branch officeknown as Washington Human Development (WILD),
                              selected Seattle-King County Private Industry Council agreements
                              and property administrative practices. The audit resulted in $1.17
                              million in questioned costs (27 percentof the $4.3 million in reported
                              costs for the 18-month period audited).

                              Our majorfindings were that: (1) WHD charged salaries and fringe
                              benefits of administrative personnel; and the costs of audits, sur-
                              veys,and consultantstotalling$690,121tothe trainingcostcategory,
                              rather than the administration cost category,which allowed WIlD to
                              circumvent the 20 percent limitation on administration costs; (2)
                              costs claimed of $222,113in WHD's Financial Status Reportswere
                              not supported by expenditure records;and (3) CHDC demonstrated
                              a total lack of control over Federal funds, including drawing down
                              funds far in excess of WHD's immediate needs, failing to pay WIlD
Semiannual
        ReporttotheCongress                                                   April1 - September
                                                                                               30, 1994




                              vendorsin a timelyfashion, andfailing to completebank reconcilia-
                              tions and related followup matters in a timely manner. Interestcom-
                              putedon the excesscash that shouldbe retumed to DOLis $67,244.
                              Our other questionedcosts resulted from duplicatecharges, inequi-
                              table allocations, unreasonable/unallowable charges and lack of
                              supporting documentation. In early May, the OIG issued an alert
                              memoto informthe SecretaryandETAthat CHDC hadalreadydrawn
                              down just about all of the years' funds under its DOL grants and, in
                              doing so, had diverted about $1.5 million for non-grant uses (in ad-
                              dition to our questioned costs on the Washington grant). We in-
                              formed the Department that CHDC appeared to be virtually bank-
                              rupt, with a large corporate debt and severe cash flow problems.
                              ETA then notified CHDC that it would not be refunded for Program
                              Year 1994. The training programs were offered to the three States.
                              They all accepted; however,California and Oregon chose CHDC to
                              run the programsfor them as a subgrantee. On September 1,1994,
                              CHDC declared Chapter 11bankruptcy. (ReportNo.18-94-018-03-365,
                              issued August 18, 1994)




National Programs             JTPATitleIV authorizesfundsfor nationallyadministeredactivities
                              suchas trainingandtechnicalassistanceprograms,researchand
                              evaluationprojects,and pilotanddemonstrationprojects.

                              OpportunitiesIndustrialization
                                                           CentersofAmerica,Inc.(OICA)

                              OICA is a nonprofit organization established to provide training and
                              job creation servicesto the poor and unemployed. It accomplishes
                              this task primarilythrough approximately70 affiliates, or job training
                              centers, throughout the U.S. OICA provides technical assistance
                              and training to its affiliates through several mechanisms including
                              workshops and classes, on-site visits, preparation and dissemina-
                              tion of technical"howto" manuals,and informationbulletinsconcem-
                              ing various aspects of JTPAand other job training legislation.

                              The OIGaudited $4.8 million in direct costs claimed by OICA under
                              a partnershipgrantfor the 3 fiscal years ended September30, 1993,
                              and in indirect cost rates proposed by OICA for the 3 fiscal years
                              ended June 30, 1993.

                              The audit resulted in questioned direct costs of $192,588and ques-
                              tioned indirect costs of $360,011. Inaddition, OICA did not remit to
                              DOL $2,268 in interest earned, as required. However, OICA billed
SemiannualReportto the Congress                                                   April1 - September30, 1994




                                  DOL usingindirectcost ratessubstantiallylowerthan eitherthe rates
                                  it had proposed or the "audit recommended" rates. As a result, if
                                  the "audit recommended" rates are accepted and the questioned
                                  direct costs are sustained, then OICA would owe DOL $142,044.

                                  The questioneddirectcostsresultedfromOICAbilling for costswhich
                                  exceeded the amounts recorded in the general ledger and improp-
                                  erly charging to the ETAgrant consultant fees, communication,sup-
                                  portiveservices,andmaterialsand supplieswhich should havebeen
                                  charged to either the indirect cost pool or other direct projects. The
                                  primary reasons for the questioned indirect costs were that OICA
                                  included unallowable salaries and fringe benefits for the ex-presi-
                                  dent andstaff membersworkingfor the Chairmanof the Board;made
                                  improvements to the building OICA rents that were improperly ex-
                                  pensed rather than capitalized and amortized;charged investment
                                  losses that were improperly written off; and made distributions to
                                  affiliates that were improperly charged as indirect costs.

                                  OICA disagreedwith someofthe questioned direct costs andstated
                                  that it would "pursue documentation" for the remaining questioned
                                  direct costs. OICA did not specifically address the various indirect
                                  cost items questioned; but disagreed with the impact of the ques-
                                  tioned indirectcostrates. (ReportNo.18-94-019-07-735,issuedAugust19,
                                  1994)

                                  Audit of DOL Grants for WAVE, Inc.

                                  WAVE is a national, nonprofit organization which received grants
                                  from ETAfor job training programs for youth (a Partnership grant
                                  and an Apprenticeship grant). The OIG auditedthe grantsfor Fiscal
                                  Years (FYs) 1990-1992 (about $1.4 million a year) and issued an
                                  audit report on September27, 1994. ETAhas not renewedWAVE's
                                  grants; the last grant from DOL expired on June 30, 1994. Of the
                                  total $4.8 million in costs claimed by WAVE for FYs 1990, 1991,
                                  and 1992, the OIG questioned $1.2 million (or about 25 percent of
                                  the overall grant funds) for the DOL Partnershipand Apprenticeship
                                  grants ($448,058 direct costs and $758,158 indirect costs). Be-
                                  cause of the reported findings, the auditors issued an adverse opin-
                                  ion on the costs claimed for the audit periods. WAVE disagreed
                                  with the questioned costs.




                                                  10
SemiannualReportto the Congress                                                    April 1 - September30, 1994




                                  Direct Costs: The questioned direct costswere primarily due to:
                                  (1) failing to reduce rental costs,which included rental costs of sub-
                                  lessees, by the rental income received from the sub-lessees; (2)
                                  allocating to the Partnershipgrant unallowable losses of other con-
                                  tracts/grants; (3) including the costs of the Board of Directors as
                                  direct costs insteadof indirect costs; (4) reclassifying costswithout
                                  adequate documentation tojustify the reclassification; and (5) un-
                                  derstating revenues resultingfrom erroneousjournal entries.

                                  IndirectCosts: WAVE charged a disproportionateshare of itssup-
                                  porting service costs (indirect costs) as direct costs to the Partner-
                                  ship grant. In addition, WAVE included substantial amounts of
                                  unallowable costs in its indirect costs, improperly treated the costs
                                  of fundraising activities as indirect costs, and allocated little or no
                                  indirectcoststo its largestprogram [DirectlyAdministeredPrograms
                                  (DAPs)] and to its private foundation grants.

                                  WAVEwas also inconsistent in the methods used to propose indi-
                                  rect cost rates and to allocate indirect costs to its programs. Both
                                  the indirect cost rate agreement and the grant provided provisional
                                  indirect cost rates based on the use of total direct costs as the allo-
                                  cation base. In proposing the rates for FYs 1990-91, WAVE ex-
                                  cluded the total direct costs of the DAPs from its allocation base,
                                  but, in proposing the rate for FY 1992, included such costs in the
                                  allocation base. However,in allocating indirect costsfor FYs 1991-
                                  92, WAVE used direct salaries, excluding those of the DAPs.

                                  Administrative Matters: In July 1990, WAVE revised its cost ac-
                                  counting practicesto stop accountingfor time spent on the Partner-
                                  ship grant, and to stop chargingany coststo the grant during a fiscal
                                  year. WAVE charged all of its costs to all other projects during the
                                  year and, at year end, "allocated" (transferred) to the Partnership
                                  grant the deficits of various cost centers whose activities, according
                                  to WAVE, were within the scope of the Partnership grant. This was
                                  done in a manner thatthe amountstransferredagreedwith the grant
                                  budget by line item and by total.

                                  WAVE's new method violated the following provisions of OMB Cir-
                                  cular A-122:(1 ) accountingfor salaries based on the "actual activity
                                  of each employee" reflected by timesheets; (2) requiring that direct
                                  costs be charged based on the concept of specific identification,
                                  and; (3) treating losses (or deficits) on other contracts/grants as
                                  unallowablecosts.



                                                   11
SemiannualReporttothe Congress                                                   April1 - September30, 1994




                                 Because it did not accountfor the actual time spent on, and the ac-
                                 tual costs incurredfor,the Partnershipgrant, WAVE not only violated
                                 key provisions of OMB Circular A-122, but it did not have accurate,
                                 reliable financial data to (1) draw down the proper amount of Fed-
                                 eral funds on a bi-weekly basis; and (2) prepare and submit to DOL
                                 the requiredquarterlyfinancial status reports. This deprived DOL of
                                 the necessary data to monitor WAVE's financial operations under
                                 the grant. (ReportNo.18-94-021-07-735,issuedSeptember 27,1994)


OLDER WORKER                     The Older AmericansAct of 1965 authorizes subsidized part-time
PROGRAMS                         workopportunitiesincommunityserviceactivitiesfor unemployed
                                 low-incomepersonsage 55 andover. Throughgrantsandcontracts
                                 administeredby ETA,the Senior CommunityService Employment
                                 Program(SCSEP) isintendedto addressunmetcommunityneeds
                                 byutilizingtheskillsof seniorcitizens.

                                 NationalCouncilon theAgin.cl($453,679 Disallowed)

                                 The National Council on the Aging (NCOA) is a private, nonprofit
                                 organizationfounded in 1950 to provide training, research, informa-
                                 tion, and technical assistance to professionals and volunteers in the
                                 agingfield. NCOA is one ofthe Nationalsponsors underthe SCSEP.

                                  CY 1990 Audit: In March 1993, the OIG issuedan audit report for
                                 calendar year 1990. The audit resulted in $560,145 in questioned
                                 costs (indirect $327,121; direct $233,024), with a DOL impact of
                                 $468,566. Because of these findings, the OIG issued an adverse
                                 opinion on the indirect and direct costs claimed by NCOA for calen-
                                 dar year 1990. The preponderanceof the questioned costs resulted
                                 from improper charges of salaries and fringe benefits for NCOA
                                 employeeswho worked on non-Federal programs,or activitiessuch
                                 as fundraising, membership, private programs and lobbying activi-
                                 ties, to both its indirect cost pool and ETAgrants. Other questioned
                                 costs resulted from the allocation of nonpersonnel costs (related to
                                 above) andfrom other direct charges to ETAgrants which resulted
                                 in the improper shifting of substantial costs to the Department. In
                                 September 1994,the ETA Grant Officer issued his Final Determi-
                                 nation disallowing $453,679.

                                 CYs 1988-89Audits:In March 1991,the OIG issuedan audit report
                                 as a resultof a financialauditof NCOA for CYs 1988-89. The find-
                                 ingswere similarto thosenoted above. In September 1992, the



                                                 12
Semiannual
        Report
            totheCongress                                                        April1 - September
                                                                                                  30, 1994




                            ETA grant officer issued his Final Determination disallowing
                            $342,545. On October 15, 1992, NCOA appealed to the Office of
                            Administrative Law Judges (ALJ). An ALJ hearing on this case is
                            still pending.

                            Thus, to date, $796,224 has been disallowed by the Department's
                            Grant Officer. (Reports No. 18-93-009-07-735, issued March 18, 1993; and 18-
                            91-018-07-735, issued July 19, 1991)



INTERNAL CONTROLS           ETA has taken a significant step to address a problem we noted
IMPLEMENTED BY ETA          duringa recent audit of a grantee. During thataudit, the OIG discov-
TO PREVENT EXCESSIVE        ered that, for a number of years, a grantee had been drawing down
CASH DRAWDOWNS              excessive funds. At times, the grantee had 4 to 5 months worth of
                            cash on hand. It appeared that ETA lacked procedures to avoid
                            excessive and unnecessarycash drawdownsby grantees. This was
                            confirmedwhen the grantee's management staffand ETA staffstated
                            there were no such internal controls in place to prevent the draw-
                            down of any amount which did not exceed the total grant award.
                            While the OIG did not know how widespread the problem was, we
                            believed it occurred because internal controls(a computerized edit
                            check, etc.) were lacking which would alert ETA of excessive draw-
                            downs by grantees. Accelerated cash drawdowns deprive the Fed-
                            eral Government of the use of these funds.

                            The OIG recommendecl to ETA that a computerized alert edit check
                            be programmed into the system which would alert ETA staff that
                            grantees may be accelerating cash drawdowns. As a result, ETA
                            requested HHS's Payment Management System staff to implement
                            a computerized drawdown filter. This filter will flag a grantee whose
                            monthly drawdowns are in excess of a certain percentage of its
                            monthly average. (ReportNo.18-94-017-03-310,   issuedAugust19,1994)


                            The Employee Retirement Income Security Act of 1974 (ERISA) is
PENSION PLAN                the principal law regulating qualified private pension and welfare
                            benefit plans in the United States. ERISA was enacted to curb
TERMINATIONS                abuses in administering and managing the voluntary system for
                            employee pension and welfare benefit plans and requires adequate
                            disclosure of information to pension plan participants and their ben-
                            eficiaries. The law established standards of conduct for plan man-
                            agers in order to assure proper fiduciary controls; funding require-
                            ments to provide greater security for participants' pensions; and a



                                              13
SemiannualReportto the Congress                                                    April 1 - September30, 1994




                                  federally mandated insurance program, operated by the Pension
                                  Benefit Guaranty Corporation (PBGC), to safeguard pension ben-
                                  efits for workers when certain defined benefit pension plans are ter-
                                  minated with insufficient assets to satisfy benefit liabilities.

                                  Audit onthe Impactof PensionPlanTerminations

                                  The OIG performeda nationwideaudit of pensionplan terminations.
                                  The main objective of the audit was to answer several questions,
                                  including:

                                  o Why are pensionplans terminated?

                                  o What impact do pension plan terminations have on American
                                    workers?

                                  o What impactdoesthe actualterminationprocesshaveon Ameri-
                                    can workers?

                                  Accordingto the PlanYear(PY) 1990 InternalRevenueService(IRS)
                                  Form 5500s, 60,859 pension plans were terminated involving 1.6
                                  million participants and almost$27.6 billion in plan assets. Pension
                                  and Welfare BenefitsAdministration (PWBA) information indicates
                                  that during the same 1990 plan year, the U.S. had 712,000 active
                                  private pension plans with $1.8 trillion in assets, which increased to
                                  $2.5 trillion in 1992.

                                   Plan Te_'mina_ions: Since ERISA'sestablishment in 1974, Con-
                                  gress has passed other' laws to strengthen funding requirements
                                  and provide additional protections to participants. Some of the
                                  changes have limited plan contributions, reduced the accumulation
                                  oftax deferredcontributions,or providednewtypes of pensionplans,
                                  prompting some employers to change the type of pension plan of-
                                  fered or terminate all pension coverage.

                                  The OIG interviewedplan sponsors and asked why their plans were
                                  terminated. Althoughsometimes more than one reason was given
                                  for terminating a pension plan,these are the three primary reasons
                                  given by 73 percent of the sponsors interviewed:




                                                  14
Semiannual
        Report
            totheCongress                                                   April1 - September
                                                                                            30, 1994




                            •   desire to eliminate the administrative and cost burdens of the
                                plans;

                            •   reactionto tax lawchangeswhichreducedtheir tax benefits;and

                            •   normal changes in the business entity or a change in sponsors.

                            Becauseof tax law changes and the resulting increase in adminis-
                            trative costs, some of the plan sponsors believe that the tax benefit
                            is no longer a sufficient reason to sponsor a qualified pension plan.
                            When askedwhat would be the best way to encourage sponsorsto
                            maintain their pension plans, 77 percent stated that reducing bur-
                            densome administrative requirements, reducing regulations and
                            providing employer incentives by changing tax lawswould encour-
                            age continued plan sponsorship.

                            The OIGbelieves employersoriginally setup their qualified pension
                            plans to provide retirementbenefits,becausethe tax laws benefitted
                            them,and pensionfunding costs were acceptable. Without contin-
                            ued encouragement and incentives, plan sponsorship may decline
                            leavingmillionsofAmerican workerswithout adequatepensioncov-
                            erage.

                             Impact on Participants: Eighty-twopercent of the participantsin-
                            terviewedstatedtheplanterminationhad noeffecton them. How-
                             ever,onlya few of theparticipantsdemonstratedtheytrulyunder-
                            stoodtheir pensionplanandwere concernedaboutlosingpension
                            coverage. Eighty-onepercentof the participantsreceivedonly a
                            smalldollaramountwhenthe planterminated,and they may have
                            consideredthelossof a smallbenefitas no loss. Whether the par-
                            ticipantsunderstooditornot,however,a pensionplanterminationis
                            a real lossintermsofbothpresentbenefitsandfutureincome;and
                            meansa lossof: 1) time accrued toward retirementif a replace-
                            mentplandoesnotallowprioryearsof servicetocounttowardvest-
                            ingorbenefitaccrualina newplanorsuccessorcompany'splan;2)
                            tax free accumulationsif the distributionisnot rolledoverintoan-
                            otherretirementvehicle;3) PBGC guarantyobligationfor defined
                            benefitplansunderTitleIV of ERISA;4) PBGCguarantyobligation
                            when irrevocablecommitments(annuitycontracts)havebeen pur-
                            chasedtopaybenefitliabilities;and5) benefitstoparticipantswhen
                            theycannotbe located.whentheplanterminates.




                                            15
Semiannual
       Report
           totheCongress                                                   April1 - September
                                                                                           30,1994




                           Another losswhichis difficultto quantifyis the possibilityan indi-
                           vidualmustdelayretirementuntillaterthanodginallyplannedand/or
                           experiencea reductioninlifestyleat retirementbecauseof a lossof
                           pensionbenefits.

                           Asset Distribution: Inthe qualifiedterminatedpensionplans,81
                           percentoftheparticipantsreceived8 percentof thebenefitsdistrib-
                           utedwhich,ifother resourcesarenotultimatelyavailable,wouldbe
                           inadequatetoprovidea meaningfulpension. On theotherhand,19
                           percentof theparticipantsreceived92 percentof thebenefits,more
                           than$10,000 each,providingconsiderableassetstowardfuturere-
                           tirement. In addition,someparticipantscouldnotbe locatedwhen
                           theplanterminated,and theymayneverreceivetheirpromisedben-
                           efitaccrualundertheterminatedplan. Approximately$51.6 million
                           inretirementfundsareI:_ingheldfor 105,000participantswhowere
                           notlocatedduringthebenefitdistributionprocess. Someof these
                           participantsand/ortheirbeneficiariesmay neverreceive theirac-
                           cruedbenefits.

                           The following table projects the amountsparticipants in terminated
                           plans received when benefitswere distributed:


                            "          PROJECTED, BENEF_T$_,T D0$TRnBUTOON

                           i


                                   0 to t,000           778       43            0.3                     t

                                 1,001 to 5,000        5_'0       30            t.3                         I




                                 5,001 to 10,000        '_6         8           t.0                     3I

                                                                   iiiii                                    I
                                t0,00t to 50,000        2_8       '_4           5.7                   t7 I
                                50,00t _o 100,000

                                  Over t00,000
                                                         36

                                                         _5
                                                                    2

                                                                    3
                                                                                2._

                                                                               23.0                   _8
                                                                                                        7

                                                                                                            I
                                                                                      iii',i:/ iiiiiiiiiiiiii'_i
                                     Total            t ,8_4     t 00          33.7                 _00     I
                                                 16
SemiannualReportto the Congress                                                     April1 - September30, 1994




                                  Since retirementfund accumulationsusually are related to the an-
                                  nual income and lengthof service, lowwage earners and those with
                                  short employmentperiods have little potential for earning large re-
                                  tirement benefits. However,participants with large annual incomes
                                  and longer lengths of time in the plan qualified for large amounts of
                                  retirementfunds.

                                  Trends: For the period prior to PY 1990, it appeared employers
                                  were terminatingdefinedbenefitplansandreplacingthemwithde-
                                  finedcontributionplans.Someparticipantsfeltthechangebenefitted
                                  themand otherspreferredthedefinedbenefitplan. However,ac-
                                  cording to the May 1994 issueof the EmployeeBenefitResearch
                                  Institute(EBRI)Notes,"Mostrecently,IRS statisticsindicatethatthe
                                  net growth in defined contributionplans may be slowing... IRS
                                  determinationletter statisticsalso indicatethat the decline in the
                                  numberofdefinedbenefitplansmay beflattening."

                                  A desirable attribute of defined benefit plans is that they provide a
                                  future monthlybenefit based on a formula,which includesfactorsfor
                                  years of service and annual earnings. Most of the time, employers
                                  are totally responsiblefor funding these plans. When changingfrom
                                  a defined benefit plan covered under Title IV of ERISA, to a defined
                                  contributionplan, parti.cipantslosethe PBGCFederal guarantyover
                                  pension assets.

                                  Defined contribution plans generally provide for paymentsinto an
                                  account in the name of the participant and at retirement the partici-
                                  pant receives the contributionsand earnings in the account. If it is a
                                  profit-sharing defined contribution plan, the employer decides how
                                  much, or if, to contribute eachyear. The defined contribution plans,
                                  in effect, shift the risk of investment gain or loss to the participant.

                                  Conclusion: The audit indicated that ERISAprovided reasonable
                                  protectionforthefundsinqualifiedpensionplans. However,in the
                                  terminatedplans we _eviewed,most participantshad only small
                                  amountsoffundswhile themajorityoffundsbelongedto a verysmall
                                  numberof participants.

                                  The impact of terminationsfor most participants, especially those
                                  with low annualincomes,was the receiptof only a modestamountof
                                  retirement resources and the loss of an ongoing plan which accu-
                                  mulated tax-deferred contributions and income. For some, the re-
                                  sult was the loss of a defined benefit plan and receipt of a defined



                                                   17
SemiannualReporttothe Congress                                                    April 1 - September30, 1994




                                 contribution plan. Fora few, the impactwas the receipt of very sig-
                                 nificant amountsof benefits.

                                 The U.S. Governmenthas a long-standingpolicy of grantingtax in-
                                 centives to employers providing pension coverage. Individual em-
                                 ployees participating in a pension plan receive a deferral on income
                                 tax as their benefits accrue. The advantage of accumulating tax-
                                 deferred benefits is lost when plans terminate and the funds are not
                                 reinvested in similar retirement programs.

                                 It isquestionablewhether or notthe participants covered in our re-
                                 view understood or appreciated the need for retirement planning,
                                 since 82 percent stated that pension plan termination had no effect
                                 on them. When asset distributions from the terminated plans are
                                 not reinvested, workersgive up one of the majorbenefits of the cur-
                                 rent pension and tax lawswhich allow pre-tax dollars to accumulate
                                 into significant amounts of compounded tax-deferred retirement
                                 savings. In addition, workers lose the vested time with the pension
                                 plan and normallyhave to re-startvesting requirementsin a pension
                                 plan, if one is made available. As a result, some workers may not
                                 be able to retire with income security or may be forced to remain
                                 active in the labor force longer than they desire. (Report No. 09-94-001-
                                 12-001,issuedSeptember   30,1994)


                                 The Department is making progress in several key financial man-
FU_CI_,L                         agement areas. For example, although the Department still does
                                 not havea Chief Financial Officer (CFO), improvementshave been
_,HA(;      IE_ rE_ T            made in the proposedorganizationalstructurefor the CFO. In addi-
                                 tion, many audit recomrnendationsfrom the Fiscal Year 1993 audit
                                 were resolved before the audit report was issued, and many audit
                                 recommendationsfrom prior years reports have been resolved and
                                 appropriate action has been taken or is in progress. The Depart-
                                 ment is also moving towards performance measures which reflect
                                 program outcomes.


CHIEF FDNANCnAL                  As reported in every semiannual report since the enactment of the
OFF_CEF_                         CFO Act of 1990,the OIG continuesto be concerned aboutthe lack
                                 of a permanent CFO for the Department of Labor. Currently, the
                                 Deputy CFO is serving as Acting CFO.




                                                 18
SemiannualReporttothe Congress                                                   April 1 - September30, 1994




                                 The OIG believesthat appointmentof a highly qualified permanent
                                 CFO would enhance the Department's ability to achieve and main-
                                 tain a high degreeof soundfinancial management. Amongthe ben-
                                 efits an independent CFO should provide to the Department would
                                 be objective financial information before various program policy
                                 decisionsare made and objectivefinancial evaluation of the results
                                 of such decisions, such as costanalyses of performance measures
                                 and activities, the monetary benefitsof program outcomes, and the
                                 retum on investment.

                                 Inthe last semiannual report,the OIG also expressedits concerns
                                 abouttheproposedCFO organizationalstructuresubmittedtoOMB.
                                 The Departmentwantedto combinethefunctionsof the Assistant
                                 Secretaryfor Policywiththoseof theCFO. The OIG believedthat
                                 thiscouldresultin a conflictof interest. The perception,and per-
                                 hapsreality,wouldbe thatthe CFO wouldnot objectivelyevaluate
                                 theDepartment'sfinancesrelatedtohisorher programpolicydeci-
                                 sions. Tomaintainappropriateseparationof duties,theCFO orga-
                                 nizationshouldbea separateagencyin DOL.

                                 Recently,the Department revised its proposal for the CFO organi-
                                 zational structure to make the Office of the CFO a separate agency
                                 in DOE However,the Departmentdecided to split the budget func-
                                 tions between the CFO and the Assistant Secretary for Policy and
                                 Budget (ASPB) as follows:

                                 •   The ASPB would be responsible for formulating the budget and
                                     representing the Department before the Congressional Appro-
                                     priations and Budget Committees, and the Office of Manage-
                                     ment and Budget (OMB) on budgetary matters.

                                 •   The CFO would be responsiblefor (1) all central budget execu-
                                     tion, including apportionmentand administrativecontroloffunds
                                     appropriated by the Congress; (2) monitoring the implementa-
                                     tion of departmental budgets through ongoing ad hoc and peri-
                                     odic formal reviews of component agency fund and position uti-
                                     lization; (3) relating the costs of program operations to results
                                     achieved; and (4) providing policy, guidance and oversight for
                                     the development of agency financial management budgets.

                                 The proposedchanges, as presented to the OIG, appearto remove
                                 the OIG's concerns about the CFO's independence and assigned
                                 functions.



                                                  19
SemiannualReporttothe Congress                                                     April1 - September30, 1994




FRSCALYEAR 1993                  The Department of Labor is required by the CFO Act of 1990 to
FINANCaAL AUDnTS                 annuallyprepareandsul_nitto OMBfinancialstatementsthatpresent
                                 theoverallfinancialposition,resultsof operations,cashflows,and
                                 budgetandactualexpensesofthe Department.As requiredby OMB,
                                 the Departmentalso includes,as part of thefinancialstatements,
                                 performancemeasuresfor itsvariousprograms.

                                 The CFO Act requires that the Department's financial statements
                                 be auditedannuallyfor fairpresentation.In addition,OMBrequires
                                 thatthe annualauditincludean understandingof the internalcon-
                                 trolsrelatedto thecompletenessand existence/occurrence    asser-
                                 tionsas theyrelatetothe reportedperformancemeasures.

                                 FY 1993 DOL ConsolidatedFinancialStatementAudit

                                 Audit Scope Qualification: As in prior years,the OIG qualified its
                                 opinionon theDepartment'sfinancialstatementsdue tothe lack of
                                 independentverificationofdata maintainedbythe U.S. Department
                                 of Treasury(i.e., the Federalunemploymentand coaltax revenues
                                 and relatedreceivablesand liabilities).However,progressisbeing
                                 madewithTreasuryandGAO officialsinobtainingannualauditsof
                                 theserevenuessufficientfor DOL toremovethequalificationfrom
                                 itsfinancialstatementsinfuture years.

                                 P_anagemen_'s  Asse_ions: The financial statementsand reported
                                 performancemeasuresmustbe reliablefor theAmericantaxpayers
                                 and Governmentdecisionmakers(Congress,Officeof Management
                                 and Budget,the Department,etal.). Inherentin the DOL financial
                                 statementsare six implied assertions by DOL management. If
                                 management'sassertionsare true, then the reportsare reliable.
                                 Therefore, management must have processes to ensure the
                                 assertionsmadearetrue.The OIG'srecommendations    forimproving
                                 internalcontrolsaredesignedtoassistmanagementin gainingthis
                                 assurance.These assertionsare:

                                 Existenceor Occurrence: Reported assetsand liabilities actually
                                 existedatthe balancesh_t date, and reportedtransactionsoccurred
                                 during the reporting period.

                                 Completeness:All transactionsand accounts thatoccurred during
                                 the fiscal year were reported, and all assets owned and all liabilities
                                 owed at the end of the fiscal year were reported.




                                                  20
SemiannualReportto the Congress                                                 April1 - September30, 1994




                                  Ri.qhtsand Obligations: Reportedassetswere ownedby DOL, and
                                  reported liabilities were owed by DOL.

                                  ValuationorAllocation: Assets, liabilities, revenues, and expenses
                                  were includedin the financialstatementsat the appropriateamounts.

                                  PresentationandDisclosure:Financialstatementcomponentswere
                                  properly classified, described, and disclosed in conformity with
                                  appropriate accounting principles.

                                  Compliance with Lawsand Re,qulations:Transactions, activities,
                                  and programs were in accordance with laws and regulations that
                                  could have a material impacton the financial statements.


                                  Current Year Audit Findings: In summary,of the 35 current year
                                  recommendations, managementagreed with 25 recommendations
                                  and disagreed with 10 recommendations. The OIG will continue to
                                  work with management on areas of disagreement. Management's
                                  response contained information sufficient to resolve 16
                                  recommendations, of which 2 are closed. The remaining 19
                                  recommendations are unresolved. In order for a recommendation
                                  to be considered resolved, management must provide a corrective
                                  action plan that constitutes a reasonable proposal for remedying
                                  the problemsor deficienciesdescribedin the auditwithin the shortest
                                  possible time. None of the current findings were considered to be
                                  material weaknesses.

                                  The OIG made recommendations related to five of the six
                                  management assertions: existence/occurrence, completeness,
                                  valuation/allocation, presentation and disclosure, and compliance
                                  with laws and regulations. We did not identify the need for
                                  improvements in the rights and obligations assertion.

                                  Existenceor OccurrenceAssertion:Improvementsinintemalcontrols
                                  would help ensure that (a) goodsand serviceswhichhave been
                                  receivedare notincludedin undeliveredorders;(b) documentation
                                  will be available to support recorded salaries and expense
                                  transactions; and (c) reported performance measureswill include
                                  only data that occurred during the reporting period.

                                  In their responseto the draft report, managementdid not agree that
                                  amounts identified in the audit as over-obligated deprived the



                                                  21
SemiannualReporttothe Congress                                                   April 1 - September30, 1994




                                 Department of the use of those funds; however, they did agree to
                                 reinforce their policy on periodically reviewing all obligations. With
                                 regard to performance measures, management believes that its
                                 evaluation of agency performancemeasurement systemswould be
                                 duplicative of the OIG's auditing responsibilities.

                                 Completeness Assertion: Improvementsin internal controls would
                                 help ensure that (a) accounts payable, obligations and subsequent
                                 adjustments,and Black Lung Disability Trust Fund receivables are
                                 recorded in the proper accounting period; and (b) reported
                                 performance measure data is complete. Although management
                                 concurredthataccounts payablewere not correctlyrecordedat year
                                 end, managementbelieves that the correct recording of obligations
                                 is as important as the correct recording of accounts payable. With
                                 regard to performance measures, management believes that their
                                 evaluation of agency performancemeasurement systemswould be
                                 duplicative ofthe OIG's auditing responsibilities.

                                 Valuationor Allocation Assertion: Improvementsin internal controls
                                 would help ensurethat (a) accountspayableand relatedtransactions
                                 are recorded at the correct amounts; (b) funds with U.S. Treasury
                                 account are properly valued; (c) Wage and Hour's civil monetary
                                 penalty and backwageaccountsare correctlystated; and (d) District
                                 of Columbia and Longshore Special Funds' cash receipts are
                                 allocated to the proper fund.

                                 Although managementdid not concurwiththe degree orsignificance
                                 of error noted in the accounts payable finding, they agreed in most
                                 instances to take some corrective action. Management believes
                                 that recommendations made regarding the reconciliation of funds
                                 with Treasury are somewhat hampered by Treasury reporting
                                 requirementsthat DOL balances agree with Treasury balances.

                                 Presentationand DisclosureAssertion: Improvements in internal
                                 controls would help ensure that accounts payable are properly
                                 classified as Federal of non-Federal. Management did not agree
                                 with this finding.




                                                 22
Semiannual
        Report
            totheCongress                                                April1 - September
                                                                                         30, 1994




                            Compliance with Laws and Regulations: Improvementsin the
                            methodofforecastingamountsneededfromtheUnemployment   Trust
                            Fund(UTF) for State UnemploymentInsuranceand Employment
                            Service Operations(SUIESO) would help to maximize interest
                            earningsoftheUTF, as requiredbythe SocialSecurityAct.

                            Managementdid notagreewith the OIG's conclusionthat Monthly
                            TreasuryStatementsdonotaccuratelyreflecttheoutlaysof theUTF
                            andappropriatedfunds.

                             PriorYearAudit Findings: The Departmenthas madesignificant
                            progressintakingactionon internalcontrolfindingsreportedas a
                            resultoftheauditof DOUsFY 1992financialstatements.Of the33
                            recommendationsmade (all of whichalso impactedthe FY 1993
                            internalcontrolstructure),19 are closed(i.e., appropriateactions
                            have been completed), 11 are resolved (i.e., managementhas
                            outlinedcorrectiveactions,but all plannedactionshave notbeen
                            completed),and 3 are unresolved(i.e., managementhas not yet
                            agreed on actionto be taken on reported findings). Five of the
                            recommendationsrelatedto materialweaknesses(four relatedto
                            the Department'saccounting andreportingforgrantsandonerelated
                            tothecomprehensive  accountingsystemfortheUnemployment     Trust
                            Fund). The 11resolvedrecommendations     pertainto:

                            •   Accountingfor propertyand equipment(3)

                            •   Reconciliationof the payroll subsidiarysystemwith the general
                                ledger

                            •   Financialstatementcompilationguide

                            •   Department'saccountingand reportingforgrants(2)

                            •   Comprehensiveaccountingsystemfor the UnemploymentTrust
                                Fund

                            •   Allocationof WorkingCapital Fund coststo user agencies;

                            •   Monitoring of Treasury'sadministrative assessmentsto the
                                Unemployment  TrustFund

                            •   Developmentof performancemeasures related to program
                                outcomes



                                            23
SemiannualReporttothe Congress                                                  April 1 - September30, 1994




                                 The 3 unresoDvedrecommendations pertainto:

                                 o Accountingand reportingfor grants (2)

                                 o Monitoring of Treasury's administrative assessmentsto the
                                   Unemployment  TrustFund

                                 (Report
                                      No.12-94-012-07-001,
                                                       issued
                                                            September
                                                                   2,1994)


PERFORMANCE                      Recentlegislationand executiveaction haveconcentratedattention
MEASURE$ AUDiTS                  onchangingtheway the Federal Governmentoperates.Majorefforts
IN THE DEPARTMENT                are underwayto changemanagementof Federalorganizationsand
                                 programs, moving away from budget-driven systems toward
                                 performance-drivensystems.Theseeffortsare directedat changing
                                 managers'focusaway frominputs(dollarsand FTEs) andoutputs
                                 (productscompleted)to outcomes,i.e., the externalimpactupon
                                 groupsbenefittingfrom the programs. The CFO Act of 1990, the
                                 GovernmentPerformanceand ResultsAct of 1993, the National
                                 PerformanceReview,and the Secretary'sreinventioneffortsare
                                 examplesof thistrend.

                                 FY 1993 PerformanceMeasuresAudit

                                 OIG focus: The OIG is committed to helping the Secretary and
                                 Assistant Secretaries make these changes successfully within the
                                 short time periodsallocatedby the Congressandthe chief executive.

                                 Where reported performance information did not actually measure
                                 achievement of the expected outcomes, the OIG sought to assist in
                                 shiftingthe performancemeasurementand reportingprocesstoward
                                 real outcome measurement. The OIG did this by developing, for
                                 discussion purposes, potential, alternative performance measures
                                 (emphasizingoutcomes)for some agencies or programs. The OIG
                                 intended that these serve as catalysts for reflection and discussion
                                 and as aids in reorienting employee and management attention
                                 towardoutcomes. Overall, managementhas taken positive steps in
                                 implementing recommendationsrelated to performance measures
                                 with an emphasison outcomes.

                                 OMB reposing guidance: Preliminary OMB guidance on
                                 preparation of the overview and supplemental financial and
                                 managementinformation sectionsoftheannualfinancialstatements



                                                 24
SemiannualReporttothe Congress                                                Apdl 1 - September30, 1994




                                 notesthata key elementin ensuringthe utilityoffinancial statements
                                 will be their inclusion of appropriate performance measures. The
                                 inclusion facilitates using the financial statements to assess both
                                 financial and program performance. Program performance
                                 measuresare intendedto inform the public the extentto whichthe
                                 programachieveditsmission,goals,and objectives.

                                 Reliability of reported performance measures: The reported
                                 performancemeasuresmustbereliablefortheAmericantaxpayers
                                 andGovernmentdecisionmakers(Congress,OfficeofManagement
                                 and Budget,DOL, et al.). Inherentinthe reportingof performance
                                 measuresare four implied assertionsby DOL management. If
                                 managernent'sassertionsare true, then the reportsare reliable.
                                 Therefore, managementmust have processeswhich give them
                                 assurance that the assertions being made are true. OIG's
                                 recommendationsfor improvinginternalcontrolswere designedto
                                 assistmanagementin gainingthisassurance.

                                 Management's Assertions:

                                 PresentationandDisclosure:All appropriateperformancemeasures
                                 were reported and all reported measureswere appropriateand
                                 properlyclassified,describedand disclosed.

                                 Completeness:Nomaterialdata applicable and appropriatetothe
                                 reported performance measures were omitted.

                                 Occurrence: All transactions, events, activities or other items
                                 reported occurred during the reporting period.

                                 Valuation:All performancemeasuredatawere reported inthe proper
                                 amounts, percentage or ratios.

                                 Scope of audit: As a partofthe overallsupportfor implementation
                                 of these changes, the OIG audited all agencies' performance
                                 informationcontainedintheOverviewSectionof theDepartmentof
                                 Labor'sFiscalYear1993financialstatements.Theseagenciesare:
                                 ETA'sEmploymentand Training and UnemploymentInsurance
                                 programs;ESA's Wage and Hour Division, Office of Workers'
                                 Compensation Programs, and Office of Federal Contract
                                 Compliance Programs; OAW's Office of Labor-Management
                                 Standards;OSHA;MSHA; PWBA;and BLS.




                                                25
SemiannualReporttothe Congress                                                 AprilI - September30, t994




                                 OIG audit repor;:s issued: The OIG issued individual reportsto
                                 AssistantSecretariesto assistthemin movingtheirorganizations
                                 towardgreater accountability,productivityand customerservice
                                 through real outcome measurement. The OIG also issued a
                                 consolidatedreport to the Office of the Chief Financial Officer
                                 (OCFO)withrecommendations    onactionstheOCFO shouldtake in
                                 assisting the Assistant Secretaries in identifying appropriate
                                 performancemeasuresand accuratelyreportingon them.

                                 Current Year Findings and Recommendations: Asrequiredby
                                 OiVlBBulletin93-06, our recommendationsfor improvinginternal
                                 controlsrelatedtothe assertionsof completenessand occurrence
                                 were includedinthe DOLConsolidatedFinancialStatementAudit.

                                 To provide a complete picture of the reported performance
                                 measures, the following is a summary of findings and
                                 recommendations relatedto the assertion of occurrence in addition
                                 to a detailed discussion of findings related to the assertion of
                                 presentation and disclosure. The recommendations related to the
                                 assertion of completenesshave been resolved and closed, and we
                                 did not make any recommendations related to the assertion of
                                 valuation.

                                 Presentationand Disclosure:

                                 AppD'opriateness of reported performance measures:
                                 Performancemeasuresshouldshowtheextenttowhicha program's
                                 mission,goalsand objectiveshave been achieved. However,the
                                 Department's reported performance measures generally were
                                 focusedmoreon inputsand outputssuchas resourcesconsumed,
                                 processes completed, and outputsgenerated, rather than the
                                 expectedoutcomesand resultsoftheirefforts.

                                 DOL's current performance measuresare a direct result of OMB's
                                 interagency effort to identify and establish common program
                                 performance and finar_cialperformance measures. Todate, there
                                 hasbeen no coordinatedeffortby the Departmentto developoutcome
                                 related performance measureswhich could provide a more efficient
                                 and effective basis of measuring an individual agency or program's
                                 performance against their established goals and objectives.

                                 AccordingtoESA,the Department'sEnforcementCouncilwill review
                                 enforcementagencyperformancemeasureslaterthisyeartoensure



                                                26
SemiannualReporttothe Congress                                                  April 1 - September30, 1994




                                 that measuresareoutcomebased. However,theOIG is unawareof
                                 any Department-wideeffortto ensureappropriatedevelopmentof
                                 outcome performance measures for individual agencies and
                                 programs.We believea coordinatedeffortwouldprovidea more
                                 efficient and effective processfor developing outcome-based
                                 performancemeasures.

                                 Recommendations: The OIG recommendedthatthe Acting CFO
                                 take a moreactiveroleregardingthe presentationand disclosure
                                 assertionforthereportedperformancemeasures.Morespecifically,
                                 we recommendedthattheActingCFO establisha teamcomprised
                                 of CFO and agency personnelto address the developmentof
                                 programoutcomemeasuresthatappraisetheresultsof agencyand
                                 programeffortstoensurecompliancewithlegislativemandates.

                                  Management's Response: Although the OCFO understands
                                  OIG's perspective in the finding, we do not concur with the
                                 •recommendation. /n addition to the OCFO's responsibilities for
                                  displaying performance measures in budget and financial
                                  statement documents, and for developing methods for associating
                                 •accounting data with such measures, the Department's Assistant
                                  Secretary for Policy (ASP) is responsible for research, evaluation
                                  and economic analysis related to determining the overall
                                  effectiveness of the Department's program activities.

                                 ASP has maintained for some time that the development of
                                 outcome-focused performance measures must be based on the
                                 requisite research and evaluation of the various programs. To
                                 provide agencies with information as to how they might improve
                                 their performance measures, ASP is conducting a series of
                                 lectures on the development of outcome measures that are more
                                 indicative of the overall effectiveness of programs and activities
                                 for the agencies. The OCFO will work with ASP to promote the
                                 development of suitable performance measures that are reliable
                                 indicators of program effectiveness.

                                 Considering the complexities associated with developing outcome
                                 performance measures and recognizing that such data may not
                                 be available for several years, OCFO is continuing to work with the
                                 agencies to improve the existing output-focused measures for use
                                 in financial statements and budget presentations. We are also
                                 assuring that the architecture of DOLAR$ has sufficient flexibility




                                                 27
Semiannual
        ReporttotheCongress                                                 April1 - September
                                                                                             30, 1994




                              to display accounting data at the organization, funding and project
                              levels relevant to performance measurement.

                              OIG's Conclusions: This recommendationis unresolved for the
                              followingreasons:

                              °   Section 902 of the CFO Act provides that agency CFOs are
                                  responsiblefor developingand maintainingintegratedaccounting
                                  and financial management systems which provide for the
                                  systematic measurement of performance;

                              o The February5, 1992memorandumtothe CFOsfromthe Deputy
                                Directorfor Management(OMB) includesstepsfor choosing
                                appropriatemeasures;

                              °   OMB Bulletin94--01statesthat the CFO shall be responsiblefor
                                  preparinga policybulletinorguidancememorandumthatgives
                                  guidanceon performancedata;and

                              o The Department's proposed major duties and responsibilities
                                for the CFO define the financial and program management
                                informationdutiesto,includeassuring "the development and use
                                of program performance measures that can be meaningfully
                                associated with the: costs of DOL's various programs." The
                                proposed duties also include providing "leadership in
                                implementingthe GovernmentPerformance and ResultsAct."

                              Occurrence

                              ETA (JTPA) Verification Process: ETA should develop a more
                              comprehensiveprocessforensuringthatgranteesfairlyreportJTPA
                              Titles II and III performancemeasurementdata. At present, ETA
                              doesnotverifytheaccuracyof these reportseitherthroughon-site
                              inspectionsor byothermeans.

                              ETA (JTPA) Availability of Documentation: ETA used the JTPA
                              MIS system for analyzing and summarizing performance
                              measurementdataforprogramyear 1992. Afterthe initialrun date,
                              ETAcouldnot generateADP reportswiththesame nationaltotals
                              sincesubgranteeshad subsequentlysubmittedamendedreports.
                              Further, ETAdid notsave itsdata file as detailedsupportfor their
                              performance measures reported in the FY 1993 consolidated
                              financialstatements,



                                             28
Semiannual
        ReporttotheCongress                                                  April1 - September
                                                                                              30, 1994




                              MSHA - Availabilityof Documentation: The OIG couldnotverify
                              the accuracy of nine reported performance measures.
                              Documentationwas not available for four of the performance
                              measures.Documentation   providedforfivemeasuresdidnotagree
                              withthe reporteddata,withvariancesrangingfrom1.4 percentto
                              16.9 percent.Thevariancesoccurredbecausethereportsprovided
                              to supportthereportedmeasureswere runat thetimethe auditors
                              requested the information,not when the performance data was
                              compiled. MSHA management has agreed to maintain
                              documentation fortheirFY 1994 performancemeasures.

                              Recommendations. The OIG recommendedthattheActingCFO:
                              (1) provide guidance to the agencies to ensure that (a) the
                              appropriateperformancemeasuresdataisaccuratelycollectedand
                              compiled,(b) reportsfromnon-DOL entitiesare accurate,and (c)
                              documentation   neededto supportreportedperformancemeasures
                              isretained;(2) evaluatetheadequacyof theagencies'systemsfor
                              ensuringthatdata reportedactuallyoccurredduringthe reporting
                              period;and (3) followupto ensurethatactionistakenas a resultof
                              CFO guidanceand evaluationsand OIG auditsof the occurrence
                              assertionforperformancemeasures.Nofurtherrecommendations
                              are beingmadein thisreport.

                              Management's Response: The Acting CFO concurred with
                              recommendations1 and 3, but statedthat managementbelieves
                              that itsevaluationof agency performancemeasurementsystems
                              wouldbeduplicativeof the OIG'sauditingresponsibilities.

                              OIG Conclusions:        Recommendations   1 and 2 are unresolved.
                              The Departmentshouldprovideguidanceinthespecificareasnoted
                              in the recommendationin order to reduce the occurrenceof the
                              weaknessesidentified.InherentintheoccurrenceassertionisOCFO
                              management'sresponsibilityto ensurethat internalcontrolsexist
                              and are adequateto providereasonableassurancethatthe data
                              reported actually occurredduring the reporting period. OIG is
                              responsiblefor assessingand reportingon the adequacyof the
                              internalcontrols,notensuringtheirexistenceandadequacy.Since
                              theagenciesaretakingcorrectiveactiontoeliminatetheweaknesses
                              identified,recommendation3 is resolved. (Report No.12-94-011-07-
                              001, issued September 30, 1994)




                                                 29
SemiannualReportto the Congress                                             April 1 - September30, 1994




Prior Year's                      The audit of the FY 1992 financial statementsidentifiedmaterial
Recommendations                   internalcontrolweaknessesinOSHA, PWBA, UIS, and JobCorps
                                  systemsfor reportingperformancemeasure=. Therefore, inAudit
                                  Report 12-93-008-07-001, theOIG madefive recommendations    to
                                  the CFO addressingperformancemeasure=. These impactedthe
                                  FY 1993 internalcontrolstructure.Fourof thefive recommendations
                                  are resolvedand closed. The otherreconvnendationis resolved.

REVISED MANAGEMENT                The Department reported no significant revised management
DECISIONS                         decisionsto theOIG.




                                                30
Semiannual
        ReporttotheCongress                                                    April1 - September
                                                                                               30, 1994




OFFICE OF INVESTIGATIONS

                              The Office of Investigations(OI) continuedto focus itslimitedinves-
SUMMARY OF                    tigative personnel and resources on mattersinvolving allegationsof
   •:                         seriouscriminal violationswithin itsinvestigativejurisdiction. Dur-
PROGRAM                       ing this reportingperiod, OI concentrated itseffortsto identify and
INVESTIGATIONS                investigatecorruptFederalemployeesandothersinvolvedin pro-
                              vidingservicesorbenefitstothe publicunderDepartmentof Labor
                              (DOL)financed oradministeredprograms. Special attentionwas
                              placedon thosewhochoseto misusetheirpositionorauthorityfor
                              personalgain, oftentimesto the detrimentor safetyof thosethey
                              wereswornto serve. As reportedherein,substantialOI resources
                              were devotedto investigations  ofallegedcorruptionwithinthecoal
                              mineinspectionprogramin Kentuckyas well as otherseriousmis-
                              conductorcriminalactivitybyDOL employees.In addition,signifi-
                              cant resourceswere utilizedto investigatethefiling offraudulent
                              claimsfor benefitsunderthe Federal Employees'Compensation
                              Act (FECA),fraudwithinemploymentandtrainingprogramsadmin-
                              isteredunder the Job Training Partnership Act (JTPA), and in the
                              UnemploymentInsurance(UI)program,particularlyclaimsinvolving
                              migrantfarm or seasonal workers along the Texas/Mexicoborder.

                              Statistically,for this reporting period, OI investigative activity ac-
                              counted for 108 indictments, 77 convictions, and $2.1 million in
                              monetaryaccomplishments. In accordancewith its established in-
                              vestigative priorities for Fiscal Year 1994, OI devoted 32 percent of
                              its investigative time to JTPA matters, about 26 percent on FECA
                              fraud investigations, 13 percent of itstime to unemployment insur-
                              ance matters,and 14 percentto employee integrity investigations.

                               Initscontinuingeffortto supportthe objectivesoftheVice President's
                              National Performance Review to streamline processes and make
                              Governmentwork better and cost less,and infurtherance of its lead-
                              ership role on the Fraud and Abuse Subcommittee of the Joint
                              Agency Office of Workers' Compensation Task Force, OI again of-
                              fered assistance and training to other Federal agencies in identify-
                              ing and investigating FECAfraud and abuse. During this period, OI
                              conducted four FECAfraud training sessions to provide individuals
                              with examples,methods,and suggestionsto help raisetheiragency's
                              awarenessoffraud and abuse within their respectiveworkers' com-
                              pensation programs. The training also provided them with proven
                              investigative techniques to help reduce the investigative time re-



                                              31
SemiannualReporttothe Congress                                                   April 1 - September30, 1994




                                 quired to support criminal prosecution of such cases. Twoof the
                                 training sessions were attended by a total of 62 special agents from
                                 the Army Criminal Investigations Division, the Naval Investigative
                                 Service, and the Air Force Office of Special Investigations. The
                                 other two sessions were directed to special agents from 13 differ-
                                 ent Offices of Inspector General.

                                 OI also continued itseffortsto encourage Congresstopass legisla-
                                 tion to amendthe FECAstatute,as well as _tle 18, U.S.Code §1920
                                 (False Statements to Obtain Federal Employees' Compensation).
                                 On September 30, 1994, the President signed into law H.R. 4606
                                 (Public Law 103-333),'whichincluded permanent legislation to de-
                                 ter fraud and abuse in the Federal employees' compensation pro-
                                 gram. The legislation raised the violation of the FECAfraud statute
                                 (Title 18 USC §1920)from a misdemeanor to a felony, provided that
                                 the benefits falsely obtained amountto at least $1,000. In addition,
                                 the legislation amended Chapter 81 of Title 5, U.S. Code by insert-
                                 ing a new section which provides that anyone convicted of defraud-
                                 ing the FECA program will have their FECA benefits terminated.
                                 The new lawalso suspends payment of FECA disability benefits to
                                 individualsconvictedof anyfelonyandwho are serving a prison term.

                                 Enactment of this legislation has long been a goal of the Office of
                                 InspectorGeneral,Officeof Workers' CompensationPrograms,and
                                 other agencies throughout the Federal community. The law should
                                 save $22 million over a 5-year period. In addition to providing a
                                 cost savings through the termination or suspension of benefits, the
                                 measure will go a long way towards deterring those who might con-
                                 sider defrauding the program.

                                 During the pastyear, the Office of Investigationscontinuedto inves-
                                 tigate allegations involving program fraud, waste, and abuse and
                                 employeeintegrity,both within the Departmentof Labor and in other
                                 entities managing DOL funds. Several of these investigations di-
                                 rectly impacted the health and safety of American workers. Our ef-
                                 forts in this area are accentuatedby the prosecutionof corruptIVISHA
                                 Mine Inspectorswho failed to exercise their inspection responsibili-
                                 ties in exchangefor personal gain. The elimination of such unscru-
                                 pulous employees is of the utmostimportance. Mining is inherently
                                 dangerous as evidenced by the fact that over 450 minershave been
                                 killed in mineaccidents since 1990. MSHA inspectors are entrusted
                                 with the lives of coal miners and nothing but the highest integrity is




                                                 32
Semiannual
        Report
            totheCongress                                               April1 - September
                                                                                         30, 1994




                            acceptable. These investigationsare justthefirststep instopping
                            corruptionand employeemisconductassociatedwiththe minein-
                            dustry.OI iscommittedto identifyand investigateevery allegation
                            of officialmisconductandcorruptioninorderto maintainthe integ-
                            rity of all DOL programs.


                            The followingcaseshighlight significantaccomplishmentsof these
SIGNIFICANT                 types of investigationsI
ACCOMPLISHMENTS



MSHA Inspectors              Anextensiveyear-longOI investigationof officialcorruptioninvolv-
Admit Extortion              ingMine Safety and Health Administration(MSHA) inspectorsin
                             EasternKentuckyculminatedin May 1994, withthe arrestof three
                             veteranMSHA inspectorsandone statemineinspector.These ar-
                             restsweremadefollowingthe unsealingof a Federalgrandjury in-
                             dictmentthatchargedFederal mineinspectors,EdwardKendrick,
                             JohnBanks,andCliffordCrum,alongwithJamesMorgan,a former
                             inspectorwiththePikevilleOfficeoftheCommonwealth    of Kentucky,
                             Departmentof SurfaceMiningReclamationEnforcement,withvari-
                            ouscountsof briberyandextortion. Ol's investigation,whichwas
                            closelycoordinatedwiththe KentuckyStatePolice,focusedonoffi-
                            cialcorruptionof minesafetyenforcementofficialson boththe Fed-
                            eral and State levelsin easternKentucky.Each of the individuals
                            chargedwas involvedinseparateand unrelatedschemesto solicit
                            cash andvariousitemsof value fromoperatorsof minesat which
                            theyconductedregulatorysafetyand healthinspections.The three
                            Federalinspectors,whoworkedoutof theMSHA officein Pikeville,
                            andMorgan,solicitedbribesrangingfrom$500 to $2,000 and items
                            suchas a bassboatmotoranda riflefromPikeCountycoalcompa-
                            nies. In July1994, Kendrick,Banks,andMorgan,pursuantto plea
                            agreements,piedguiltyto chargesof takingbribesfromcoalcom-
                            paniesin exchangeforfavorable mineinspectionreports. Crum
                            entereda notguiltypleato hisone-countbriberycharge,buta Fed-
                            eraljury returneda guiltyverdictat theconclusionofhistrialonJuly
                            25, 1994. Morganwassentencedon September21,1994,to serve
                            18 monthsin prisonfollowedby2 years of probation.Sentencing
                            fortheremainingthreeinspectorsisscheduledforNovember1994.

                            The investigation,whichrequiredtheuseof covertinvestigativetech-
                            niques,wasconductedwiththecooperationand assistanceof the



                                            33
SemiannualReportto the Congress                                                  April 1 - September30, 1994




                                  Officeofthe AssistantSecretary for Mine Safetyand Health. u.s.v.
                                  Kenddck/Banks/Crurn/Morgan (E.D. Kentucky)

                                  Impact: The detection, prosecution, and removal of these corrupt
                                  MSHA employees is a major first step toward regaining the re-
                                  spect and trust of the American coal miner. Investigations such as
                                  this make it less likely that MSHA inspectors will accept gratuities
                                  in exchange for risking the lives of the miners they are employed
                                  to protect.


New Jersey                         Six New Jersey Department of Labor (NJDOL) employees have
Department of Labor                been chargedin indictr_entsor criminalinformationsfor their involve-
Employees Charged                  ment in a series of schemes in which they conspired to accept brib-
in UI investigation               ery feesfrom ineligible Ul claimants. Based upon information de-
                                  velopedto date,itisestimatedthattensof millionsof dollarsin ben-
                                  efitswere paidas a resultof theschemes. Infollow-upto thisinves-
                                  tigation,whichwas detailedinour lastSemiannualReport,on May
                                  24, 1994,the first four of the NJDOL employees, Christopher Boyd,
                                   Barbara Sirmans, Ana Torres, and Rosarito Vasquez (all of whom
                                  were employed in the Newark NJDOL UI office), and another non-
                                  employee,Ana "Elsie"Gonzalez (who actuallyworked in the hot dog
                                  truck parked in front of the Newark office), entered guilty pleas to
                                  criminal informations,charging each ofthem with a single count vio-
                                  lation of conspiracy.

                                   On July 25, 1994, OI Special Agents along with Postal Inspectors
                                  arrested Phyllis Thomas atthe Jersey City Employment Service of-
                                  rice following the unsealing of a 25-count superseding indictment
                                  returned on July 21, 1994. The indictment charged Thomas, Rita
                                  Tyler,anotherformerNJDOLemployee,andAntonioRodriguez,also
                                  known as the "hot dog man," with conspiring to accept fees from
                                  ineligible UI claimants. They were also charged with paying and
                                  receiving bribes,cashing UIchecks issued as a result of the fraudu-
                                  lent claims, and misusing social security numbers. On September
                                  23, 1994,Phyllis Thomaspied guilty to count one of the superseding
                                  indictment,admitting that she had conspired with others to defraud
                                  the NJDOL UI program. Previously, on April 12, 1994, iVlarino
                                  Figueroa, one of Rodriguez's associates, pied guilty to conspiracy
                                  and mail fraud. Figueroa admitted he and other non-employees,
                                  along with four DOL employeesat the Newark and Elizabeth,NJ, UI
                                  offices,were involved in a schemewhich resulted in him receivingat
                                  least 440 UI checks worth almost $144,000 in UI benefits, u.s.v.
                                  Rodnguez, et aL (D. New JeRsey)


                                                   34
SemiannualReportto the _                                                    April1 - September30, 1994




                           Impact: As a result of the information provided by 01, the New Jer-
                           sey Department of Labor has revised its claims handling proce-
                           dures in an effort to more quickly identify possible ineligible claims.
                           Office supervisors will be required to personally assess those claim-
                           ants. These revisions should result in significant savings to the
                           New Jersey UI program.



OWCP Employees             On April 20, 1994, Terrence D. Murry and Cheryl A. Jackson, Office
Charged with Conspiracy    of Workers' Compensation Programs (OWCP) claims examiners,
to Commit Bribery          were charged in a five-count indictment with conspiracy to commit
                           bribery, conflict of interest, wire fraud, mail fraud, and aiding and
                           abetting. Dr. Nicholas J. Exarhos, a licensed chiropractor in the
                           State of Virginia, and Jonathan Hipp, doing business as National
                           Medical Supply, were also charged in the indictment.

                           This OI investigation, which was initiated at the request of OWCP
                           management, disclosed that between January and July 1993, Murry
                           and Jackson entered into a conspiracy with Dr. Exarhos and Hipp to
                           defraud the DOL of over $275,000. Murry and Jackson improperly
                           referred over 90 FECA claimants to Dr. Exarhos' chiropractic cen-
                           ter in Annandale, Virginia, for medical evaluation. Dr. Exarhos and
                           others at his direction then prescribed testing, treatment, and medi-
                           cal hardware for the claimants.

                           The indictment charged that MurTyand Jackson improperly approved
                           Dr. Exarhos' requests for payment. Monies to pay Murry and Jack-
                           son were generated by Dr. Exarhos delivering "Tens" units to the
                           claimants and subsequently having Hipp bill OWCP $782.50 for each
                           unit and its accessories. Hipp, through his medical supply busi-
                           ness, had paid about $60 for each unit and its accessories. Dr.
                           Exarhos also paid Murry and Jackson about $21,000 in supposed
                           business development fees through a front company, Crown Con-
                           sulting, formed by Murry. The trial is pending.

                           If convicted on all counts, Murry and Jackson, who have been termi-
                           nated from their employment with the Department of Labor, face a
                           maximum sentence of 20 years of incarceration and a fine of $1
                           million. If convicted on all counts, Dr. Exarhos and Hipp each face a
                           maximum of 15 years of incarceration and a $750,000 fine. u.s.v.
                           Mum/,etaL (D.Districtof Columbia)




                                            35
SemiannualReporttothe Congress                                                    April1 - September30, 1994




                                 Impact: The detection of this scheme eliminated an ongoing fraud
                                 against the FECA program and abuses against FECA recipients
                                 who were receiving unnecessary treatment and equipment. It also
                                 removed two unscrupuibus employees who were more concerned
                                 with using their official positions for personal gain than with provid-
                                 ing service to their customers.


Executive Director                On July 28, 1994, DouglasLee Shaw,former ExecutiveDirectorof
Indicted on a $400,000           the Mid-ValleyConsortium,a recipientof DOL fundsthroughthe
Embezzlement                      Countyof LosAngeles,California,was indictedby a Federalgrand
                                 jury on 38 countsof embezzlementof approximately$400,000 of
                                 JTPA funds, conspiracy,witnesstampering,and obstructionof a
                                  Federalaudit. Shawwas arrestedby OIG agentson the samedate
                                 hewas indicted.

                                 Shaw headed the Mid-Valley Consortiumfor 15 years until he was
                                 terminated last year. He was charged with stealing checks payable
                                 to Mid-Valley,taking cash advances at local race tracks and having
                                 them paid with Federal funds, and payingthe salary of a secretaryto
                                 former Bradbury City Manager, Dolly Vollaire. Vollaire was recently
                                 sentenced to 2 years of imprisonment for misusing City funds. If
                                 convicted, Shawfaces a maximumsentence of 179 years in prison
                                 and a fine of up to $8.5 million, u.s.v. Shaw(C.D. California)

                                  Impact: The successful investigation, prosecution, and removal
                                 of this director halted his continuous scheme of embezzlement of
                                 JTPA funds and ensures that JTPA funds are available for their
                                 intended purpose, providing participant benefits.


Fomer Texas State                As a result of Ors investigation, on May 13, 1994, Sonia Jones, a
Employee Sentenced               former TexasEmploymentCommissiondata entry clerk, pied guilty
to Jail in UI Fraud Scam         to a one-countinformationcharging her withtheft of Government
                                 funds. BetweenApril 1992 and September1993, Jonesinputfalse
                                 UI information of family and friends causing 118fraudulent benefit
                                 checkstotalling$32,399to be mailedto her personaladdress. Jones
                                 then forged endorsement signatures on each check and deposited
                                 them into her personal checking account. On July 22, 1994,Jones
                                 was sentenced to 8 months in prison, ordered to pay full restitution
                                 in the amount of $32,390 and an assessmentfee of $50. Inaddition
                                 to her prison sentence, Jones will be required to serve 3 years of
                                 supervised probation, u.s.v. Jones(N.D. Texas)



                                                 36
SemiannualReportto the Congress                                                  April1 - September30, 1994




                                  As a resultof a similarUl fraud investigationconducted jointly with
                                  the Postal Inspection Service, on August 3, 1994,sixformer Puerto
                                  RicoDepartmentof Labor(PRDOL)employees,Melvin PaganVelez,
                                  Alejandro Sanchez Lacen, Jamie Lopez Collazo, Javier Dones
                                  Perez,BrianBrumlop,and Eva Rodriguez,alongwith non-employee
                                  Jose Conde Irizarry,were named in a 23-count indictment charging
                                  them with having conspired to fraudulently obtain $125,000 in UI
                                  benefits. The indictment charges them with creating fraudulent UI
                                  claims in the names of individuals who had never filed for benefits.
                                  The checkswere generatedand mailedto the conspirators,friends,
                                  or relatives. They then cashedthe checksand sharedthe proceeds.
                                  The PRDOL employees embezzled UIfunds by manipulating data
                                  in the wage reporting systemto increase benefit amountsor initiate
                                  entirely new claims, u.s.v. Pagan, etaL (D. Puerto Rico)


Michigan State Employee           Followingan OI investigation,on August 3, 1994,former Michigan
Guilty of Theft                   EmploymentSecurityCommission(MESC) paymentclerkBonnie
                                  L. Turmonpiedguiltyto theftofGovernmentmoney.The investiga-
                                  tionrevealedthatwhileTurmonwas employedat MESC, she cre-
                                  atedsixfraudulentExtendedUnemploymentCompensation(EUC)
                                  accountsinthenamesofher minorchildrenandotherrelatives.As
                                  a resultof Turmon'sactions,nearly$28,000 in EUC benefitchecks
                                  werefraudulentlyissuedtothoseindividuals.Turmon'ssentencing
                                  ispending. U.S.v. Turmon (E.D. Michigan)

                                  Impact: The investigation and criminalprosecution of corrupt State
                                  employees as illustrated in these three cases will serve as a deter-
                                  rent to others who would breach their responsibilities to the Ameri-
                                  can workforce.


                                  While the above cases are representative of OIG's efforts to
                                  investigate allegations of official misconduct and the endan-
                                  germent of life, health, and safety, the following equally im-
                                  portant cases accentuate OIG'scommitmentto eradicate fraud
                                  and abuse in all DOL programs.


Two Charged in                    Ol's investigationsof UI fraud schemesalong the border between
$1.3 Million UI Fraud;            the UnitedStatesandMexicocontinuedduringthisreportingperiod
ETA Begins                        and have, to date, resultedin 38 indictmentsand 33 convictions.
Corrective Action                 Most recently,on August3, 1994, Juanita BarreiroBarrera and



                                                  37
SemiannualReporttothe Congress                                                   April 1 - September30, 1994




                                 Margot Quintanilla Barreiro were arrested in McAIlen, Texas,by a
                                 team of Federal agents from the Postal Inspection Service, the Im-
                                 migration and Naturalization Service, and O1. Both of the defen-
                                 dants were charged in a five-count indictment with conspiracy and
                                 mail fraud. The defendants allegedly schemed to defraud the Cali-
                                 fornia Employment Development Department of $1,357,351 by
                                 fraudulently obtaining interstateunemploymentbenefits on behalf of
                                 seasonal alien workers.

                                 Also, on July 19, 1994, a Federal grand jury in Laredo, Texas, re-
                                 turned indictments against Olga Soils, JoseA. Garcia, and Antonia
                                 Garcia for their alleged part in a similar schemeto defraud the DOL
                                 through the filing of false documents to fraudulently receive over
                                 $187,000 in unemployment benefits for migrant workers who were
                                 not eligibleto receivesuch benefits.On September14 and 15, 1994,
                                 Soils and Jose and Antonia Garcia, respectively, pied guilty to false
                                 claims. The investigationscontinue and additional criminal charges
                                 are expected, u.s.v. Barrera, etaL (S.D. Texas)

                                 Impact: The Inspector Genera/has furnished details of these in-
                                 vestigations to ETA. In response, ETA has provided the State of
                                 Texas with investigative,resources that were previously unavai/-
                                 able. Texas, by agreement with ETA, will now investigate c/aim-
                                 ants and other issues as requested. The agreement will become
                                 effective at the beginning of Fisca/ Year 1995. Texas will also serve
                                 as a collection point for,data gathered during these investigations.
                                 This data will then be analyzedjointly with ETA in order to deter-
                                 mine the most effective means to reduce or e/iminate these
                                 schemes. The O/G has agreed to provide guidance and investi-
                                 gative assistance throughout this project to facilitate this goal


24 Individuals Sued for          On May 26, 1994,the U.S.Attorney's Office forthe Middle Districtof
Making False Claims in           Georgiafiled16 separatelawsuitsagainst24 personsseekingdam-
JTPA Case                        agesandpenaltiesforallegedfalseclaimsforpaymentsforjobtrain-
                                 ingmadethroughthe MiddleGeorgiaConsortium(MGC) bya com-
                                 panyknownas SoutheasternTrainingCorporation.

                                 The lawsuitsfiled in iVi_icon
                                                             Federal Courtallege a totalof 31 fraudu-
                                 lent transactions. Under the Federal False Claims Act, the United
                                 States can collect three times the damages proved plus a manda-
                                 tory penalty amount of not less than $5,000 and not more than
                                 $10,000 for each false claim proven. The lawsuits allege that cer-



                                                 38
SemiannualReportto the Congress                                                      April 1 - September30, 1994




                                  tain personssignedfalse statementsconcerningtheemploymentor
                                  the30-day retentionperiodof sometrainees,andthatthepersons
                                  signingthe statementshad been inducedor assistedby others.
                                  Finesand penaltiesthat couldresultfromcurrentactionsexceed
                                  $375,000.   U.S. v. Southeastern TrainingCorp., eta/. (M.D. Georgia)


                                  /mpact: This case holds accountable all persons who "allowed"
                                  fraud, wasteand abuse tooccur by knowingly approvingfalsedocu-
                                  mentation or certifying that the information had been verified.


JTPA Contractor                   A 49-count indictmentwas handed down on September22, 1994,
Indicted for Fraud                againstthreeofficersof QualityPlus, Inc. (QPI), anAtlantabased
                                  JTPAtrainingcontractor.KathleenBacon-Miller,QPI president;her
                                  husband,BarakMiller,financialaid officer;and ParisMiller,instruc-
                                  tor(nota relativeofthe otherdefendants)were chargedwithcon-
                                  spiracyto defraud the DOL of JTPAfunds and the Departmentof
                                  Education(DOE) of PellGrantfunds.

                                  Between1988 and 1992, QPI held five JTPAclericaltrainingcon-
                                  tractswithmultipleservicedeliveryagenciestotalling$525,000. QPI
                                  officialsallegedlyprovidedfalse,fraudulentscoresand/ormanipu-
                                  latedparticipantexam scoresto ensurebenchmarkpaymentsfor
                                  participants.The estimatedlossamountisin excessof $296,000.

                                  Additionally,theco-conspirators'schemeinvolvedfraudulentlybill-
                                  ingtheDOE forapproximately  $260,000 for PellGrantsconcerning
                                  participantswhowerenotpresentat QPI duringthe billingperiod.If
                                  KathleenBacon-Millerisconvictedon all counts,shefacesa maxi-
                                  mumof 111years in prisonandfines exceeding$10 million;Paris
                                  Millerfaces 45 years and $5 million;Barak Millerfaces 35 years
                                  and finestotalling$750,000. u.s.v. Miller,eta/. (N.D. Georgia)


Psychiatrist                      Dr.Earl M. Stengerwaivedindictmentandpiedguiltyon September
Guilty of Making                  21, 1994, toa two-countinformationcharginghimwithfalse claims
False Statements                  and Federalincometaxfraud. Dr. Stenger,a specialistin algology,
                                  the treatmentand mar_agement   of pain,concentratedhis practice
                                  on treatingpersonswho reportedjobrelatedmedicalconditionsand
                                  receivedworkers'compensation  benefits.OI investigation
                                                                                        disclosed
                                  that Dr. Stengersubmittedfalse billingsand medicalreportstothe
                                  Officeof Workers'CompensationProgram (OWCP) for Federal
                                  claimantsandtoprivateinsurancecompaniesforstateworkers. He



                                                   39
                                                                           J
SemiannualReporttothe Congress                                                 April 1 - September30, 1994




                                 charged for modalitiesof treatment which were not provided. In
                                 addition, he submitted charges for medical services multiple times
                                 using different but related current procedural terminology (CPT)
                                 codes, andcharged for medicalservices thatwere identifiedby CPT
                                 codes assigned to related but more expensive services. He dic-
                                 tated generic"ProgressiveNotes"containing falsestatementsabout
                                 the medical statusof his patientsand the servicesfurnishedto them.
                                 Investigationfurther disclosedthat Dr.Stengersubmittedfraudulent
                                 Federal incometax returnsto InternalRevenueServicefor the years
                                 of 1989-1991. This was a joint investigation with the Internal Rev-
                                 enue Service, Federal Bureau of Investigation, and the Postal In-
                                 spection Service. u.s.v. StengerON.D. Texas)


Nurse Sentenced to               An OI joint investigationwith the Departmentof Health and Human
7=IMonths in Jail and            Servicesand the RailroadRetirementBoard resultedin a guilty plea
$143,967 Restitution             by former VeteransAdministration(VA) nurse Dwight R. Neely on
                                 May2, 1994. In 1979, Neelybegan receivingFECA, SocialSecu-
                                 rity,and railroadretirementbenefitsdue to a back injuryhe sus-
                                 tained while employedat a Baltimore,Maryland VA hospital. The
                                 investigationrevealedthat in 1986, Neely and an associateformed
                                 a musicalsoftwarecompany in Michigan. By concealinghisbusi-
                                 nessactivitiesandincomefromthethree aforementionedagencies,
                                 Neelyfraudulentlyobtained$143,967 in Federalbenefits. On Au-
                                 gust 3, 1994, Neelywas sentenced to 21 monthsin prisonand or-
                                 deredtopay restitutioninfull tothethreeagenciesinvolved, u.s.v.
                                 Neely(E.D.Michigan)


                                 The following case narratives, by major p0"ogr_mareas, rep-
                                 resent other significant f'raud investigative accomplishments
                                 by OIG during this semiannua0 reporting pe_od.


                                 FEDERAL EMPLOYEES' COt_PIENSATOON
                                                                 ACT (FECA})


Benefits Terminated              Alton V. Norriswas sentenced on June 30, 1994, to 3 years of pro-
as a Result of'                  bation,250 hoursof communityservice,and orderedto pay $180
FECA Conviction                  per monthwhich isthe costof hissupervision,and restitutiontotal-
                                 ling$12,604. He piedguiltyonApril8, 1994,to a Billof Information
                                 charginghim withfalse statementsto obtainworkers' compensa-
                                 tionbenefits.Norris,a formercivilianemployeefor the U.S. Depart-



                                                4o
Semiannual
        ReporttotheCongress                                                   April1 - September
                                                                                              30, 1994




                              mentoftheArmy,su_eredan injuryonApril29, 1976,andwasplaced
                              on the periodic rolls in Februaryof 1977. Hefailed to reportemploy-
                              ment and income from his job as a school bus driver and as an
                              officialfor athleticevents. As a result ofhis conviction,Norris'$1,517
                              FECA benefitswere terminated in April 1994, resulting in an over-
                              payment of $57,091 being declared, u.s.v. Norris0N.D.Louisiana)


New FECA Amendments           Jessie B. McPhaulwas sentenced on July 7, 1994, to 2 years of
Used to Cut Benefits          probation, the initial6 monthsto be electronicallymonitored home
of FECA Program Abuser        detention,andorderedtopay restitutionof $36,035 witha minimum
                              monthly payment of $150, and a special assessment of $50.
                              IVlcPhaul,a formernurse'sassistantat SaintElizabethHospital,was
                              employedby the Districtof ColumbiaSchoolSystemwhile receiv-
                              ing FECA benefits. McPhaulpied guiltyon April 14, 1994, to one
                              countof makingfalsestatementstotheGovernment.As a resultof
                              herconviction, OWCP usedlanguagecontainedinthe Department's
                              1994 appropriationbill and terminatedher $835 monthlybenefit.
                              U.S.v. McPhaul (D. District of Columbia)



                              On June 15, 1994, an indictment charging Ralph R. Wallace with
Letter Carrier andicted       twocountseachof falsestatements,mailfraud, and taxevasionand
for FECA Fraud                onecounteach of theftof Governmentpropertyandbankfraudwas
                              returnedby a Federalgrandjury intheNorthernDistrictof NewYork.
                              Lesa Wallace, hiswife, was chargedwith one countof bankfraud.
                              RalphWallace,a formerPostalServicelettercarrierin Fulton,New
                              York,allegedly sufferedan injuryto his back and shoulderas the
                              resultof a fall whiledeliveringmailon November29, 1990. Wallace
                              receivedover$63,000 inFECA benefits.

                              A joint investigationwith the U.S. PostalInspectionService and In-
                              ternal Revenue Service, Criminal Investigations Division revealed
                              that Wallace was operating R. W. Tax Service, a tax preparation
                              business, while failing to report his income to OWCP. A search of
                              Wallace's officeon February 25, 1993, led to the seizure of a large
                              number of documents establishing the scope of his business activi-
                              ties. Trial date is pending, u.s.v. WallaceandWallace(N.D. NewYork)




                                                41
SemiannualReporttothe Congress                                                  April 1 - September30, 1994




Pet Store Owner                  Gary Grossrnanwas sentencedonJuly 1,1994,to6 monthsof house
Sentenced _'or                   arrest, 5 years of probation,and ordered to pay $38,703 in restitu-
FECA Fraud                       tion and the costs ofthe homemonitoring. Grossmanhad pied guilty
                                 on April 7, 1994, to a one-count criminal information charging him
                                 with false statements on forms submitted to OWCP. Grossman, a
                                 civilian electronics mechanic's apprentice atthe Philadelphia Naval
                                 Shipyard, allegedly injured his lower back on April 25, 1983, while
                                 lifting a piece of equipment. The OI investigation established that
                                 Grossman owned, operated, and derived income from a pet store
                                 in Bridgeton, New Jersey, during the time he received FECA ben-
                                 efits. An investigative memorandumsubmitted to OWCP resulted
                                 in Grossman's benefits being terminated and an overpayment of
                                 nearly $80,000 being declared, u.s.v. Grossman (D. NewJersey)


"rvA EmpBoyeeandicted            David R. Gilmer,a formerTennesseeValley Authorityemployeeand
for Submi_ing                    FECA recipient since.1977, was indicted at Morristown, Tennes-
Fake MedicaOE_iBs                see, on 92 counts of mailfraud and false claims. He was subse-
                                 quently arrested by an OI Special Agent with the assistance of a
                                 Deputy U.S. Marshal on August 25, 1994. The indictment charged
                                 that Gilmer developed a plan to defraud OWCP of approximately
                                 $20,000 in benefitsthrough the preparation and submissionof false
                                 claims for physical therapy, medical equipment, and medicines.
                                 Gilmerallegedly submittedthe claimsto OWCP as though they were
                                 preparedby the health care provider, instructingthat reimbursement
                                 be made directly to him. The indictment also alleged that he forged
                                 letters from OWCP and health care providers concerning his medi-
                                 cal status and directed that payments for the medical services be
                                 made to him. u.s.v. Gilmer(E.D. Tennessee).


Former Army Employee             On May 27, 1994,Charles Wayne Schrader,a former civilian heavy
Sentenced for Making             equipmentoperatorwiththe Departmentof theArmy,was sentenced
FaDseStatement                   to 180 days of home confinement, 5 years of probation, $62,316
                                 restitution,and ordered to pay a special assessmentfee of $50. In
                                 March 1994,Schraderpled guilty to a one-countindictmentfor mak-
                                 inga false statementto the U.S. Government. Schraderalleged that
                                 on May 10, 1983,when he jumped off the back of an army tank, he
                                 suffered a lumbar sprain which left him disabled. The OI investiga-
                                 tiondisclosed that Schraderworked as a truck driverfor six different
                                 businesses while receiving FECA benefits. He received $62,316
                                 in fraudulent benefits,u.s.v. Schrader(N.D. Texas)




                                                 42
SemiannualReportto the Congress                                                   April1 - September30, 1994




                                  Impact: In each instance where a FECA recipient was removed
                                  from the OWCP rolls, a significant savings is realized over the life
                                  time of the claimant. In the five examples cited above (Norris,
                                  McPhaul, Wallace, Grossman, and Schrader), an immediate an-
                                  nual cost saving to the Government of $88,985 was realized. Us-
                                  ing the life expectancy of these claimants, based on current mor-
                                  tality rates, the potentiallifetime loss, had benefitscontinued, would
                                  exceed $3 million. While these figures are significant, they are
                                  not intended to indicate total results obtained by 01.


                                  JOB TRAINING PARTNERSHIPACT (JTPA)


JTPA Job Developer                Matthew O'Donohue pied guilty on September 13, 1994, to one
Guilty of Conspiracy              countofconspiracyinconnectionwitha schemeto embezzleJTPA
                                  funds.O'Donohueandco-conspirator    RuppertMonteswerecharged
                                  withengagingina long-termschemewherebytheyembezzledJTPA
                                  fundsfromCasa De Hermandad,a LosAngelesJTPAservicepro-
                                  vider. O'Donohueusedhispositionas a jobdeveloperforCasa De
                                  Hermandadto claimnumerousfalse OJT placements.He received
                                  a portionof thefundsderivedfromemployerreimbursement  checks
                                  generatedas a resultoffalse claims.The OIG investigationdocu-
                                  mentedover$200,000infraudulentJTPAclaimsbasedon thefalse
                                  OJTplacements,u.s.v. O'Donohue  (C.D. Califomia)



Sentencing in                     As follow-uptoourlastSemiannualReport,JonR. Guthriewassen-
$300,000 JTPA Fraud               tencedonJuly6, 1994,to6 monthsofhomeconfinement,5 yearsof
                                  probation,restitutionof $27,600, and 250 hourscommunityservice.
                                  Guthrie, a former associate of Gregory W. Frazier, president of the
                                  NationalIndian BusinessCouncil(NIBC),assistedFrazierin the mis-
                                  appropriation of over $300,000 in JTPAfunds. From 1983 through
                                   1988Frazier,throughthe NIBC,received$4.7 million in JTPAgrants
                                  for the purpose of training Native Americans,who live offthe reser-
                                  vation,injob search skills. Auditsof the grantsresulted in over$1.7          °
                                  million in questioned costs. Frazier was convicted and sentenced
                                  for theft of Federalfunds as reported in our last Semiannual Report.
                                  u.s. v. Frazier(D.Utah)


Case of New York City PIC Infollow-upto an OI investigationdetailed in our October 1, 1992to
Referred to ETA           March31, 1993, SemiannualReporton the New YorkCityPrivate



                                                  43
SemiannualReporttothe Congress                                                  April 1 - September30, 1994




                                  Industry Council (PIC), on September 14, 1994, OI forwarded an
                                  Investigative Memorandum to ETA questioning $1.2 million in
                                 disallowable JTPAcosts claimed by the PIC. Also, on April 5, 1994,
                                  Doris Washington, who had been employed by an agency which
                                 arrangedand monitoredOJT placementsfor the PIC,was sentenced
                                 to one year probation, and ordered to repay $1,150 to DOL and a
                                 mandatory $50 special assessment. Washington had pied guilty on
                                 October 8, 1992, to a one-count criminal information charging her
                                 with conspiracy to accept bribes. Also, Lena Thompson, who had
                                 been employedby the PICas a supervising account executive,was
                                 sentenced on June 24, 1994, to 3 years of probation, 4 months of
                                 house detention, 200 hours of community service, and ordered to
                                 paya mandatory$50specialassessment. Thompsonhad pied guilty
                                 on March 28, 1994, to a one-count criminal information charging
                                 embezzlementof Federal funds. The OI investigation of the PIC, a
                                 majorJTPAon-the-jobtraining broker,disclosed thatfrom July 1987
                                 untilJune 15, 1992,the PIChad placed ineligible participants injobs
                                 and claimed reimbursement for them. As a result of the investiga-
                                 tion, six former employeesof the PIC entered guilty pleas to criminal
                                 informationschargingeachwith a single countviolationof embezzle-
                                 ment or conspiracy. All six ofthe former employees have been sen-
                                 tenced, u.s.v. Thompson (S.D. NewYork)

                                 Impact: In addition to the more than $1.2 million in JTPA funds
                                 which will be available for reprogramming to needy participants,
                                 OI worked with ETA program officials to ensure that the New York
                                 City Department of Employment, the SDA for New York City,pro-
                                 hibited the PIC from receiving any funding after June 30, 1994, for
                                 providing any JTPA-related services other than those mandated
                                 under its oversight role.


Trio Sentenced for               As follow-upto ourpreviousreport,IshmaelM. Holley,Jr.,the former
JTPA Fraud                       directorof JTPA and an 18-year employeeof the SouthCarolina
                                 Governor'sOffice of Employmentand Training Divisionand the
                                 EmployeeSecurityCommission,and JamesE. Dennis,ownerand
                                 presidentof Dennisand Associates,0nc.(DAI), a formermulti-mil-
                                 liondollarJTPAcontractor,weresentencedon July19, 1994. Holley
                                 was sentencedto7 monthsof imprisonmentwith2 yearsof proba-
                                 tionand3 monthsofdetentionfollowinghisreleasefromprison,and
                                 orderedto pay$45,000 in restitution,a $9,000 fine, and a $50 spe-
                                 cialassessmentfee. Denniswas sentencedto4 monthsof impris-
                                 onment,3 yearsof pr(_bationuponhis releasefrom prison,with4



                                                 44
SemiannualReporttothe Congress                                                 April1 - September30, 1994




                                 monthsof homeconfinementas partof the probation,300 hoursof
                                 communityserviceduringhisprobationaryperiod,and orderedto
                                 paya $50 specialassessmentfee. RobertE. Scott,Jr.,comptroller
                                 of DAI,was sentencedon May 19, 1994,to 6 monthsof homede-
                                 tention,2½ yearsofprobation,300 hoursof communityservice,and
                                 assesseda $50 fine. Ajointinvestigation
                                                                       withthe InternalRevenue
                                 Service'sCriminalInvestigation
                                                              Divisiondisclosedthetrio'sinvolve-
                                 mentin the misapplicationof over$294,000 in JTPAfunds, u.s. v
                                 Holley (D. SouthCarolina)



                                 UNEMPLOYMENT INSURANCE (UI)


Guilty Pleas on                  Asfollow-uptoourpreviousreport,onJune23, 1994,CraigW. Druen,
Racketeering Charges             a former IndianaDepartmentof Work Force Development(IDWD)
in UI Fraud Case                 accountant,piedguiltytoStatechargesofracketeering(RICO),con-
                                 spiracy,forgery,theft,and officialmisconduct.Thisjoint investiga-
                                 tionwiththeIndianaState PolicerevealedthatDruenwas themas-
                                 termindofa schemeinwhichhe and35 co-conspirators      defrauded
                                 IDWDof nearly$329,000 in UIfunds.

                                 Druen'splea agreement providesfor a sentence of 8 years of im-
                                 prisonment,8 years of probation,and restitutionof $138,300. To
                                 date,24 of thedefendantshavepied guiltyandover$80,000 inres-
                                 titutionhas beencollected.Sentencingisscheduledfor October7,
                                 1994. Stateof Indiana v. Druen eta/. (Indiana)

                                 Impact: As a result of this investigation, UIpayments are no longer
                                 processed manuallybut are processed via computerwith increased
                                 internal controls.


                                 EMPLOYEE INTEGRITY


BLS Employee                     Ina 23-countindictmentreturnedby a Federalgrandjury in Chicago
Charged with                     on July28, 1994,formerBureauof LaborStatistics(BLS) Publica-
Embezzlement                     tionsSalesClerkPhillipG. Arnoldwaschargedwithembezzlement
                                 andtheftof publicmoney. Duringhisemploymentwiththe BLSas
                                 an authorizedsalesagent for the Superintendentof Documents,
                                 Arnoldwasresponsiblefor fillingmailordersfromthepublicfor vari-
                                 ouspublications.



                                                  45
SemiannualReportto the Congress                                                   April1 - September30, 1994




                                  Over a 2-year period, Arnold allegedly altered and negotiated 23
                                  customer checks which were received at BLS for payment of $9,172
                                  in publication orders. The indictment alleges that Arnold added his
                                  name to the payee section and then deposited the checks in his
                                  checking account, u.s.v. Amo/d (N.D.Illinois)


OFCCP Specialist                  An investigation which began when the Secretary of Labor received
Arrested _o_"Making               letters containing apparent threats directed at an employee of the
Death Threats                     Detroit Office of Federal Contract Compliance Programs (OFCCP),
                                  led to the arrest of OFCCP Equal Opportunity Specialist Clarence
                                  L. Robinson. After Robinson made a number of direct threats to kill
                                  the OFCCP District Director, the U.S. Attorney's Office requested
                                  Ors assistance. Robinson was arrested by OI Special Agents on
                                  March 24, 1994, after a criminal complaint charged him with threat-
                                  ening the life of a Federal official. The OI agents recovered three
                                  firearms from Robinsonsubsequent to his arrest. Robinson entered
                                  intoa pretrial diversion agreement on July 19, 1994, the conditions
                                  of which included the termination of his employment with OFCCP
                                  and having no contact with the OFCCP District Director. u.s.v.
                                  Robinson(E.D.Michigan)"


                                  BLACK LUNG PROGi_,_



Son Sentenced for                  On August 11, 1994, Stephen P. Pendal was sentenced in U.S. Dis-
SteaHing Father's                 trict Court in Scranton, Pennsylvania, to serve 5 months of imprison-
Black Lung BeheSts                 ment, followed by 5 months of house arrest, and 2 years of proba-
                                  tion. Pendal had previously pied guilty to having criminally violated
                                  one count of the Federal false statement statute. OI investigation
                                  revealed that in September 1981, Pendal became the representa-
                                  tive payee for his father and arranged for his father's monthly black
                                  lung benefit checks to be mailed to his residence in Beaver Mead-
                                  ows, Pennsylvania. During a 12-year period, Pendal fraudulently
                                  collected approximately $50,000 in black lung benefits, while his
                                  father was a permanent resident of a nearby nursing home. Pendal
                                  deposited the benefit checks and confessed to having used the sto-
                                  len funds to completely renovate his home and used none of the
                                  benefits to provide for his father's care or medical expenses at the
                                  nursing home. The nursing home was funded by the Pennsylvania
                                  Department of Public Velfare's Medical Assistance Program. u.s.
                                  v. Pendal(M.D.Pennsylvania)



                                                  46
SemiannualReportto the Congress                                                                 April 1 - September30, 1994




                                  WAGEANDHOUR



Company President                 Following a week-long trial, on June 28, 1994, Steven IVi.Allard,
Sentenced for                     president of New England Steel and Precast Construction Corn-
Conspiracy and Kickbacks          pany, Inc.,was found guiltyas charged and sentenced to 10 months
                                  in prison;3 years of probation;and ordered to pay $10,481 in resti-
                                  tution, a $10,000 fine, and a $300 mandatory assessment. Allard
                                  was indicted on August 19, 1993, and charged with one count of
                                  conspiracyand five counts of receiving kickbacksfrom publicworks
                                  employees. As a subcontractor on a post office project, Allard co-
                                  erced employees into "kicking back" $11,888 in back payments
                                  made to them following a wage and hour investigation of violations
                                  of the Davis-Bacon and Related Acts. In April 1992, the U.S.
                                  Attorney's Office in Providence, Rhode Island, requested OIG's as-
                                  sistance in providinga criminalinvestigatorto complete the investi-
                                  gation of kickback allegations, u.s.v. A/lard(D. RhodeIsland)


                                  BreakdownofAllegationReportsby Source:

COMPLAI NT                              Walk-in                                                                          1
ANALYSIS                                Hotlinecallsor lettersfromindividuals
                                                                           or
                                          organizations                                                                 91
OFFICE                                  LettersfromCongress                                                             14
ACTIVITIES                              LettersfromNon-DOEagencies                                                       2
                                        LettersfromDOEagencies                                                           9
                                        IncidentReports  fromDOEagencies                                                 8
                                        ReportsbySpecialAgentsandAuditors                                               15
                                        ReferralsfromGAO                                                                 3

                                        Total                                                                         143


                                  Breakdownof AllegationReportsby Referral:

                                        ReferredtoOfficeofAudit                                                         7
                                        ReferredtoOfficeofInvestigations
                                                                      Regional
                                                                            Offices                                    47
                                        ReferredtoDOLprogram  management                                              105
                                        Referredtootheragencies                                                        18
                                        Nofurtheractionrequired                                                         3

                                        Total                                                                         180*



                                        * Includes referral action taken on allegationsreceivedpriorto this reportingperiod.




                                                    47
SemiannualReportto the Congress                                                                                                             April1 - September30, 1994




                                                                        Appendix
                                Office       of investigations    Financial                         Accomplishments
                                                  for April 1 - September                           30, 1994



CATEGORUE$

Recoveries:        .................................................................................................................                    $538,857

             (Thedollaramount/valueof an agency'sactionto recoverorreprogramfundsorto makeother
             adjustmentsin responseto OIG investigations.)

Cos_ IE_ciencies:              ..........................................................................................................                 769,530

            (Theone-timeor perannumdollaramount/valueof management'scommitment,in response
            to OIG investigations,to moreefficientlyutilizetheGovemment'sresources.)

Restitutions:        ...................................       . .............................................................................           649,46(}

            (Thedollaramount/valueof restitutionsresultingfromOI criminalinvestigations.)

Fines/PenaH_ies:           ..............................................................................................................                  73,421

            (Thedollaramount/valueof fines,assessments,seizures,investigative/courtcosts,orother
            penaltiesresultingfrom OI criminalinvestigations.)

CiviB _one_ary         Actions:           ..................................................................................................               52,50G

            (The dollaramount/valueof forfeitures,settlements,damages,judgments,courtcosts,or
            otherpenaltiesresultingfromOI civilinvestigations.)



TOTAL:    .....................................................................................................................                      $2,083,768




                                                                                 48
SemiannualReportto the Congress                                                   April1 - September30, 1994




OFFICE OF LABOR RACKETEERING

                                  The OIG's Office of Labor Racketeering (OLR) conducts criminal
                                  investigations to eliminate the influence of organized crime, labor
                                  racketeering and corruption in employee benefit plans, labor-man-
                                  agement relations and within unions. During this period, OLR ef-
                                  forts resulted in 76 indictments, 76 convictions, and $9.7 million in
                                  fines, restitutions,andforfeitures.


CONTINUING                         In past semiannual reports, the Office of Labor Racketeering has
EMPHASIS ON                       indicated that the mere removal of a corrupt or organized crime-
IM PACT                           controlledunionofficial,benefitplan trustee,serviceprovider,or busi-
                                  nessman by means of a criminal prosecution, has little long-term
                                  effect on reducing criminal activity. OLR will not progress towards
                                  its goal of"reducing labor racketeering and corruption,"without ad-
                                  dressingthe underlyingconditionswhich giverise to labor racketeer-
                                  ing problems. The Office of Labor Racketeering will increase its
                                  emphasis on "impact" by conducting "industry probes" in order to
                                  increasethe long-termimpactof Officeof Labor Racketeeringcases,
                                  to addressthe underlying causal factors of labor racketeering prob-
                                  lems,to restore competitivenessin industrieswith balance in labor-
                                  managementrelations, and to protect the interests of the American
                                  worker. These investigations,which will examinethe vulnerabilities
                                  existing within an industry,target specific illegal practicesand high-
                                  profile industry players for criminal prosecution and have as their
                                  goal the development of a series of criminal cases which can be
                                  utilizedas predicationfor court-imposedcorrective action. Utilizing
                                  the criminal and civil provisionsof the Racketeering Influenced and
                                  Corrupt Organizations Act (RICO), as well as the equitable relief
                                  powersof the court,the Officeof Labor Racketeering not only seeks
                                  convictions, but also seeks to disgorge those convicted of their ill-
                                  gotten gains to make the American worker whole, create a deter-
                                  rent to further criminal activity, and impose reforms to address the
                                  underlyingcausal factors.

                                  In light of the financial ruin that many American families have suf-
                                  fered because of the loss of medical coverage and pension ben-
                                  efits, the Office of Labor Racketeering will continue its priority on
                                  criminal abuse of eml_loyee benefit funds by corrupt benefit plan
                                  operators, union officials, and employers. With the uncertainty of
                                  health care reform and its effect on union sponsored health care



                                                  49
 SemiannualReportto the Congress                                                                AprilI - September30, 1994




                                                plans, the Office of Labor Racketeering will utilize a portion of its
                                                investigative resources to address the emerging problem of abu-
                                                sive insurance operations whose sponsors create "unions" to ob-
                                                tain the protection from state regulatory scrutiny the Employee Re-
                                                tirement Income Security Act (ERISA) preemption provisions pro-
                                                vide. Initial indications are that these operations conduct no legiti-
                                                mate collective bargaining and provide no representation for their
                                                members, but merely serve as vehicles for the sale of insurance
                                                while escaping state insurance departments' regulatory scrutiny.
                                                These operations appear to have much in common with abusive
                                                multipleemployerwelfare arrangements(MEWAs), whichthe Office
                                                of Labor Racketeering has combatted over the past several years.
                                                Through our investigative efforts, the Office of Labor Racketeering
                                                seeks to prevent these operations from gaining an air of legitimacy
                                                under health care reform and to prevent the operators from market-
                                                ing a product destined for abuse.

Assessment of New                               The Departmentof Labor,in its 1994 enforcement strategy,hastar-
VulnerabiHties and Trends                       geted for enhanced scrutiny,those industrieshaving the mostvul-
                                                nerablepopulationsandlowwagerates.As theAmericanworkforce
                                                becomesmoreethnicallydiverseand nontraditionalcrimegroups
                                                expandtheirinfluencebeyondthehistoricalvenuesofextortion,nar-
                                                coticstrafficking,andgang-relatedcrimes,thepossibility
                                                                                                     existsthese
                                                groupswillexpandintonewareaswheretheycan exploittheAmeri-
                                                canworker. InadditiontotheOfficeof LaborRacketeering'sexami-
                                                nation of traditionalorganized crime groups, we will begin to
                                                proactivelyexplorethe potentialfor labor racketeeringproblems
                                                associatedwithnontraditionalorganizedcrimegroupsand the in-
                                                dustrieswiththe mostvulnerablepopulations.


.............................................   Followingare someof our moresignificant investigativeresultsdur-
SBGNIFBCANT                                     ing this period.
ACCOMIPLmSHMENTS
                                                EMPLOYEE BENIERT PLANS


Bogus Insurance                                 RubelI-HelmInsuranceServices,Inc.(RHIS),nowdefunct,wasbased
Operation Terminated                            in Irvine,California,andmarketeditselfas one of theforemostex-
                                                perts in designinghealthand life insuranceplansfor small busi-
                                                nesses. Between July 1987 and April 1989, RHIS collected over




                                                                   5o
SemiannualReporttothe Congress                                                  April 1 - September30, 1994




                                 $11,500,000 in premiumsfor non-existenthealth, dental and life in-
                                 surance coverage.

                                 On June 10, 1993, the RHIS former President James Helm, Vice-
                                 President Scott Clawson, and Vice-President of Finance Douglas
                                 Taylor,were indicted on conspiracy, mailfraud, and embezzlement
                                 charges for their roles in a scam that leftthousands of employeesin
                                 Florida and California without health insurance.

                                 The indictmentcharged Helm,Clawson,and Taylorwithembezzling
                                 more than $3.6 millionfrom a number of health insuranceplans they
                                 administeredand using the moneyto purchaseand remodelhomes,
                                 pay for ski vacations and trips to Hawaii and a Caribbean cruise, to
                                 purchasecustomtailoredclothingand expensivejewelry,andto lease
                                 luxuryautomobiles. The indictmentfurther alleged that as part of the
                                 scheme, RHIS made kickbacks to David A. Erlandson, the former
                                 Chairman of the Board of Trustees of the California Association of
                                 BuildersExchangesHealthand WelfareTrust,whichtotalled$24,500
                                 in order to give RHIS the welfare trust's insurance contract. The
                                 indictment also charged RHIS paid Charles J. McGuirk, the former
                                 Director of the National Brokeragefor Diamond Benefits Life Insur-
                                 ance Company, a $50,000 bribe to obligate his company to act as
                                 an insurance carrierfor RHIS.

                                 On September7, 19941followinga month-longtrial, a Federaljury in
                                 Los Angeles found Helm, Clawson, and Taylor guilty on charges of
                                 conspiracy, kickbacks, mail fraud, and embezzlement. Michael A.
                                 Rubell,the former Chairmanof RHIS, KathleenErnest Helm,the ex-
                                 wife of James Helm and a former RHIS Executive Vice-President,
                                 Erlandson, and McGuirk pied guilty to charges developed in the in-
                                 vestigation. Rubell,Clawson,and Taylorare scheduledfor sentenc-
                                 ing on December 12, 1994.

                                 The investigationwas conducted by the OIG'sOffice of Labor Rack-
                                 eteering, the U.S. Postal Inspection Service, and the Internal Rev-
                                 enue Service. u.s.v. Helm, etaL (S.D. Califomia)

                                 Impact: RHIS had promoted itself as the nation's most experi-
                                 enced administrator and provider of consulting services to welfare
                                 plans for small and medium sized employers in numerous maga-
                                 zines and trade publications. The successful investigation and
                                 prosecution of RHIS ended an insurancescam that victimizedthou-
                                 sands of employees in Florida and California.



                                                 51
SemiannualReportto the Congress                                                  April 1 - September30, 1994




Former Teamster                   Gerald iVi.Wiedyk, Executive Director, Michigan Conference of
Health Plan Executive             TeamstersWelfare Fund,becamethechiefexecutiveof theFundin
Convicted for                     1983 when he replacedthe former directorwho was then facing
Receiving Kickbacks               criminalcharges. The formerexecutivedirector,a trustee,and two
                                  serviceproviderswere laterconvictedof racketeering.

                                  The Fund servesthe health care insurance needs of 18,000 Team-
                                  stersunionmembersand theirfamiliesresidingthroughoutMichi-
                                  gan. During1993,theFundpaidbenefitstotallingover$67 million.

                                  On August 9, 1994,Wiedyk was convicted of receiving$459,000 in
                                  kickbacks from a medical laboratory, which had received $1.7 mil-
                                  lion in annual paymentsfor laboratorytestingfromthe Fund. Wiedyk
                                  was also convicted of providing false documents to the Fund trust-
                                  ees who were investigatingthe potential conflict of interest between
                                  Wiedyk and the laboratory.

                                  The trial alsobroughtout examplesof Wiedyk'sabusiveleadership.
                                  Wiedyk often required Fund employees to lie concerning his mis-
                                  conduct or lose their jobs. When confronted by the Fund general
                                  counselconcerning his relationshipwith the laboratory,Wiedyk con-
                                  vinced the trustees that the lawyer was incompetentand dishonest.
                                  Hethen physicallyattackedthe lawyer,chokinghim intounconscious-
                                  ness, when the lawyer accused him of misconduct.

                                  This investigationwasconductedby the OIG'sOfficeof Labor Rack-
                                  eteering with assistance from the Federal Bureau of Investigation.
                                  u.s. v.Wiedyk(E.D.Michigan)

                                  Impact: The investigation has resulted in the termination of en-
                                  trenched and abusive administrative practices in a major Team-
                                  sters union health plan, and has ended the historical practice of
                                  awarding Fund contracts based upon the payment of kickbacks.


Health Insurance                  William G. Browne,presidentof InsuredPlansAgency, Inc. (IPA),in
Administrator Pleads              Akron, Ohio was under,contractwith the Ohio IViideasternRegional
Guilty to Million Dollar          Education Service Agency (OME-RESA) to provide third-party ad-
Embezzlement                      ministrative services. OiViE-RESA is a consortium of about 70
                                  school boards that entered into an agreement to establish a Re-
                                  gional Council of Government under Ohio law. Its purpose was to
                                  obtain benefits for the participating member school boards on a
                                  collectivebasis. OME-RESAmaintained a self-fundedhealth ben-



                                                 52
SemiannualReporttothe Congress                                                  Apdl 1 - September30, 1994




                                 efits program for the employeesof itsmemberschoolboards.The
                                 memberschoolboardsand/ortheiremployeescontributedto a gen-
                                 eralfundfromwhichhealthbenefitswerepaid. InsuredPlansAgency
                                 had receiveda contractto processthe medicalclaimsand provide
                                 stop-lossinsurancecoverageforthegroup.

                                 OME-RESA relied upon Browne to process medical claims and
                                 obtain stop-loss insurance. Browne had sole signature authority of
                                 the OME-RESA health claim checking accounts. He abused this
                                 authorityby making unauthorizeddrawsfromthe accountsandtrans-
                                 ferring the fundsto his business accounts. Browne also inflated the
                                 legitimate costs of stop-loss insurance he obtained and pocketed
                                 the difference. Total losses to OME-RESA exceeded $3 million.

                                 Browne additionally inflated the stop-loss insurance premium for
                                 Plumbers and Pipefitters Local 219 Welfare Fund of Akron, Ohio,
                                 amounting to a loss of over $25,000 to the fund.

                                 On June 7, 1994, Brownepied guilty to embezzling over $1 million,
                                 and to mail fraud. This investigation was conducted by the OIG's
                                 Office of Labor Racketeering. u.s.v. Browne(N.D. Ohio)

                                  Impact: IPA was one Ofthe largest third party administratorfirms in
                                  Ohio, processing in excess of $25 million of medical claims per
                                 year. Theinvestigation prevented additionalthefts by Browne from
                                  the plans for which he provided services, thus ending the financial
                                 jeopardy that he placed the funds in, due to his embezzlements.


Union Official and               Dr. William W. Li, D.D.S., President of Health Administrators Inc.,
Dental Services Provider         and Dental Care Plus Hnc.,ChitokiTokunaga,Treasurerof Health
Convicted in                     Administrators,and DannyC. Hogan, BusinessAgentof Service
Kickback Scheme                  EmployeesInternationalUnion(SEIU) Local73, were indictedbya
                                 Federal grandjury in Chicago,Illinois,on December9, 1993. Hogan
                                 had usedhis influenceas business agentof the Local to steer a new
                                 dental contract to the other two defendants. The initial indictment
                                 charged the subjects with conspiracy and illegal kickbacks. A su-
                                 perseding indictment was returned against the defendants on De-
                                 cember 16, 1993, adding a charge of money laundering.

                                 OnApril 18, 1994, Li and Hogan were both convicted of paying and
                                 receiving kickbacks in connection with Local 73's dental plan, and
                                 mailfraud. Hogan was also convicted of money laundering. Hogan



                                                 53
SemiannualReporttothe Congress                                                     April1 - September30, 1994




                                 was sentenced on September 13, 1994, to 6 monthsin prison, 2
                                 years of probation, and a $1.5 million fine. Dr.Li was sentenced to
                                 3 months in prison, 2 years of probation, and a $25,000fine on June
                                 28, 1994.

                                 This investigation was conducted by OIG's Office of Labor Rack-
                                 eteering, u.s. v.Hogan, et al. (N.D. Illinois)

                                 Impact: A corrupt dental health care network service provider for
                                 SE/U Local 73 and other affiliated Locals was removed and re-
                                 lated service provider corporations in the Chicago Metropolitan
                                 area were dissolved. During the course of the ongoing investiga-
                                 tion and subsequent tnal, Local 73 wasplaced into trusteeship and
                                 the dishonest official was removed. A new election of officers for
                                 the Local was completed. Additionally, the Chicago Housing Au-
                                 thonty and the Chicago Board of Education have begun investiga-
                                 tions into their relationships with the individuals convicted of ille-
                                 gal kickbacks in this case.


                                 AdditionalProsecutive,Activity:

Jail for New Hampshire           David Murray,the formerownerof Erin FoodsServices, Inc.,a firm
Restauranteur                    thatonceoperatedall BurgerKingRestaurantsin New Hampshire,
Guilty of Fraud and              was sentencedon September5, 1994, to 3 years of imprisonment
Money Laundering                 on chargesoffilingfalse reportsrelatingto a benefitplanembezzle-
                                 ment,bankand bankruptcyfraud, and false statementsin records
                                 requiredunderthe EmployeeRetirementIncomeSecurityAct.

                                 Murraywassentencedfollowing hisJune 1994guiltypleato charges
                                 relating to the abuse of his company's employeeprofit sharing plan.
                                 During 1987 and 1988,Murray admittedthat he and two associates
                                 engaged in a scheme to illegally convert almost three quarters of a
                                 million dollars in the Erin Foods Services, Inc., profit sharing plan to
                                 Murray's own use, and then filed false statements with the U.S. De-
                                 partment of Labor. Also during that period, Murray and his compa-
                                 nies borrowed millions of dollars from New England banks and fi-
                                 nancialinstitutions. The companieseventuallywent into bankruptcy,
                                 causing huge losses for all the institutions that had loaned them
                                 money. Murray admitted to bankruptcy fraud by concealing his as-
                                 setsfrom the bankruptcy court.




                                                  54
SemiannualReporttothe Congress                                                    April1 - September30, 1994




                                 In additionto his3 years injail, Murray was ordered to make restitu-
                                 tion of $720,000 to the employees' profit sharing plan and $59,000
                                 to the bankruptcy court for the money he hid from his creditors. He
                                 was also placed on probation for 3 years after his jail sentence.

                                 The 4-year investigationwas conducted by the Inspector General's
                                 Office of Labor Racketeering,the U.S. Department of Labor's Pen-
                                 sion and Welfare Benefits Administration, the Federal Bureau of
                                 Investigation,andthe IntemalRevenueService. u.s.v.Murray,. New
                                 Hampshire)


                                 Casespreviouslyreported:

Massachusetts Financial          A Westwood,Massachusettsaccountant(who served as financial
Advisor Sentenced for            advisortoBostonarea InternationalBrotherhoodof Teamsters(IBT)
Misusing $45 Million in          unionsand theirrelated pensionfunds)and his partnerwere sen-
Teamsters Union                  tencedon June22, 1994, forconvertingapproximately$45 million
Pension Funds                    in IBT pensionfundstotheirownuse.

                                 Steven J. Watchmaker,a certified public accountant and former fi-
                                 nancial advisor,was sentenced to 42 months in prison, ordered to
                                 pay $200,000 in restitution, and fined $50,000. His partner, Nell
                                 Zais,was sentencedto 15 monthsin prison,orderedto pay $200,000
                                 in restitution, and fined $25,000. Inaddition, Watchmaker and Zais
                                 received 36 months of probation.

                                 Watchmaker was the independent, certified public accountant for
                                 over 10 IBT benefit plans and approximately 20 IBT local unions in
                                 the NewEnglandarea..Additionally,Watchmakerwas a partnerwith
                                 Zais in numerousreal estate ventures in the 1980's. Manyof these
                                 ventureswerefinanced by financial institutionsthat receivedmillions
                                 of dollars in IBT-relateddeposits overwhich Watchmaker had influ-
                                 ence.

                                 WatchmakerandZaisorchestratedthe depositof approximately$16
                                 million from IBT funds to Capitol Bank and Trust Company of Bos-
                                 ton, which financed millions of dollars for their real estate ventures.
                                 Inreturnfor allowingthe bankto pay lowrates on IBT-relateddepos-
                                 its,Watchmaker andZais received terms and rates availableonly to
                                 the very best bank customers. Consequently,the union and benefit
                                 funds lost significant interest income.




                                                  55
SemiannualReporttothe Congress                                                    Apdl 1 - September30, 1994




                                 Watchmaker and Zais also orchestratedthe sale of four New En-
                                 glandTeamstersandTruckingIndustryPensionFundpropertiesto
                                 a businesspartnerfor approximately$29 million,about$5 million
                                 lessthan itsmarketvalue. Inreturn,theyreceivednumerousfavors
                                 fromthe businesspartner. These activitieswere not disclosedin
                                 documentsrequiredbythe EmployeeRetirementIncomeSecurity
                                 Act. Furthermore,thedefendantsfraudulentlycorcealedassetsfrom
                                 the ResolutionTrustCorporation(RTC),amongothercreditors,dur-
                                 ingthe periodthe RTC was seeking repaymentof approximately
                                 $10 millionowedto the Home Owners Federal Savingsand Loan
                                 Association.

                                 In January1992,Watchmakerand Zaiswere indicted for racketeer-
                                 ing and various crimes associated with their schemes to manipu-
                                 late the investment of IBT pension and labor union funds. In Sep-
                                 tember 1993,they were indicted on numerous bank fraud charges.
                                 In November1993,both men pied guilty to embezzlement,kickback,
                                 bankfraud, and false statementcharges resulting from the two Fed-
                                 eral indictments.

                                 These investigationswere conducted by the Inspector General's
                                 Office of Labor Racketeering. u.s.v. Watchmaker
                                                                              andZais(D. Massa-
                                 chusetts).


Two Insu0"anceIExecu_ives        OnJune 22, 1994,in Federal districtcourt inPhiladelphia, Pennsyl-
Plead Guil_ _o                   vania, JerryJ. Tidmore,Jr.,a formerDallas,Texas-basedinsurance
Racke_ee_ng                      operator,pied guilty to racketeering conspiracy charges relating to
in Massive F,'aud Scheme         his participationinfraudulent healthinsuranceschemesthat resulted
                                 in unpaid medical claims of more than $6 million. Tidmore admitted
                                 in the plea that he andAtlanta-based insurance brokers, Alan Teale
                                 and Charlotte Rentz, and others, formed a fraudulent networkof off-
                                 shore reinsurance col:porations which were supposed to provide
                                 medical,dental, health,and other reinsurance to insurers of multiple
                                 employer welfare arrangements. Reinsurance is the sharing of in-
                                 surancerisk between insurancecompanies.

                                 In a related matter,Robert Campbell, a former Kentucky-based in-
                                 surance company owner,also pied guilty on June 16, 1994, in Fed-
                                 eral district court in Philladelphia,Pennsylvania,to racketeeringcon-
                                 spiracy charges relating to his participation in fraudulent health in-
                                 surance schemes that resulted in unpaid medical claims of more




                                                 56
SemiannualReporttothe Congress                                                  Apdl 1 - September30, 1994




                                 than $2 million. Campbelladmittedin the plea thathe, Teale,Rentz,
                                 andothersformeda fraudulentnetworkof offshorereinsurancecor-
                                 porationswhichweresupposedtoprovidemedical,dental,health,
                                 and otherreinsuranceto insurersof multipleemployerwelfare ar-
                                 rangements.Althoughtheoffshorecompanieswere promotedas
                                 havingmillionsofdollarsto providereinsurance,thecompanieshad
                                 virtuallynoassets.

                                 Throughthis network of companies,the co-conspiratorsinduced
                                 WorldLifeandHealthInsuranceCompanyofKingof Prussia,Penn-
                                 sylvania,to enterintoseveralreinsurancetreatieswhichultimately
                                 led to World Life'scollapsein 1991 by defraudingit of morethan
                                 $12.5millioninreinsurance   premiums.Sdmoreusedhisreinsurance
                                 companiesto reinsure medical and other forms of reinsurance
                                 throughthe network of offshorecompanies. In order to promote
                                 Tidmore'scompaniesas beingfinanciallysolvent,Tidmoreand a
                                 partnerobtainedtheservicesof othersto producephonyfinancial
                                 statementsthatclaimedhiscompanieshadmorethan$106 million
                                 inassets. Virtuallyall of the purportedassetsin thesecompanies
                                 were backedbythe"fullfaithandcreditof theSovereignCherokee
                                 Nation,Tejas,"whichisnota nativeAmericantribeorrecognizedas
                                 suchbythe U.S. Governmentor any Cherokeetribe. Infact, these
                                 reinsurancecompanieswere shellsand had noassets.

                                 Campbell,tofacilitate the scheme,obtained the servicesof others
                                 topromotehiscompaniesandto producefraudulentfinancialstate-
                                 mentswhichindicatedhisreinsurancecompanieshad inexcessof
                                 $100 millionin assets,when theyactuallyhadno assets.

                                 Teale and Rentz pied guilty to racketeering on December2, 1993,
                                 were sentencedto 17 yearsand 13 yearsof imprisonment,respec-
                                 tively,andwereorderedtomake$50 millioninrestitutiontothevic-
                                 timsof theirhealth insuranceand propertyschemesand a similar
                                 casualtyinsurancescheme. The propertyand casualtyinsurance
                                 schemewas investigatedbytheFederalBureauof Investigation   with
                                 assistancefromthe Officeof Labor Racketeering. The investiga-
                                 tion establishedthat Teale and Rentz defrauded policyholders
                                 throughoutthe UnitedStatesof morethan$100 million.Intotal,Teale,
                                 whodiedearlierthisyear,and Rentz formedover 80 phonyinsur-
                                 anceand reinsurancecompanies.

                                 The investigationwasconductedby the OIG'sOffice of Labor Rack-
                                 eteering, the U.S. Postal Inspection Service, and the Securities Ex-



                                                 57
SemiannualReportto the Congress                                                  April 1 - September30, 1994




                                  change Commission.Assistancewas providedby the U.S. Senate
                                  Permanent Subcommittee on Investigations,the Federal Bureau of
                                  Investigation, and the Departments of Insurance for the States of
                                  Pennsylvania, Delaware,and Califomia. u.s. v.T_lmore  and Campbell
                                  (E.D.Pennsylvania).


New Jersey Mayor                  FrankPriore,former MayorofParsippany-TroyHillsTownship,New
Sentenced to 5 Years              Jersey,was sentencedon September9, 1994, to 5 yearsin prison
in Prison                         and 36 months of supervisedrelease, followinghis convictionin
for Embezzlement,                 Federaldistrictcourtin'r'renton,for hisrolein briberyand embezzle-
Extortion, and Bribery            mentschemes. He was also requiredto make restitutionof $5,102
                                  tothetownship.

                                  Priore was convicted in March 1994 of conspiracy to defraud the
                                  Parsippany-TroyHillsTownship'sself-funded health insuranceplan
                                  of more than $5,000, conspiracy to extort and accept bribes in his
                                  capacityasmayor,andobstructinggrandjury investigationsby coach-
                                  ingwitnesses to lie to the grand jury about the health insuranceand
                                  extortion schemes, and by withholding crucial documents subpoe-
                                  naed by the grand jury fromthe township.

                                  Priore and eight others were convicted as a result of the Office of
                                  Labor Racketeering's 3-year probe of Omega Network Systems
                                  (Omega), a now defunct third party administration company that
                                  handled the Parsippany-TroyHills township's insurancefund.

                                  To date, the investigation has resulted in guilty pleas to criminal
                                  charges by Omega officials Nicholas Carrara, president; Timothy
                                  Walsh,vice-president;and KennethMullins,controller,regardingthef_
                                  of municipalfunds and kickbacksto unionofficials. RobertArmento,
                                  a partner in Omega was also convicted of paying bribes to a public
                                  official. SalvatoreZingogne,former presidentof InternationalBroth-
                                  erhood of Teamsters Local 723, Montville, N.J., was convicted in
                                  this investigation for demanding$36,000 in kickbacksfrom Omega.
                                  Paul Kuehner and Edward Hass, both employees of Parsippany-
                                  Troy Hills, N.J., pied guilty to perjury before a grand jury. Joseph
                                  Valenti,former town clerk of Woodbridge, N.J., pied guiltyto accept-
                                  ing bribes from Omega.

                                  This investigationwasconducted by the OIG's Officeof LaborRack-
                                  eteering, u.s.v. Priore(D. New Jersey).




                                                  58
Semiannual
        ReporttotheCongress                                                April1 - September
                                                                                           30, 1994




Two Business Partners         The formerprincipalofthe now-defunctNewark,NewJersey-based
Arrested for Embezzling       ImperialAir FreightCompany(Imperial),and hisbusinesspartner,
Pension Funds                 were arrestedon June2, 1994, by specialagents of the Inspector
                              General'sOfficeof LaborRacketeering,onchargesthatthey bilked
                              theircompany'spensionplanof morethanone-halfmilliondollars.

                              ThomasBametaswas a principal in Imperialand the soletrusteeof
                              the profitsharingtrust. Harry Kapralosis a businesspartnerof
                              Barnetaswhoparticipatedinthe managementof Imperial.The ar-
                              restsofThomasBarnetasand HarryKapralosfollowtheir Decem-
                              ber17, 1993,indictmentbya Newark, N.J.,Federalgrandjury.The
                              indictment,whichwas unsealed followingthe arrests, charges
                              Barnetasand Kapraloswithconspiracy,embezzlementfroma pen-
                              sionfund,andmoneylaundering.

                              The indictmentallegesthat, betweenMay 1990 and January 1991,
                              Barnetasand Kapralosembezzled and launderedapproximately
                              $525,000 in assets of the Imperialprofitsharingtrust,a pension
                              benefitplanestablishedforthe retirementofImperial'semployees.
                              Bametasand Kapralosallegedlyembezzledthefundsbytransfer-
                              ringtrustmoniesthrougha seriesofbankaccountswhichwere de-
                              signedto conceal anddisguisethe ownershipand controlof the
                              trustmonies. The indictmentalso seeksforfeitureof the approxi-
                              mately$525,000 intrustfundmonieswhichwere embezzled.

                              This investigationwasconducted  by the OIG'sOfficeof LaborRack-
                              eteeringandthe U.S. Departmentof Labor'sPensionandWelfare
                              BenefitsAdministration.u.s.v. Bametas and Kapralos (D. New Jersey)


Former                        John R. Johnson,the former Presidentof the ChicagoTruckDriv-
Union President               ers,Helpers,andWarehouseWorkersUnion,wasindictedbya Fed-
Charged with                  eralgrandjury in Chicago,Illinois,on chargesof racketeering,era-
Racketeering                  bezzlingunionfunds,acceptingkickbacks,moneylaundering,tam-
                              peringwithwitnesses,and evasionof incometaxes.The indictment
                              was unsealedonApril15, 1994.

                              The chargesagainstJohnsonrelatetohisactivitieswhileservingas
                              the presidentofthe ChicagoTruck DriversUnionand managerof
                              theunion'spensionfund. Johnsonwasoustedfromthesepositions
                              afterbeingdefeatedina unionofficerelectionheldin 1992. Johnson




                                             59
SemiannualReporttothe Congress                                                  April I - September30, 1994




                                 was also presidentof two affiliatedlocalsof the ChicagoTruck Driv-
                                 ers Union.

                                 The indictment allegesthat during a periodfrom about July 1987 to
                                 September 1991, Johnsonengaged in a patternof racketeering.
                                 Johnsonischargedwithreceivingapproximately$416,000 in kick-
                                 backs and extortionpaymentsinconnectionwith about$15 million
                                 in investmentsof the ChicagoTruck DriversUnion PensionFund
                                 from November1989 to February 1990. He is alsochargedwith
                                 receivingover$140,000 in kickbacksfrom the pensionfund'sJuly
                                 1987 investmentof $1,011,294inCoalstarEnterprises,a coalproject
                                 in Indiana.He isfurtherchargedwithmoneylaunderingcertainkick-
                                 back proceeds.Finally,he ischargedwithtamperingwithwitnesses
                                 in an attemptto preventwitnessesfrom providinginformationto
                                 Federallaw enforcementofficersand attemptingto influencetesti-
                                 monybefore a grand jury.

                                 The investigationwas conductedby the OIG'sOffice of Labor Rack-
                                 eteering, the U. S. Department of Labor's Office of Labor-Manage-
                                 ment Standards, and the Criminal Investigations Division of the In-
                                 ternal Revenue Service. u.s.v. Johnson(N.D. Illinois)


                                 L_BOR _._N._GIE_ENT RIEL_TOON$



Racke_ee_ng Convictions          In IVlarch1994, JosephFiorelli,businessrepresentativeof the Inter-
End 25 Yea_ _)_                  nationalBrotherhoodof Paintersand Allied Trades,Drywall Finish-
Extortion and B_bery             ers, Local Union 1955, and Robert Boggi, businessagent for the
                                 United Brotherhood of Carpenters and Joiners, Local 1073, were
                                 indicted on charges of labor racketeering, extortion, soliciting and
                                 accepting payoffs from contractors, and related charges. The in-
                                 dictments charged that Fiorelli accepted payoffs or extorted money
                                 from over 25 contractors between 1967 and 1991, and that Boggi
                                 accepted payoffs from contractors between 1984 and 1990. On
                                 some occasions, Fiorelli and Boggiteamed up to extort moneyfrom
                                 contractors. In return for payoffs, the Philadelphia, Pennsylvania-
                                 based unionofficialswould supply contractorswith better unionwork-
                                 ers, look the other way when union contractorsemployed non-union
                                 men, and/ortake no action against contractorswho underpaid union
                                 employees.




                                                 6o
SemiannualReporttothe Congress                                                 April 1 - September30, 1994




                                 Fiorelliwent to trialin July1994, and Boggiwas tried in a separate
                                 trialinAugust1994. Bothindividuals  werefoundguiltyofthecharges
                                 againstthemand areawaitingsentencing.

                                 In related cases, JamesSiesser (an organizerfor PaintersLocal
                                 1955) andMarkKnJpnick   (a dentistwhoprovideddentalservicesto
                                 membersof Local 1955) pied guiltyto chargesagainstthem and
                                 cooperatedin the investigation.Siesseradmittedto participating
                                 inan illegalschemewithFiorelliand Boggitoextortmoniesfroma
                                 union contractor. Krupnickadmittedto defraudingLocal 1955's
                                 HealthandWelfareFundbypaddingbillsto theFundandthenpro-
                                 vidinga kickbackfromthe overchargesto someof thepatients,in-
                                 cludingJosephFiorelli'sdaughter.

                                 The investigationswere conducted by the OIG's Office of Labor
                                 Racketeeringand theFederalBureauof Investigation.u.s.v. Fiore//i
                                 andBog#/(E.D.
                                             Pennsylvania)

                                 Impact: The convictions end a 25-year extortion scheme against
                                 construction contractors in the Philadelphia area. Contractors are
                                 now able to compete for jobs in the industry without fear of being
                                 underbid due to the advantages gained by bribery.


                                 AdditionalProsecutiveActivityon CasesPreviouslyReported:

Union Official                   IsraelMechlowicz,theformersecretaryand managerof International
Pleads Guilty to                 LadiesGarmentWorkersUnion(ILGWU) Local10, NewYork,N.Y.,
Bribery Conspiracy               piedguiltyon May 2, 1994, in ManhattanFederal districtcourt to
                                 chargesheconspiredto receivebribesfromcontractorsandmanu-
                                 facturersoperatinginthe NewYorkCitygarmentindustry.

                                 On May 25, 1994, in "Federaldistrictcourt in Manhattan, David
                                 Caloia,businessagentfor Local 10, waschargedinan information
                                 filedwithacceptingillegalpaymentsfromemployers.

                                 Mechlowiczisthesecondofficerof Local10 topleadguilty.Seymour
                                 Resnick,Local1O'sformerassistantbusinessmanager,piedguilty
                                 to similarchargesinAugustof 1993. Mechlowiczrepresentedgar-
                                 mentcuttersin New York City, Long Islandand part of NewJersey.
                                 As part of hisplea agreement,Mechlowiczagreedto immediately
                                 resignfromhisunionpositions.




                                                61
SemiannualReportto the Congress                                                    April 1 - September30, 1994




                                  This prosecution isthe result of a 2-year joint probe into the New
                                  York City garment industry. The investigation included an under-
                                  cover operation in which criminal investigators from the Office of
                                  Labor Racketeering and the U.S. Postal Inspection Service oper-
                                  ated a garrnentcontractingfirm.

                                  The union contract between the undercover firm and Local 10 re-
                                  quired contributions to the ILGWU benefit funds based upon a per-
                                  centage of its monthlybillings. Bycreating and utilizing a non-union
                                  shell company,the undercoverfirm was able to conceal over 50 per-
                                  cent of its billingsfrom the ILGWU. In doing so, the undercoverfirm
                                  avoided making the required contributions for work assigned the
                                  shell company. Undercover agents paid bribes to iViechlowiczand
                                  Resnick in exchangefor permitting the use of the shell company.

                                  Resnickalso permittedtheownersof the undercoverfirmto partici-
                                  pate in the benefit plans as unionmembersand thereby,receive
                                  benefitplancoverageforwhichtheywere noteligible. Additionally,
                                  Resnickpermittedthe placingof "no show"employeeson the un-
                                  dercoverfirm'spayrolltoreceiveunionbenefitsinviolationof ILGWU
                                  regulations.Accordingtothe chargesthatwere filed, iVtechlowicz
                                  and Resnickalsoacceptedbribepaymentsfrom othercompanies
                                  in thegarmentindustry.

                                   Inpermittingunion companiesto avoid required benefit plan contri-
                                  butions and listing no show employeeson the fund, iVlechlowiczand
                                  Resnick created a large deficiency in the ILGWU's benefit funds.
                                  This deprives union members of additional benefits and burdens
                                  the funds by paying out millions of dollars of benefits to individuals
                                  who are not eligible to receive them.

                                  The investigation, while aimed at exposing corruption in the gar-
                                  ment industry,uncoveredother serious criminal activity unrelatedto
                                  the ILGWU. Three indMdualswerecharged ina conspiracytotraffick
                                  stolen food stamps. One of the three was also charged with selling
                                  $650,000 in checks sk)len from the mail to the undercover agents.
                                  All have pied guilty.

                                  Additionally, the investigation resulted in the arrests and prosecu-
                                  tion by the Manhattan DistrictAttorney's office of five other individu-
                                  als in connectionwith their attemptsto recruitthe undercoveragents
                                  to launder money they,planned to steal from a Bronx armored car
                                  delivery service,and their offer to carry out a contract murderfor the



                                                   62
SemiannualReportto the Congress                                                April 1 - September30, 1994




                                  undercoveragents.Allfive individualspiedguiltyin NewYorkState
                                  SupremeCourttoconspiracyto murderintheseconddegreeand,
                                  in February1994,receivedsentencesrangingfrom9 to21 years.

                                  This ongoinginvestigationis being conducted by the Inspector
                                   General'sOfficeofLaborRacketeering,andtheU.S. PostalInspec-
                                  tionService. Assistancewas providedbythe U.S. Departmentof
                                  Agriculture,InspectorGeneral'sOffice;theBureauof Alcohol,To-
                                   bacco,andFirearmsof theU.S. TreasuryDepartment;andtheMa-
                                  jor Case Squad of the New York City Police Department. u.s.v.
                                  Mech/owiczandCaloia(S.D.NewYork).


Organized Crime Figure    DennisD. Lepore,a memberofthe New England-basedPatriarca
Pleads Guilty to Bribing  organizedcrimefamily,piedguiltyon June14, 1994,in Federaldis-
Boston Teamsters Officers trictcourtin Boston,to conspiracytobribeTeamsterunionofficers
                          andto interstatetransportationin aidof racketeering.

                                  Lepore is currently servinga 14-year Federal prisonterm for rack-
                                  eteeringviolationsunrelatedto this investigation.In June 1992,
                                  Lepore, reputedorganizedcrimemembers FrancisP. Salemme,
                                  Jr.andThomasL. Hillary,andTeamsterLocal25 memberWilliam
                                  M. Winn wereindictedon identicalchargesfollowinga lengthyun-
                                  dercoverprobe. FormerTeamsterLocal25 Vice President,James
                                  M. Moar,was also indictedin December1992, as a resultof the
                                  investigation.

                                  Hillarypiedguiltyto chargesof conspiracyto bribeTeamstersoffic-
                                  ers,andto interstatetransportation
                                                                   in aidofracketeeringinJanuary
                                  1993. Winnand Moarare scheduledto gototrialin October1994.
                                  The trial date for Salemme,Jr.,who isthe sonof Frank "Cadillac
                                  Frank"Salemme,Sr.,reputedleaderof thePatriarcaorganizedcrime
                                  family,has notbeendetermined.

                                  The Government'sundercover probe,code named "Dramex",in-
                                  volvedtheoperationof an undercoverproductioncompany,David
                                  RudderProductions, which purportedto bean independentmotion
                                  picturecompanywithofficesin Santa Monica, CA. David Rudder
                                  Productionswas actuallyan FBIundercoveroperationina jointin-
                                  vestigationwiththeOfficeof LaborRacketeering.




                                                 63
Semiannual
        ReporttotheCongress                                                   Apdl1 - September
                                                                                              30, t994




                              Lepore and the otherswere charged withconspiringto bribe union
                              officers between March 1989 and June 1990, in return for assur-
                              ances that David Rudder Productions could film movies in Boston;
                              Providence,and LasVegaswithout union personnel. David Rudder
                              Productionswould thereby realizemillions of dollars in savingsfrom
                              reduced payroll costs,and incur no expense for pension and medi-
                              cal insurance coverage of its employees.

                              Thisinvestigation
                                              was conductedby the OIG'sOfficeof LaborRack-
                              eteeringand the Federal Bureauof Investigation. u.s v. Lepore (D.
                              Massachusetts)



                              0NTEIRNALUNUONAFFAaR$

New York Teamsters            Lake Success,NewYork-basedInternationalBrotherhoodof Team-
Local and Former Officials    sters (IBT) Local282, and five former officials,were chargedin a
PKeadGuintyto Charges of      civilracketeeringsuitfiled June21, 1994, in Federaldistrictcourtin
Crirninan Racke_ee_ng         Brooklyn,NewYork.

                              The suitchargesthe defendantswith conductingthe affairsof Local
                              282 through a pattern of racketeering activity. This activity included
                              the extortion and acceptance of illegal payments from employers
                              with whom Local 282 maintained collective bargaining agreements.
                              The paymentswere madein return for labor peace and relaxationof
                              terms of collective bargaining agreements.

                              The suit is based on a series of investigations into corruption in the
                              construction industry in NewYork City. The suit alleges that, for a
                              period of morethan 25 years, Local 282 has been controlled by the
                              Gambino La Cosa Nostra organized crime family. Officersof Local
                              282 and the Gambino family allegedly worked in concert to extort
                              moneyfrom construction businesses in New York City and Long Is-
                              land,andthensharedthe illegalpayments.Thesuitindividuallynames
                              RobertSasso,formerLocal282 president;Michael Carbone,former
                              Local 282 secretary-treasurer;MichaelBourgal,former Local282
                              president;andformerLocal282 businessagents,JohnProbeyahn
                              and JosephIVlatarazzo,as participantsin theracketeeringactivity.
                              Eachof thefive individualdefendantsrecentlypiedguiltyinFederal
                              districtcourtinUniondale,NewYork,tocriminalracketeering      charges.
                              On September4, 1994, Sasso was sentenced to 41 monthsin
                              prison.The otherdefendantsare awaitingsentencing.




                                               64
SemiannualReporttothe Congress                                                   April 1 - September30, 1994




                                 Testimonyandothsrevidencepresentedin the 1992trial of Gambino
                                 family boss,JohnGotti,establishedthat Gottipersonallyreceived
                                 approximately$1.2millionannuallyasa resultofthe Gambinofamily's
                                 controloverthe Local.

                                 The suitasksthecourttoappointan independenttrusteetooversee
                                 the affairsof Local282, andtohave thefive namedindividualdefen-
                                 dantsrepaytheir illicitgainstoa fundestablishedto payfor thetrust-
                                 eeship. Local 282 representsapproximately4,000 truckdriversand
                                 othertransportersof buildingmaterialsand equipmentto andfrom
                                 constructionsitesin NewYorkCityandLong0sland.

                                 This investigationwasconductedjointlyby the InspectorGeneral's
                                 Officeof Labor Racketeering and the Federal Bureau of Investiga-
                                 tion. u.s. v. Teamsters
                                                      Local282etaL(E.D.NewYork)


Teamsters Off_ocia_s             Fifteenindividuals,includingfourcurrentorformerofficersof Inter-
HndJc_edfor Conspiracy           national Brotherhoodof TeamstersLocal600, St. Louis,Missouri,
_oComrni_Mu,'de,"and             were charged in indictmentswhich were returned during iViayand
O_he,"Cr_minaUOffenses           June 1994, in St. LouisFederaldistrict court, St. LouisCounty Cir-
                                 cuit Court, and St. Louis City Circuit Court.

                                 Former Local 600 business agent, Larry L. Brown, was charged
                                 with conspiracy to commit murder, conspiracy to commit burglary,
                                 conspiracy to make a destructivedevice, receiving stolen property,
                                 andmailfraud. CurrentLocal 600 recordingsecretary,RogerWood,
                                 former Local 600 business agent, Richard IVleyer,and former sec-
                                 retary/treasurer,James Mason,were charged with receiving stolen
                                 property.

                                 Brown,who wasthe union'sbusinessagentfor YellowFreight Lines,
                                 allegedly assaulted a Local 600 union member after the member
                                 confronted Brown about not following up on a grievance the mem-
                                 ber had filed. The union membercharged Brownwith assault in an
                                 internalunionaction,whichresultedin Brown'ssuspensionfromunion
                                 office. Brownthen allegedly solicited a convicted murderer to bur-
                                 glarize and burn the union member's car and home, and to murder
                                 the union member,unlessthe memberwithdrew his complaint. Ad-
                                 ditionally, Brown allegedly solicited another individual to steal his
                                 brother's truck so a fraudulent insurance claim could befiled.




                                                 65
SemiannualReportto the Congress                                                       April1 - September30, 1994




                                  On July 8, 1994, Brownpied guilty in Federal districtcourtto con-
                                  spiracyto possessincendiarydevices. Brownstillfacesthe murder
                                  conspiracycharge. Mason and Wood allegedly accepteditems,
                                  which they believedwere stolen,in paymentfor a unioncardand
                                  waiverof membershipdues. Mason,Meyer,and Wood additionally
                                  are allegedto havereceivedstolenauto andelectronicequipment
                                  whileat the Local600 unionhall.

                                  Elevenotherindividualswere chargedwithengagingin a varietyof
                                  criminalschemes including,sale of narcotics,sale of firearmsto a
                                  convictedfelon, defraudingseveralinsurancecompanies,and re-
                                  ceivingstolenproperty. Two of the defendantshave pied guiltyin
                                  Federaldistrictcourtto mailfraudrelativetothe insurancefraud.

                                  The investigationwasconductedjointly by the Inspector General's
                                  Officeof LaborRacketeering;theFederal Bureauof Investigation;
                                  the Bureauof Alcohol, Tobaccoand Firearms;the Missouri State
                                  HighwayPatrol;anddetectivesofthepolicedepartmentsof St.Louis
                                  City and St.LouisCounty.u.s.v.Brown,eta/.(E.D. Missouri,and St.Louis
                                  City CircuitCourt) andAbington eta/. (St. LouisCountyCircuitCourt)



                                  OTHER INVESTBGA'rnVEACTDVDTBE$


OperatoB" of BiUegaU              NicholasPasquarieUo,ownerofPasquarielloConstruction  Company,
Landfill Convicted                Inc.,operatednumerousillegallandfilloperationsinBrowardCounty,
                                  Florida,overa lO-year period. Pasquarielloconductedtheseop-
                                  erationsby bribinglocal Governmentofficialsand environmental
                                  regulators.Pasquariellousedoperatingengineersat nightandon
                                  weekendsto pushillegalmaterialsintolakes inorderto avoidde-
                                  tection.

                                  During an investigationbythe Inspector General's Office of Labor
                                  Racketeering (OLR)into allegationsthat Pasquariellowas extorting
                                  a company located at Port Everglades, Florida, for labor peace,
                                  additional allegations of public corruption and environmental viola-
                                  tions surfaced. Based on these allegations, an undercover opera-
                                  tion was developed using an OLR agent posing as an Army Corps
                                  of Engineers inspector. Pasquariello offered bribes of $5,000 and
                                  $50,000 to facilitate the application of an Army Corps permit. The
                                  investigation also discovered that Pasquariello had never filed a
                                  Federal tax return, his corporate 940 and 941s were false, and he



                                                   66
SemiannualReporttothe Congress                                                 April1 - September30, 1994




                                 conspiredwith hisemployeesto pay all overtimeoffthe books,with
                                 nohealthandwelfareI_aymentsortaxesreported.

                                 On May 16, 1994,Pasquariellowas sentencedto a prisonterm of 5
                                 yearsand 10 months,afterbeingconvictedon chargesofviolating
                                 the CleanWaterAct, offeringa bribeto an OLR undercoveragent,
                                 taxevasion,attemptingtodefraudtheGovemment,andmakingfalse
                                 statementsin recordsrequiredunderthe EmployeeRetirementIn-
                                 come SecurityAct. At the Federaltrial in Miami, Florida,the pros-
                                 ecutionshowedthat, had Pasquariello'sbribescheme been suc-
                                 cessful,thevalueof hispropertyat Port Evergladeswouldhavein-
                                 creasedbymorethan$5 million.

                                 The casewas investigatedjointly by the InspectorGeneral'sOffice
                                 of LaborRacketeering;the CriminalInvestigationsDivisionsof the
                                 EnvironmentalProtection   AgencyandtheInternalRevenueService;
                                 andthe MetropolitanOrganizedCrimeIntelligenceUnit,Ft. Lauder-
                                 dale, Florida. u.s.v. Pasquanello(S.D. Florida)

                                 Impact: State and local environmental officials have hailed the
                                 conviction of Pasquariello as a landmark case. Officials point to
                                 Pasquariello as an example to be used in other environmental
                                 casesthroughout Florida. EPAand the U.S.Attorney's Land Crimes
                                 Unit, plan to use Pasquariello's sentencing as a guideline case for
                                 other Clean WaterAct convictions. The Army Corps of Engineers
                                 believes that the sentencing of Pasquariello will change the way
                                 the agency handles repeat violators of the Clean Water Act, and
                                 how the Army Corps and EPA conduct their investigations. Fur-
                                 thermore, the cooperation by several law enforcement agencies to
                                 investigate and prosecute environmental crimes has been ap-
                                 plauded by law enforcers.


Three Philadelphia               JohnShaw,a Philadelphiapolicesergeantandformerpresidentof
Police Officers Charged          FraternalOrderof Police(FOP) Lodge 5, and Philadelphiapolice
with Union-Related               officers,AnthonyLaSalleand Charles Gabrick,were indictedon
Racketeering                     August30, 1994, bya Federal grandjury inPhiladelphia,Pennsyl-
                                 vania,on chargesof racketeering,mailfraudandobstructionofjus-
                                 tice, in connectionwiththeiroperationof PhiladelphiaFOP Lodge
                                 5. LaSalle and Gabrickwere Shaw'stop aidesand administered
                                 the day-to-dayoperationsof the affairsof FOP Lodge5, including
                                 the lodge'slegal servicestrustfund and the dental, optical and pre-
                                 scription plans.



                                                 67
Semiannual
        Report
            totheCongress                                                April1 - September
                                                                                         30, 1994




                            The defendants were charged with operating the lodge as a rack-
                            eteering enterprise. Specifically,the defendantswere chargedwith
                            accepting cash kickbacks and more than $200,000 in campaign
                            funds from the Lodge's legal services attorney, BernardSacks, and
                            Philadelphia-based, Strassheim Printing, in 1990 and 1992, in ex-
                            change for the guaranteed award of lodge business. Sacks alleg-
                            edly charged the Lodge nearly twice the rate paid the prior Lodge
                            attorneys and received a $100,000 advance from the Lodge to re-
                            imburse him for funding Shaw's election campaign.

                            The indictmentfurtherallegesthat uponShaw'selection,the defen-
                            dantsacceptedbetween$1,500 and $2,000 in kickbackspermonth
                            from Sacks. They also accepted other payoffs from Michael
                            Borkowski,anAllentown,Pennsylvaniainsurancebroker,whowas
                            awarded the Lodge'sinsurancecontract.Additionally,Shaw was
                            chargedwithattemptingto obtaina kickbackfrom EnricoCampitelli,
                            a Havertown,Pennsylwtniainsuranceagent,who unsuccessfully
                            soughtthe Lodge'sinsurancebusiness. Shaw was alsocharged
                            with obstructionof justice,for directingStrassheimPrintingto cre-
                            ate fictitiousrecordsinresponseto a grandjury subpoena,to hide
                            the fact that Shaw had received morethan $50,000 in free cam-
                            paignprinting.

                            Shaw served as president of the Lodge from October 1990 to Sep-
                            tember 1993,when his administration was ousted by the Common-
                            wealth of PennsylvaniaFOPfor conduct unrelatedto the indictment.

                            The investigationwas conducted by the InspectorGeneral's Office
                            of Labor Racketeering'. u.s.v. Shaw,etaL (E.D. Pennsylvania)




                                           68
Semiannual
        ReporttotheCongress                                                   April1 - September
                                                                                               30, 1994




EXECUTIVE DIRECTn©NA ]D MAINAGEME_T


                              The Officeof ResourceManagement and Legislative Assessment
OFFICE OF RESOURCE            (ORiViLA)supportstheOIG byfulfillingseveralresponsibilities
                                                                                        man-
MANAGEMENT AND                datedbytheInspectorGeneralAct(IG Act) of 1978, includinglegis-
LEGISLATIVE                   lativeandregulatoryreview,reportingto the Congress,andother
                              supportactivities,to achievethemissionofthe OIG.
ASSESSMENT

                              LEGRSLATIVEAND REGULATORY ASSESSMENT
                              AND REVBE_N

                              Section 4(a) of the IG Act requires the InspectorGeneral to review
                              existingandproposedlegislationandregulations,and tomakerec-
                              ommendationsin the semiannualreport, on the impact on the
                              economyand efficiencyof the administrationof the Department's
                              programs,andonthe preventionoffraudandabuse. Incarryingout
                              itsresponsibilities
                                                underSection4(a) of theIGAct, theOIGreviewed
                              and cleared,or providedcommentson,972 legislativeand regula-
                              tory itemsduring this reporting period.

                              The followingsectiondiscussesthose issuesonwhich the OIGurges
                              congressional or departmentalaction, as well as those measuresof
                              special interest to the OIG that were considered by the 103rd Con-
                              gress.


                              issues Reviewed or Addressed in the 103rd Conqress


Targeted Jobs Tax Credit      The Targeted Jobs Tax Credit (TJTC) Program is intended to in-
Program                       duce employers to hire individuals of specific target groups in ex-
                              change for Federal tax credits. Duringthis reportingperiod, the OIG
                              issued a nationwide audit of the TJTC program. The audit covered
                              nine states and 1,150 participants, and was statistically projectable
                              to the program nationwide. The OIG determined 92 percent of the
                              employeeswould have been hired evenwithoutthe tax credit. More-
                              over, in 86 percent of the cases, employers made the decision to
                              hire before TJTC eligibility was determined. As a result, the OIG
                              nationwide audit concluded that the tax credit is a windfall for em-
                              ployers and we recommended that the Secretary encourage Con-



                                              69
SemiannualReportto the Congress                                                  April 1 - September30, 1994




                                  gress not to reauthorize it when it expires in December 1994. The
                                  OIG audit findings are fully discussed in the Office ofAudit Section
                                  of this report.

                                  The OIG had previouslyraised its concerns that the TJTC was not
                                  an effective means of helping the targeted group members follow-
                                  ing an audit on the program for the State of Alabama. In that audit,
                                  employers acknowledged they would have hired 95 percent of the
                                  participants despite the tax credit.

                                  As a result of the OIG's audit of this program, congressional hear-
                                  ings were held by the House Government Operations Subcommit-
                                  tee on Employment,Housing,and Aviation (Peterson,Chair) and by
                                  the House Ways and Means Subcommittee on Special Revenue
                                  Measures (Rangel, Chair). The Inspector General testified before
                                  the Government Operations Subcommittee about the nationwide
                                  audit's findings and the OIG recommendation that the program be
                                  eliminated. The Administrationtestifiedbefore bothcommitteesthat
                                  it could not support the program in its present form, but would con-
                                  sider ways to improve it.

                                  As Congressreviewstheeffectivenessof the program,the OIG con-
                                  tinues to recommendthat the program be allowed to expire and not
                                  renewed since it seldom causes the employment of targeted indi-
                                  viduals, as originally intendedby Congress.


FECA Fraud Amendments              In its calendar year 199!5legislative proposals, the OIG recom-
                                  mendedthatthe Departmentseek to amend the Federal Employ-
                                  ees' CompensationAct (FECA),to prohibitindividualsfromreceiv-
                                  ingFECA benefitsif theyhave beenconvictedof FECA fraud. This
                                  legislativerecommendationresultedfrom the findingsof a study
                                  conductedbythe OIGwiththeU.S. PostalInspectionService.This
                                  studyfoundthatindividualswhowere convictedof defraudingthe
                                  FECA programwerestillreceivingtheirFECA compensationben-
                                  efits.The OIGrecommendedthatthesebenefitsbeterminated.The
                                  OIGfurtherrecommended     thatthebenefitsthatarereceivedbyFECA
                                  recipientswhentheyare incarceratedforanyfelony,shouldbesus-
                                  pendeduntiltheyare releasedfromprison.The OIG isof the opin-
                                  ionthatsuchamendmentstothe statutewouldgreatlyenhancethe
                                  deterrentvalue of the lawand providethe Departmentwitha valu-
                                  abletoolfordealingwiththosewhodefraud,orattemptto defraud,
                                  the FECA program. IndividualscommittingFECA fraud wouldnot



                                                 70
SemiannualReporttothe Congress                                                   April1 - September30, 1994




                                 only risk going to jail, but would also jeopardize their benefits by
                                 engaging in criminal activities. In addition to the OIG study,the Na-
                                 tional PerformanceReview (NPR), directed by the Vice President,
                                 recognized the importanceof this issue in the effort to "reinvent"the
                                 Federal Government.

                                 On September 30, 1994, the President signed into law the
                                 Department'sannual appropriationsfor the 1995 Fiscal Year (Pub-
                                 lic Law 103-329) which includes provisions to make permanent
                                 changes in current statutes in effortsto deter fraud and abuse in the
                                 FECA program. The legislation raised the violation of the FECA
                                 fraud statute(Title 18, USC§1920)from a misdemeanorto a felony,
                                 provided that the benefits falsely obtained were in an amount over
                                 $1,000. In addition, the legislation amended Chapter 81 of Title 5
                                 U.S. Code by inserting a new section which provides that anyone
                                 convicted of defrauding the FECA program would have their dis-
                                 ability benefitsterminated. The new lawalso suspendsthe payment
                                 of FECA disability benefits to individuals convicted of any felony,
                                 and who are serving a prison term.


Job Corps Program                The Job Corps Programwas created in 1964 to assistdisadvan-
                                 tagedyouthsto becomemoreemployable,productivecitizens.This
                                 summer,the OIG briefed Congresson its concernswiththe pro-
                                 posedexpansionof the JobCorpsprogram,beforemeasuresare
                                 consideredby ETAto improveoverallprogramperformanceincer-
                                 tain keyareas ofthe program.

                                 Shortly after the close of the reporting period,the IG testified at an
                                 oversight hearing before the Senate Committee on Labor and Hu-
                                 man Resources, on the OIG's continuing audit work and our con-
                                 cernswith certain aspects ofthis program. Inparticular,the IG testi-
                                 fied that, although ETAhas generally taken corrective actionto OIG
                                 recommendationsto improvethe program,there are stillareaswithin
                                 the programthat need to be improved. Specifically,OIGaudits have
                                 found that Job Corps centers that consistently perform below the
                                 national averages continue to operate without demonstrating sig-
                                 nificant improvement. The IG voiced his concerns that there are
                                 such wide variances in Job Corps center performance and that a
                                 youth's success may depend on which center he or she attends.
                                 The OIG recommended that more attention be focused on the low
                                 performing Job Corps centers to ensure that every youth entering




                                                 71
SemiannualReporttothe Congress                                                   April1 - September30, 1994




                                 the Job Corpsprogram has the same chance to succeed, and to
                                 ensurethatscarceresourcesare effectivelyused.

                                 The Secretary voiced his strong support for expansion of the pro-
                                 gramwhile acknowledgingthat there is room for improvement. The
                                 OIG urges the Administration and the Congress to continue to ex-
                                 amineways the performanceof this vital program may be enhanced.


improper Charges by              During this period,the OIG testified before the Senate Appropria-
Grantees and Contractors         tionsSubcommitteeon Labor,HHS, and RelatedAgencies,regard-
                                 ingthe persistentproblemof contractorsand granteessubmitting
                                 improperindirectcostclaimstotheGovernment.OIG auditsof indi-
                                 rect costsclaimedbycontractorsand granteescontinueto reveal
                                 abusivepractices. In histestimony,the IG recommendedthat all
                                 Federalagenciesbe giventhe sameauthorityas ispresentlyavail-
                                 abletothe DefenseDepartment,withrespectto theassessmentof
                                 interest and penalties for submitting improper charges to the Gov-
                                 ernment. S.1587,the Federal Acquisition Streamlining Act, which
                                 was subsequently passedby Congress, includessuch authoritywith
                                 respectto contractors.


                                 Measures Requiring Congressional Action


Pension Plan Audit and           Labor Day, 1994, marked the 20th anniversary of the enactmentof
Enforcement Amendments           the Employee Retirement Income Security Act of 1974 (ERISA).
                                 Twenty years ago, Congress voiced the intent that thepensions of
                                 Americanworkersbe protectedandallowed to flourish,thus enabling
                                 all working Americans the ability to retire at a suitable standard of
                                 living. While greatstrides have been taken over the past 20 yearsto
                                 achieve this goal, the OIG continues to be concerned that the pen-
                                 sion security of millions of Americans remains at risk.

                                 Since 1984, through Semiannual Reports and congressional testi-
                                 mony, the OIG has raised its concern that hundreds of billions of
                                 dollars in employee pension funds are not being adequately safe-
                                 guarded by annual audits. In 1989, the OIG issued an audit report
                                 recommending the repeal of the limited scope audit provision of
                                 ERISA,which allows funds held in federally regulated entitiesto es-
                                 cape audit scrutiny. Currently ERISAdoes not require audits of plan
                                 assets thathave been invested inentities suchas savings and loans,



                                                 72
SemiannualRepoetto the Congress                                                   April1 - September30, 1994




                                  associations,banks,and insurancecompanies,which are regulated
                                  by Federal or State Governments. While the Congress intendedto
                                  reduce duplication of auditing effort by limiting the scope of the au-
                                  dits, this exemption has created a dangerous loophole that need-
                                  lessly puts at risk the assets of pension plan beneficiaries.

                                  Althoughithasbeenassumedthatthese"exempted"institutionshave
                                  been receiving adequate audit coverage from the other regulatory
                                  agencies, in general, these audits are only performed every 2 years
                                  and are not primarily designed to test for ERISA violations. As a
                                  result, this limited scope audit exemption may be placing at risk a
                                  significant portionof the morethan $2 trillion in pensionfund assets.
                                  Moreover,this exemption places at risk the Federal Government's
                                  assets -- a risk which ultimately must be borne by the American tax-
                                  payer -- because the Government guarantees the paymentof pen-
                                  sion benefitsfor defined benefit plans through the Pension Benefit
                                  GuarantyCorporation.

                                  The OIG has long recommended a legislative change to ERISAto
                                  repeal the limited scope provision. The OIG is encouragedthat the
                                  Pension and Welfare Benefits Administration has worked closely
                                  with the OIG to draft language for such a legislative remedy. The
                                  OIG is also encouragedthatthe Administrationhas officially cleared
                                  the legislative proposal. However,the OIG is concernedthat, during
                                  this reporting period, it has not been forwarded to the Congress for
                                  action during this legislative session.


Increased Monetary                Followinga 1991auditofthe enforcementeffortsofthe Department's
Penalties for                     Wage and HourDivision,the OIG recommendedthatthe Depart-
Fair Labor Standards              mentsupportlegislationthat wouldestablishcivilmonetarypenal-
Record Keeping                    ties forviolationsofthe recordkeepingprovisionof the FairLabor
Violations                        StandardsAct (FLSA). These civilmonetarypenaltieswouldserve
                                  to closea loopholethatexistsinthe law. Currently,the FLSA con-
                                  tainsprovisionsthatrequireemployerstomaintainpayroll,employ-
                                  ment,andcertainotherrecords.However,thelawcontainsnopen-
                                  altiestosanctionemployerswho do notcomplybynotmaintaining
                                  accurate records. This loopholemakesit moredifficultfor Wage
                                  and HourinvestigatorstodetermineFLSA violations,becausean
                                  investigationconductedbythe Departmentconcerningallegedmini-
                                  mum wage or overtimeviolations,normally relies on the payroll
                                  recordsoftheemployer,nntheabsenceof accuraterecordskeptby
                                  the employer,Wage and Hourinvestigatorshave to obtainfacts



                                                  73
SemiannualReporttothe Congress                                                  April 1 - September30, 1994




                                 through interviewsof currentand former employees,and any other
                                 corroborating information,to determine if violations have occurred.
                                 The OIG is of the opinion thatthe civil monetary penalties will serve
                                 as an inducement for employers to maintain appropriate records.
                                 Adequate recordkeepingwould facilitate investigativeactivitiesand
                                 lead to greater compliance with the FLSA. Both the OIG and the
                                 General Accounting Office have recommended establishing such
                                 penalties for record keeping violations.


Occupational Safety              The OIG is disappointedthat anothercongressionalsessionpassed
and Health Enforcement           withoutdefinitivelegislativeactionto establishcriminalsanctions
Reform                           for serious,willful,and repeatviolationsof OSHA rulesthatresultin
                                  deathorseriousbodilyinjury.Currently,undertheOSHAct,a willful
                                 violationofan OSHA rule,causingthedeathof a worker,isconsid-
                                 ered a misdemeanor,andsubjectto a maximumfine notto exceed
                                 $10,000 or6 monthsin prison. Repeat violationsare subjectto a
                                 maximumfine of $20,000 or one year in prison. Becausethese
                                 violationsare presentlymisdemeanors,oftenthereislittleincentive
                                 for prosecutorsto acceptthese cases. The OIG has also found that
                                 the actual fines imposed are usually a small fraction of what can be
                                 levied, and often go through a lengthy appeal process.

                                 The OIG haslong supportedstrengtheningthe criminalenforcement
                                 provisions of the OSH Act. The OIG believes that stronger criminal
                                 enforcement will serve as a meaningful deterrent and will go a long
                                 way towards ensuring that the American worker is better protected
                                 from avoidable occupational hazards.



                                 The Officeof Special Projects (SPO) of the OIG performs quick re-
SPECIAL PROJECTS                 sponseevaluations, analyses,and inspections of programs,activi-
                                 ties,organizations,and functionsof DOL, includingOIG. Evalua-
OFFICE                           tions,analyses,and inspectionsare designedto improveprogram
                                 costefficiencyandeffectiveness,
                                                               management,andtheoverallqual-
                                 ityof services. The SPO focuseson requestsfrom management
                                 thatrequirethe OIG toprovidefast,objectiveand reliable evalua-
                                 tions.




                                                74
SemiannualReporttothe Congress                                                   April 1 - September30, 1994




                                 Resolution Actions: Review of Law Enforcement Officer
                                 Benefits for the Office of Labor-Management Standards

                                 An advisory opinion, obtainedfrom the Office of Personnel Man-
                                 agement, to resolve the recommendations provided in the OIG re-
                                 port (issued on September 28, 1993) conceming law enforcement
                                 officer(LEO) benefitsfor the Officeof Labor-ManagementStandards
                                 (OLMS), confirmed OIG's concerns regarding the eligibility for cov-
                                 erage of time expended performingcompliance audits. While OPM
                                 did not rescind the LEO coverage of OLMS' positions, (since this
                                 coverage was approved on the basis of the duties described in the
                                 position descriptions, rather than on the extent of time devoted by
                                 individual investigatorsto those duties) OPM advised that:

                                 Auditing books... is not a qualifying activity, unless this activity is
                                 undertakenas part of an investigationof an actual personsuspected
                                 of a Federalcriminalviolation.

                                 OPM further advised that the positions should be reviewed and re-
                                 structured to ensure that DOL adheres to the statutory definitions
                                 and regulations in designating positionsqualifying for LEO benefits.

                                 The Department'sOffice of the AssistantSecretary for Administra-
                                 tion and Management instructed OLMS to submit a plan to restruc-
                                 ture the agency's positions in accordance with OPM's guidance,
                                 designatingwhether the positionswill or will not be law enforcement
                                 officer positions. Final closure of this review is pending OIG's as-
                                 sessmentof the OLMSrestructuring plan.




                                                 75
SemiannualReporttothe Congress                                                                                                      April 1 - September30, 1994




Reporting Requirements Under
The inspector General Act of t978


Requirement

Section4(a)(2)- Reviewof LegislationandRegulation..........................................................................................                       69

Section5(a)(1) - SignificantProblems,Abuses,andDeficiencies.......................................................................                              ALL

Section5(a)(2) - RecommendationsWith Respectto SignificantProblems,
 Abuses,and Deficiencies..............................................................................................................................          ALL

Section5(a)(3) - PriorRecommendationsNotYetCompleted...............................................................................                               92

Section5(a)(4) - MattersReferredto ProsecutiveAuthorities.................................................................................                          1

Section5(a)(5) and Section6(b)(2) - Summary of InstancesWhere
  InformationWas Refused...........................................................................................................................            None

Section5(a)(6) - Listof AuditReports ..................................................................................................................           96

Section5(a)(8) - StatisticalTableson ManagementDecisionson
 QuestionedCosts............................................................................................................................................      85

Section 5(a)(9) - Statistical Tables on Management Decisionson
 Recommendations That Funds Be Put to Better Use ...................................................................................                           87,91

Section 5(a)(10) - Summary of Each Audit Report Over 6 Months Old for
 Which No Management Decision Has Been Made ............................................................................................                          88

Section 5(a)(11) - Description and Explanation for Any Significant
 Revised Management Decision .........................................................................................................................           30

Section 5(a)(12) - Information on Any Significant Management Decisions with
 Which the Inspector General Disagrees .......................................................................................................                 None


Senate Report No. 96-829

Resolutionof Audits.......................................................................................................................................       85-87
DelinquentDebts ................................................................................................................................................    79



Note: This table cross-referencesthe reportingrequirementsprescribedbythe Inspector General Act of 1978, as
amended, to the specificpageswhere they are addressed. The informationrequestedby the Congressin Senate
Report No. 96-829 relativeto the 1980 SupplementalAppropriationsand RescissionsBill, is alsocross-referenced
to the appropriatepages of the report.




                                                                                76
Semiannual
       Report
           totheCongress                                                                                                     April1 - September
                                                                                                                                             30,1994




                                                    AUDIT SCHEDULES

Money Owed the Department of Labor .........................................................................................................           79

This scheduledepictsthe amountof moneythat is owedto the Departmentof Labor. In orderto demonstratethe
extentofchangeinthebalancesowedtothe Department,dataisprovidedonthe amountsowedat boththebeginning
and endofthe6-monthreportingperiod.The schedulealsoreportsonthoseamountswhichwereappealed,collected,
andwritten-off,aswellasthe amountsadjustedas a resultof anyappealsand revisedmanagementdecisions.

Summary of Audit Activity of DOL Programs ................................................................................................             80

Thisschedulesummarizes,by DOL agency,the numberof auditreportsissuedduringthe 6-monthreportingperiod,
the amount of dollarsaudited, and the amountof dollars questionedby auditors as having been improperlyex-
pended.

Summary of Audit Activity of ETA Programs .................................................................................................            8t

This schedule details, for the Employment and Training Administration(ETA), the number of audit reportsissued
duringthe6-month reportingperiod,the amountof dollarsaudited,and the costsquestionedby auditorsas having
been improperlyexpended.(This additionaldetailis providedsincemost of DOL fundsare in ETA.)

Summary of Audits Performed Under the Single Audit Act ..........................................................................                      82

This schedule summarizesthe audit reports,issued duringthe 6-month reportingperiod, which were prepared in
accordance withtheSingleAuditACt. This schedulealsodetailsthe amountof dollarsaudited, aswell asthe costs
questionedby auditorsas havingbeen impropedyexpended.

Summary of Audits Performed Under the Single Audit Act: Multi-Agency Program Reports ..................... 83

This scheduledepicts the number of singleaudit reports,issueddudngthe 6-month reportingperiod,that covered
more than one Departmentof Laborprogramagency. This schedulealso detailsthe amount of dollarsthat were
audited,as well as the costsquestionedby auditorsas havingbeen improperlyexpended.

Audits by Non-Federal Auditors .....................................................................................................................   84

This scheduleisa reportto theOffice of Managementand Budget(OMB) on thequality and resultsof singleaudits
performedby non-Federalauditorsduringthe 6-monthreportingperiod.

Summary of Audit Resolution Activity: Questioned Costs .............................................................................                   85

This scheduleshowsthe extentto which DOL managementhastakensteps,dudngthe 6-monthreportingperiod,to
resolvethe costs questionedas havingbeen improperlyexpended. Audit resolutionoccurswhen management
eitheragreeswiththeauditor'sfindingand disallowsthosecoststhat werequestioned,or managementdecidesthat
the expenditureshouldbe allowed. (This scheduleis requiredby Section 5(a)(8) of the InspectorGeneral Act, as
amended.)




                                                                            77
 Semiannual
        Report
            totheCongress                                                                                                         April1 - September
                                                                                                                                                  30,1994



Summary of Audit Resolution Activity: Unsupported Questioned Costs ....................................................... 86

Thisscheduleshowsthe extentto whichDOL managementhastakensteps, duringthe6-monthreportingpedod,to
resolvethecostsquestionedbytheauditorbecausetheywere notsupportedbyappropriaterecordsordocumentation.
Audit resolutionoccurswhenmanagementeitheragreeswith the auditor'sfindinganddisallowsthoseunsupported
coststhatwere questioned,ormanagementdecidesthatthe expenditureshouldbe allowed. (Thisscheduleis required
by Section5(a)(8) of the InspectorGeneralAct, as amended.)

Summary of Audit Resolution Activity: Funds Put to Better Use ..................................................................                           87

This scheduledepictsthe extent to which DOL managementhastakensteps, duringthe 6-month reportingpedod,
to resolvefundsthat the auditor recommendedbe put to belier use. Audit resolutionoccurswhen management
either agreeswiththe auditor'sfinding,or managementdisagreesthat thefunds can or shouldbe putto betteruse.
(This scheduleis requiredby Section 5(a)(9) of the InspectorGeneral ACt,as amended.)

Unresolved Audits Over 6 Months ..................................................................................................................         88

This schedule presentsa summary of all audit reportsthatcontinueto remain unresolvedfor morethan 6 months.
Forthese reports,a managementdecisionisstill outstanding. (Thisscheduleis requiredby Section5(a)(10) of the
InspectorGeneralAct, as amended.)

Summary of Final Action Activity: Disallowed Costs ..................................................................................... 90

This schedule presentsthe final action activity for costs that have been disallowedduringthe 6-month reporting
period. This scheduleis included in the OIG Semiannual Reportto demonstratethe flow of informationto the
Secretary'sSemiannualManagementReport,whichisissuedbythe Secretary as requiredby Section5(b)(2) ofthe
InspectorGeneral Act, as amended.

Summary of Final Action Activity: Funds Put to Better Use ........................................................................... 9t

This scheduledepicts, by program agency,the final action activity duringthe 6-month reportingperiodfor those
fundsthat were recommendedby the auditorto be putto betteruse. This scheduleis includedin the OIG Semian-
nual Report to demonstrate the flow of informationto the Sec'retary'sSemiannualManagement Report, which is
issuedby the Secretary as requiredby Section 5(b)(3) of the InspectorGeneral ACt,as amended.

Significant Recommendations Resolved for Over One Year on which Corrective Action Has Not
Been Completed, as of September 30, 1994 .................................................................................................                 82

Thisschedulepresentsthe significantaudit recommendationswhichhave been resolvedfor over one year and on
whichcorrective action has not been completed.

Final Audit Reports assued .............................................................................................................................

Thisschedulelistsallauditreportsthatwere issuedduringthe6-monthreportingperiod,as requiredbySection5(a)(6)
of the InspectorGeneralAct, asamended.




                                                                              78
7g
                     Summary of Audit Activit3r of DOL Programs
                        April 1, 1994- September 30, 1994
               Reports            Grant/Contract            QuestionedCosts
Agency         Issued             AmountAudited1         Unsupported        Other


OSEC                     1             $      125,000         $      0          $        0

VETS                     1                    103,795                0                   0

ETA                 114                    131,172,695       3,347,456        1,001,457

ESA                      9                  11,270,443               0                   0

OASAM                    9           54,858,496,675          1,983,475                  0

OSHA                     2                   1,293,925            1,657                 0

BLS                      2                          0                0                  0

PWBA                     1                          0                0                  0

Multi-Agency         34               7,372,416,534         6,848,411               14,394

OT AGY                   5                          0                0                  0


Totals              178             $62,374,879,067       $12,180,999        $1,015,851


_Grant/ContractAmountAudited is overstatedbecause, in some cases, expenditureswere audited at
more thanone level as fundswere passeddownfrom Departmentto programagencyto programoffice
to granteecontractorto subrecipient.




                                               80
                   Summary of Audit Activity of ETA Programs
                       April 1, 1994 - September 30, 1994


          Reports              Grant/Contract        Questioned Costs
Program   Issued               Amount Audited     Unsupported         Other

UIS            1                $             0   $          0     $           0

USES           1                    19,875,500               0                 0

SESA           2                              0        601,901         731,178

JTPA          10                     9,672,462        1,209,622        166,589

DINAP         76                    36,930,184         310,649         39,279

DOWP           6                    22,094,383               0                0

DSFP          14                    30,037,083        1,165,160               70

OJC            3                    12,512,834          60,124         64,341

OSPPD          1                       50,249                0                0

Totals       114                $131,172,695       $3,347,456      $1,001,457




                                         81
                Summary of Audits Performed Under the Single Audit Act
                          _rH 1, 1994 = September 30, 1994


               Entities        Reports       Grant/Contract               Questioned    Costs
Agency         Audited         Issued        Amount Audited           Unsupported        Other


VETS                       0       1          $      103,795            $        0      $    0

ETA                       39    102               87,927,423           292,233          2,153

OSHA                      0       2                1,293,925                1,657            0

Multi-Agency               8     34         7,372,416,534            6,848,411         14,394

OT AGY                    3       3                         0                   0            0

Totals                    50    142        $7,461,741,677           $7,142,301        $16,547



Note: DOL has cognizant responsibility for specific entities under the Single Audit Act. More than one
audit report may have been transmitted or issued for an entity during this time pedod. Reports are
transmitted or issued based on the type of funding and the agency/program responsible for resolution.
During this period, DOL issued reports on 50 entities for which DOL was cognizant; in addition, DOL
issued 142 reports which included direct DOL funds for which DOL was not cognizant.




                                                     82
              Summary     of Audits Performed Under the Single Audit Act
                              MulU-Agency Program Reports
                            April 1, 1994 - September 30, 1994



                       Number of                          Questioned Costs
Agency              Recommendations            Unsupported                         Other

F:TA:
  UIS                        5                         22,707                            0
 SESA                        5                        716,938                            0
 JTPA                       19                      6,094,566                       14,394
 DOWP                        1                         14,200                            0

Totals                      30                   $6,848,411                       $14,394


Note: Multi-AgencyProgramReportsrelateto SingleAuditreports. The report may be on a statewide
audit where DOL has accepted=lead"cognizanceor it may be on a single entityunderthe directrespon-
sibilityof DOL. If multipleDOL programswere audited,the multi-agencydesignationwas used. Indi-
vidual recommendationswithinthe reportdesignatewhichagency/programis responsiblefor resolution.
Thirty recommendationsare containedwithinthe 34 multi-agencyreportsissuedthis period.




                                               83
84
85
88
                           00000(3,00          0


              :,i"
                B
            "-"Bl_



            _'I
            D._
                       _

                       0
                           00000000            0




                     _C




                     "_    0000000P'--         F.-




                           OQO00000            0




".__        -_
            o
            Iz

,_.                  _ ooooooo_ _



._                     _ oooooooo              o
0    _,_.

_u._'=               f:0 oooooooo              o
E    '=               ®
E     e_             '_


                       _   O000000b-           _

                 _   m
                 _    0                  ("4   ('4




                     IZ




                 _EI


                 =_ _o_                  _ o



                                                     87
                                             Unresolved Audits Over 6 Months
                                             April 1, 1994 - September 30, 1994

                        Date               Audit                                                No of   Questioned
Agency      Program     Issued        Report Number      Name of Audit/Auditee                   Rec          Costs

Under Litigation:

ETA        DINAP       03-FEB-94      18-94-007-03-350   NEBRASKA INTER-TRIBAL                     10     $ 607,354
ETA        JTPA        23-SEP-93      04-93-046-03-340   GA DOL FIXED FEE QUALITY PLUS             15        296,892
ETA        JTPA        17-APR-91      05-91-012-03-340   SEATTLE KING COUNTY OJT BROKER             2         15,751
ETA        JTPA        25-SEP-92      06-92-010-03-340   EAST TEXAS CNCL OF GOV-I-                 13      5,780,925
MULTI      ALLDOL      25-AUG-89      03-89-083-50-598   COMMONWEALTH     OF PA                     1         78,270
MULTI      ALLDOL      07-FEB-91      03-91-012-50-598   COMMONWEALTH     OF PA                     1         29,539

Awaiting Resolution:

ETA        ADMIN       25-AUG-92      12-92-021-03-001   UNEMPLOY TRUST FUND FY 911                2               0
ETA        ADMIN       25-AUG-92      12-92-022-03-001   ETA FY 91 FIN STMTS 1                     4               0
ETA        ADMIN       30-SEP-93      12-93-001-03-001   ETA FY 92 FIN STMTS 1                    12               0
ETA        UIS         29-SEP-93      03-93-034-03-315   UI PERFORMANCE MEASURES 1                 1               0
ETA        UIS         31-MAR-94      09-94-002-03-315   UCFC/UCX PAYMENT VERIFICATION 2           2               0
ETA        JTPA        29-MAR-91      05-91-054-03-330   SEL ELEM OF TAA ADMIN BY MESC 3          12        394,825
ETA        JTPA        17-DEC-93      05-94-002-03-340   NEW YORK CITY OJT BROKER 4               18        611,896
ETA        JTPA        29-MAR-94      06-94-001-03-340   NAVAJO NATION 4                           3        677,574
ETA        JTPA        31-MAR-94      06-94-002-03-340   ALAMO CONSORTIUM SDA 4                   21      7,136,636
ETA        DINAP       13-APR-93      06-93-231-03-355   SANTO DOMINGO TRIBE s                    18         65,681
ETA        DINAP       28-FEB-94      18-94-006-03-355   DENVER INDIAN CENTER 6                    3        121,854
ETA        OJC         30-SEP-93      03-93-033-03-370   JOB CORPS PERFORMANCE MEASURES _          2               0
ETA        OJC         25-JAN-93      12-93-004-03-370   JC TRANSPORTATION     SYSTEM INTER 7      2         44,492
ETA        OJC         22-FEB-94      05-94-001-03-370   EXCELSIOR SPRINGS JOB CORPS 8             1               0
ETA        OJC         09-SEP-93      18-93-012-03-370   INTERNATIONAL MASONRY INST e              4               0
OASAM      ADMIN       28-JUN-91      12-91-009-07-001   FY 90 CONSOLIDATED FIN STMTS 1            9               0
OASAM      ADMIN       28-AUG-92      12-92-002-07-001   FY 91 CONSOLIDATED FIN STMTS 1           11               0
OASAM      ADMIN       30-SEP-93      12-93-008-07-001   FY92 CONSOLIDATED FIN STMTS 1            10               0
OASAM      ADMIN       26-MAR-93      12-93-016-07-001   COMBINING SCHED NET ADVANCES 1            5               0
OASAM      OPGM        30-SEP-93      12-93-011-07-710   FY 92 WORKING CAPITAL FUND 1             18               0
BLS        ADMIN       30-SEP-93      12-93-009-11-001   BLS FY 92 FINANCIAL STATEMENTS 1          4               0
MULTI      ALLDOL      22-FEB-94      04-94-011-50-598   STATE OF KENTUCKY _                       1        200,840
MULTI      ALLDOL      06-JAN-94      09-94-536-50-598   STATE OF: OREGON 2                        2          7,547



Pending Indirect Cost Negotiations:

ETA        OJC         10-SEP-92      18-92-027-03-370   LEO A. DALY Q                             2        210,695
ETA        OJC         04-MAR-94      18-94-009-03-370   LEO A. DALY 9                             1        231,610
ETA        OJC         04-MAR-94      18-94-010-03-370   LEO A. DALY 9                             1        274,400
ETA        OJC         04-MAR-94      18-94-011-03-370   LEO A. DALY 9                             1        116,565
OASAM      OPGM        30-SEP-91      18-91-035-07-735   OIC OF AMERICA 9                         13        481,785
OASAM      OPGM        17-SEP-93      18-93-011-07-735   INTERNATIONAL MASONRY INST _              3        104,184

TOTAL AUDIT EXCEPTIONS:                                                                          228    $17,489,315

Notes are located on the following page.




                                                          88
Notes to "Unresolved    Audits Over 6 Months Precluded From Resolution"



1Recommendations were reviewed under their respective current FY 93 audits and remain unresolved.

2Unresolved pending a management decision to the final audit report.

3This audit report concluded that the Michigan Employment Security Commission (MESC) appeared to have improperly enrolled a large
number of unemployed workers in DOL-funded training solely to qualify them to receive additional weeks of Trade Readjustment Allowances
pending recall by their former employer. ETA issued a formal notice to MESC on March 20, 1992, describing the problems and the State's
responsibilities. Final action has not been taken by ETA or MESC with regard to the findings or repayment of misspent funds to the Depart-
ment.


4The States have 180 days to issue a Final Management Decision. Program Agencies and OIG have an additional 180 days to accept the
State-level decision.

SThe audit is currently under the Alternative Dispute Resolution process.

6Currently under GAO review.

7Report deals with recommendations revolving around recovery of unused airline tickets from the private travel agency and revisions to the Job
Corps travel policies and procedures. We are waiting for Job Corps' management decision to the final report.

SThe response provided by the Agency did not address all of the findings in the audit report.

9OMB Circular A-50 does not require resolution within 180 days.




                                                                89
                                                                                                                         0


                                           _.            8,-o,,oo oo®o                      _            o=
                                                                                                                        .,!I




       _                                                                                        !        o,_
                                                                                                         0
                                                                                                                        "_'-°
                                                                                                                        "o

                                                                                                         e-                       0




                     oo oo_oo°_o_!_o_o,o_oo_o
                          _-                                                   ....   = _                -
                                                                                                         "6             _         "=

                n,                                                                    ee                 m               °E       a_
                                                                                                         ®              88        E
                     oo           oo   oooop,      o          o   ooooo@o             _                  _                   _

                                                  .
                     '_                         (,,,                                  _-            :    -m              -.o C    =




                                                                                                                              0




o_                                                                                                  ,.   "_             -         +

                                                                                                                             ._o "5
_i5_   _                                                                                    ,,,,.                            .-




                                                                                                    •-   _         ._ _           _

                                  ......        .-.
                                                  .........                           ,0. o                        _=
                =    ,,,            _           §   _   ,',,_           _-            _                                  _'8


       '_'_                                                                  0_0      _                                           o
                                                                                                                                  r




                                                                                                    8' _ _ _            .=_8 -m,-.
                                                                                                    E    "- _           __ _'




                                                         a                   ®_'
                                                                                            °ii :+
                                                                                            0




                                                                                                    °= °'6
                                                                                                                   "-




                                                                                                                   "
                                                                                                                        _E "_




                                                                                                                        8.        =
              <,,    8# <  LI.I                                   (/)                 o
                                                                                      I--                     ,-        --        ,+-




                                                         9O
             _1_° °°°°°°_°°

                          o oooooooo_
                    ®
                    >                          .-   _-
                    fv


             _   m_'_V}       000000000




m

t-       _          _     o   ooooooo_.o
l,i,.
    :3   ,          o                      _


o_           _|1_                          _- _
E,,_
E .-_



                 _1_ o oooooo_                      _



             _            °   oooooo._              _




                                               E




                                                         91
g2
g3
g4
L_




0_-         _':
_-E
_8

-6Z_-

_'r_        _




_>         _o     o
 Ee=

'*"    U
 C    "_              ¢"




                      s




                           95
                                            FINAL AUDIT REPORTS ISSUED
                                               0%APR-94 TO 30-SEP-94
                                             Date
Audit                                        to Prog]ram
Report _               Agency     Program    Agency      Name of A_lil/Auditee

02-94-251-03-340        ETA       JTPA       18-JUL-94     Massachusetts Industrial Service Program - SA
02-94-263-03-340        ETA       JTPA       14-SEP-94     JTPA OJT Broker, New York City PIC

02-94-245-03-365"       ETA       DFREP      22-JUL-94     New England Farm Workers' Council, Inc. - SA

02-94-247-03-380        ETA       SPPD       18-JUL-94     Waterbury, Conn. - SA

02-94-262-04-431       ESA        FECA       28-SEP-94     Fiscal Year 1993 FECA Performance Measures

02-94-205-50-598       MULTI     AL/DOL      22-JUL-94     Connecticut - SA
02-94-209-50-598       MULTi     AL/DOL      18-JUL-94     Maine - SA
02-94-243-50-598       MULTI     AUDOL       18-JUL-94     Commonwealth of Mass. - SA
02-94-246-50-598*      MULTI     AL/DOL      18-JUL-94     State of New Hampshire - SA
02-94-250-50-598*      MULTI     AL/DOL      22-JUL-94     Tribal Governors, Inc. - SA
02-94-252-50-598       MULTI     AL/DOL      12-AUG-94     State of Vermont - SA

03-94-025-03-315       ETA        UtS        29-SEP-94     Ul Performance Measures FY 1993

03-94017-03-340*       ETA       JTPA        06-J U L-94   Epilepsy Foundation of America 12/31/92 - SA
03-94-027-03-340*      ETA       JTPA        29-JUN-94     Goodwill Industries of America Inc. 12./31/92 - SA

03-94-035-03-370       ETA       OJC         30-SEP-94     Job Corps SPAMIS

03-94-008-04-001       ESA       ADMIN       18-AUG-94     ESA Salaries and Expense Financial Schedule

03-94--014-04-432      ESA       DLHWC       17-AUG-94     Longshore & DC Mar_agement Letter FY 93
03-94015-04-432        ESA       DLHWC       17-AUG-94     Longshore Trust Fund FY 93
03-94-018-04-432       ESA       DLHWC       17-AUG-94     DC Trust Fund FY 93

03-94-019-11-001       BLS       ADMIN       30-SEP-94     BLS' Performance Measures


03-94-028-50-598*      MULTI     AL/DOL      08-JUL-94     Commonwealth of Pennsylvania - SA

04-94-005-01-001       OSEC      ADMIN       01-APR-94     OASAM'S Imprest Fund

04-94-021-03-320       ETA       USES        18-AUG-94     Targeted Jobs Tax Credit Program

04-94-014-03-340*      ETA       JTPA       01-APR-94      Tennessee Opportunity Programs, Inc. - SA
04-94-028-03-340       ETA       JTPA       11-AUG-94      Georgia Mountains Regional Center
04-94-028-03-340*      ETA       JTPA       02-AUG-94      National Conference of Black Mayors - SA

04-94-008-03-365*      ETA       DFREP      18-APR-94      Wil-low Nonprofit Housing Corporation, Inc. - SA
04-94-016-03-365"      ETA       DFREP      21-APR-94      Deita Housing Development Corporation - SA
04-94-022-03-365*      ETA       DFREP      16-JUN-94      Mississippi Delta Council for Farmworkers, Inc. - SA
04-94-027-03-365*      ETA       DFREP      28-JUL-94      Homes in Partnership - SA

04-94-015-50-598       MULTI     AL/DOL      18-APR-94     State of South Carolina - SA
04-94-01 8-50-598*     MULTI     AL/DOL     02-MAY-94      Brevard County- SA
04-94-023-50-598       MULTI     AIJDOL     07-JUL-94      State of North Carolina - SA
04-94-024-50-598       MULTI     AL/DOL     28-JUL-94      State of Tennessee - SA
04-94-028-50-598       MULTI     AL/DOL     25-AUG-94      State of Mississippi - SA
04-94-029-50-598       MULTI     ALJDOL     05-AUG-94      State of Georgia - SA

*DOL has cognizant responsibility for specific entities under the Single Audit Act. Reports listed and asterisked above indicate those
entities for which DOL has cognizance. Mere than one audit report may have been issued or transmitted for an entity during this time
period. Reports are issued on the type funding and the agency/program responsible for resolution.




                                                                    96
                                     FINAL AUDIT REPORTS ISSUED
                                        01-APR-94 TO 30-SEP-94
                                    DateSent
Audit                               to Program
Report Number        Agency Program Agency     Name of Audit/Auditee

04-94-019-98-599"    OT AGY NO/DOL 16-MAY-..q4OrangeCounty,Florida- SA
04-94-020-98-599*    OT AGY NO/DOL 25-MAY-94 Cityof Louisville- SA
04-94-030-98-599*    OT AGY NO/DOL 12-AUG-94 SouthCarolinaGovernor'sOffice- SA

05-94-219-02-201     VETS    CONTR    11-MAY-94 St. Louis,Missoud- SA

05-94-112-03-355"    ETA     DINAP    15-APR-94 NebraskaIndianInter-tribalDevelopmentCorporation- SA
05.94-118-03-355*    ETA     DINAP    02-AUG-94 MichiganIndianEmployment& TrainingServices,Inc.- SA
05-94-220-03-355     ETA     DINAP    12-MAY-94 MilleLacsBandof ChippewaIndians- SA
05-94-222-03-355     ETA     DINAP    18-MAY-94 SaultSte.MarieTribeof Chippewaindians- SA
05-94-223-03-355     ETA     DINAP    03-JUN-94 Inter-TribalCouncilof Michigan,Inc.- SA
05-94-224-03-355     ETA     DINAP    08-JUN-94 BoisForteReservationTribalCouncil- SA
05-94-225-03-355     ETA     DINAP    09-JUN-94 Red LakeBandof ChippewaIndians- SA
05-94-229-03-355     ETA     DINAP    12-AUG-94 MenomineeIndianTribeof Wisconsin- SA
05-94-231-03-355     ETA     DINAP    30-AUG-94 GrandTraverseBandof Ottawa& ChippewaIndians- SA
05-94-232-03-355     ETA     DINAP    01-SEP-94 GrandTraverseBandof Ottawa& ChippewaIndians- SA
05-94-233-03-355     ETA     DINAP    12-SEP-94 GrandTraverseBandof OttawaandChippewaIndians- SA
05-94-234-03-355     ETA     DINAP    12-SEP-94 SacandFoxTribeof the Mississippiin Iowa- SA
05-94-236-03-355     ETA     DINAP    27-SEP-94 White Earth Reservation- SA

05-94-221-03-360     ETA     DOWP     16-MAY-94 IllinoisDepartmenton Aging- SA

05-94-111-03-365"    ETA     DFREP    07-APR-94   ProteusEmployment  Opportunities,Inc.- SA
05-94-114-03-365"    ETA     DFREP    11-JUL-94   Homes/Casas,Inc.- SA
05-94-115-03-365"    ETA     DFREP    21-JUL-94   NAF MulticulturalHumanDevelopmentCorporation- SA
05-94-119-03-365"    ETA     DFREP    27-SEP-94   IllinoisMigrantCouncil- SA

05-94-113-50-598"    MULTI   AL/DOL 27-MAY-94 IllinoisDepartmentof EmploymentSecurity- SA
05-94-116-50-598"    MULTI   AL/DOL 27-JUL-94 MichiganDepartmentof Labor- SA
05-94-117-50-598"    MULTI   AL/DOL 29-JUL-94 IndianaDepartmentof Labor- SA
05-94-216-50-598     MULTI   AL/DOL 10-MAY-94 IllinoisDepartmentof Commerceand CommunityAffairs- SA
05-94-226-50-598     MULTI   AL/DOL 28-JUN-94 Stateof Ohio- SA
05-94-227-50-598     MULTI   AL/DOL 30-JUN-94 OhioStateUniversity- SA
05-94-228-50-598     MULTI   AL/DOL 11-AUG-94 Stateof Kansas- SA
05-94-230-50-598     MULTI   AL/DOL 29-AUG-94 Stateof Nebraska- SA
05-94-235-50-598     MULTI   AL/DOL 14-SEP-94 Stateof Minnesota- SA

06-94-118-03-355"    ETA     DINAP    11-APR-94 UnitedUrbanIndianCouncil,Inc.- SA
06-94.-119-03-355*   ETA     DINAP    19-MAY-94 FourTribesConsortiumof Oklahoma- SA
06-94-120-03-355"    ETA     DINAP    07-JUN-94 AmericanIndianCenterof Arkanses,Inc. - SA
06-94-121-03-355"    ETA     DINAP    11-JUL-94 NationalIndianCouncilon Aging,Inc.- SA
06-94-122-03-355*    ETA     DINAP    18-AUG-94 NationalIndianYouthCouncil_SA
06-94-123-03-355"    ETA     DINAP    01-SEP-94 MontanaUnitedIndianAssociation- SA
06-94-224-03-355     ETA     DINAP    11-APR-94 OgiaiaSiouxTribe - SA
06-94-225-03-355     ETA     DINAP    11-APR-94 OglalaSiouxTribe - SA
06-94-226-03-355     ETA     DINAP    12-APR-94 CaddoIndianTribeof Oklahoma- SA
06-94-228-03-355     ETA     DINAP    22-APR-94 KJowaTribe of Oklahoma- SA
06-94-229-03-355     ETA     DINAP    22-APR-94 KJowaTribeof Oklahoma- SA
06-94-230-03-355     ETA     DINAP    22-APR-94 }<iowaTribeof Oklahoma- SA
06-94-231-03-355     ETA     DINAP    26-APR-94 CrowTribeof Indians- SA
06-94-232-03-355     ETA     DINAP    16-MAY-94 TaosPueblo- SA
06-94-233-03-355     ETA     DINAP    16.MAY-94 Fort BelknapIndianCommunity- SA
06-94-234-03-355     ETA     DINAP    17-MAY-94 YsletaOel Sur Pueblo- SA
06-94-236-03-355     ETA     DINAP    07-JUN-94 EightNorthernIndianPueblosCouncil,Inc.- SA
06-94-237-03-355     ETA     DINAP    07-JUN-94 Turtle MountainBandof ChippewaIndians- SA
06-94-239-03-355     ETA     DINAP    17-JUN-94 StandingRockSiouxTribe - SA
06-94-240-03-355     ETA     DINAP    20-JUN-94 Muscogee(Creek) Nation- SA




                                                         97
                                    FINAL AUDIT REPORTS iSSUED
                                       01-APR-94 TO 30-SEP-94
                                   Date Sent
Audit                              to Program
Report Number       Agency Program Agency     Name of AuditJAu_litee

06-94-243-03-355    ETA     DINAP    30-JUN-94   Sisseton-Wahpeton  SiouxTribe- SA
06-94-244-03-355    ETA     DINAP    30-JUN-94   PuebloofAcoma- SA
06-94-247-03-355    ETA     DINAP    12-JUL-94   CheyenneRiverSiouxTribe - SA
06-94-248-03-355    ETA     DINAP    15-AUG-94   BlackfeetIndianTribalCorporation- SA
06-94-249-03-355    ETA     DINAP    15-AUG-94   CentralTribesofthe ShawneeArea, Inc. - SA
06-94-250-03-355    ETA     DINAP    15-AUG-94   JicarillaApacheTribe - SA
06-94-251-03-355    ETA     DINAP    15-AUG-94   AlamoNavajoSchoolBoard,Inc. - SA
06-94-252-03-355    ETA     DINAP    15-AUG-94   Taos PuebloCentralMgmtSystem- SA
06-94-253-03-355    ETA     DINAP    16-AUG-94   FortBelknapindianCommunity- SA
06-94-254-03-355    ETA     DINAP    18-AUG-94   ComancheIndianTribe- SA
06-94-255-03-355    ETA     DINAP    23-AUG-g4   Ute IndianTribe - SA
06-94-256-03-355    ETA     DINAP    23-AUG-94   SouthernUte IndianTribe- SA
06-94-257-03-355    ETA     DINAP    30-AUG-94   FiveSandovalIndianPueblos,Inc.- SA
06-94-258-03-355    ETA     DINAP    07-SEP-94   SantaClara indianPueblo- SA

06-94-235-03-360    ETA     OOWP     16-MAY-94   WyomingDepartmentof Health- SA
06-94-241-03-360    ETA     DOWP     21-JUN-94   ArkansasDepartmentof HumanServices- SA
06-94-242-03-360    ETA     DOWP     22-JUN-94   ArkansasDepartmentof HumanServices- SA
06-94-259-03-360    ETA     DOWP     20-SEP-g4   New MexicoStateAgencyonAging- SA

06-94-124-03-365"   ETA     DFREP    01-SEP-94 Motivation,Education& Training, Inc.- SA

06-94-238-10-101    OSHA    OSHAG 13-JUN-94 NewMexicoEnvironmentDepartment- SA
06-94-245-10-101    OSHA    OSHAG 30-JUN-94 NewMexicoEnvironmentDepartment-SA

06-94-227-50-598    MULTI   AL/DOL 05-MAY-94 Stateof Colorado- SA
06-94-246-50-598    MULTI   AL/DOL 07-JUL-94 Stateof Louisiana,-SA

09-94-560-03-340*   ETA     JTPA     24-MAY-94 CenterforIndependentLiving- SA
09-94-561-03-340"   ETA     JTPA     24-MAY-94 CenterforIndependentLiving- SA
09-94-590-03-340*   ETA     JTPA     22-AUG-94 Seattle-KingCountyPIC - SA

09-94-201-03-355    ETA     DINAP    26-SEP-94 JTPA IV-A ProgramAwardedto Shoshone-Bannock     Tribe
09-94-546-03-355*   ETA     DINAP    08-AUG-94 Kawerak,Inc.- SA
09-94-551-03-355    ETA     DINAP    26-APR-94 Inter-TribalCouncil of Nevada- SA
09-94-552-03-355    ETA     DINAP    29-APR-94 Inter-TribalCouncil of Nevada- SA
09-94-553-03-355    ETA     DINAP    16-MAY-94 Inter-TribalCouncil of Nevada- SA
09-94-554-03-355    ETA     DINAP    16-MAY-94 Inter-TribalCouncilof Nevada- SA
09-94-555-03-355*   ETA     DINAP    16-MAY-94 indianHumanResourceCenter Inc.- SA
09-94-559-03-355    ETA     DINAP    26-MAY-94 KootenaiTribeof Idaho- SA
09-94-562-03-355    ETA     DINAP    02-JUN-94 MetlakatiaIndianCommunity- SA
09-94-563-03-355    ETA     DINAP    02-JUN-94 MetlakatlaIndian Community- SA
09-94-564-03-355    ETA     DINAP    01-JUN-94 Confed.Tribes of the Warm SpringsRee.- OR. - SA
09-94-567-03-355    ETA     DINAP    02-JUN-94 KenaitzeIndianTribe - SA
09-94-568-03-355    ETA     DINAP    02-JUN-94 Gila RiverIndianCommunity- SA
09-94-569-03-355*   ETA     DINAP    10-JUN-94 BristolBayNativeAssociation- SA
09-94-571-03-355"   ETA     DINAP    19-JUL-94 Alu Like- SA
09-94-572-03-355    ETA     DINAP    27-JUL-94 Assoc.Of VillageCouncilPresidents- SA
09-94-574-03-355*   ETA     DINAP    09-AUG-94 LasVegas IndianCenter- SA
09-94-576-03-355    ETA     DINAP    09-AUG-94 Nez PerceTribe- SA
09-94-580-03-355    ETA     DINAP    09-AUG-94 PascuaYaquiTribe - SA
09-94-581-03-355    ETA     DINAP    09-AUG-94 PascuaYaqui Tribe- SA
09-94-582-03-355    ETA     DINAP    11-AUG-94 Inter-TribalCouncilof Nevada- SA
09-94-585-03-355    ETA     DINAP    23-AUG-94 ColoradoRiverIndianTribes- SA
09-94-586-03-355*   ETA     DINAP    23-AUG-94 Western WashingtonindianE. & T. Program- SA
09-94-587-03-355*   ETA     DINAP    23-AUG-94 WesternWashingtonIndianE. & T. Program- SA
09-94-588-03-355*   ETA     DINAP    23-AUG-94 WesternWashingtonIndianE, & T. Program- SA




                                                         98
                                    FINAL AUDIT REPORTS ISSUED
                                       01-APR-94 TO 30-SEP-94
                                   Date Sent
Audit                              to Program
Report Number       Agency Program Agency     Name of AuditJAuditee

09-94-589-03-355*   ETA     DINAP    23-AUG-94 Westem WashingtonIndianE. & T. Program- SA
09-94-591-03-355"   ETA     DINAP    23-AUG-94 CandeiariaAmericanIndianCouncil- SA
09-94-593-03-355    ETA     DINAP    02-SEP-94 Cook InletTribal Council- SA

09-94-566-03-360*   ETA     DOWP     01-JUN-94 NationalAssoc.ForHispanicElderly- SA

09-94-556-03-365*   ETA     DFREP    11-AUG-94 CentralValleyOpportunityCenter- SA
09.94-570-03-365*   ETA     DFREP    27-JUL-94 IdahoMigrantCouncil- SA
09-94-583-03-365*   ETA     DFREP    24-AUG-94 PortablePracticalEdu.Prep.,Inc. - SA

09-94-001-12-001    PWBA    ADMIN    30-SEP-94 TerminatedPensionPlans

09-94-557-50-598    MULTI   AL/DOL 24-MAY-94 HawaiiDLIR - SA
09-94-558-50-598    MULTi   AL/DOL 25-MAY-94 Republicof Palau- SA
09-94-555-50-598*   MULTI   AL/DOL 02-JUN-94 San DiegoConsort.& PIC - SA
09-94-573-50-598    MULTI   AL/DOL 28-JUL-94 Commonwealthof the NorthernMarianaislands- SA
09-94-575-50-598    MULTI   AL/DOL 10-AUG-94 Governmentof Guam- SA
09-94-577-50-598    MULTI   AIJDOL 17-AUG-94 Stateof California- SA
09-94-578-50-598    MULTI   AL/DOL 10-AUG-94 Stateof Arizona- SA
09-94-579-50-598    MULTI   AL/DOL 11-AUG-94 Stateof Alaska- SA
09-94-584-50-598    MULTI   AL/DOL 11-AUG-94 Commonwealth   of the NorthernMarianaIslands- SA
09-94-592-50-598    MULTI   AL/DOL 23-AUG-94 Republicof Palau- SA

12-94-017-03-325    ETA     SESA     24-AUG-94 ADES Scheduleof US DOL FinancialAssistance
12-94-018-03-325    ETA     SESA     24-AUG-94 ADES TaskIV Analysis

12-94-021-03-370    ETA     OJC      10-AUG-94 Womenin CommunityService,Inc.

12-94-025-04-410    ESA     OFCCP    08-SEP-94 FY 1993 OFCCP PerformanceMeasures

12-94-026-04-420    ESA     WHD      15-SEP-94 FY 1993 Wage andHourPerformanceMeasures

12-94-027-04-432    ESA     DLHWC 28-SEP-94 FY 1993 Longshore& HarborWorker'sPerformanceMeasures

12-94-011-07-001    OASAM ADMIN      30-SEP-94 FY 1993 U.S. DOL ConsolidatedPerformanceMeasures
12-94-012-07-001    OASAM ADMIN      02-SEP-94 DOL ConsolidatedFinancialStatementAuditSept.93 & 92
12-94-028-07-001    OASAM ADMIN      24-AUG-94 DepartmentalManagementFinancialReport

12-94-014-98-599    OT AGY NO/DOL 20-APR-94 IndependentAuditof FinancialStatementsas of Sept30, 1993
12-94-023-98-599    OT AGY NO/DOL 24-AUG-94 FY 92 Fin Strut- FederalMineSafety& HealthCommission

17-94-003-04-001    ESA     ADMIN    17-AUG-94 ESA ShouldCompletethe 43alnformationTechnologyBudgeting

17-94-004-t1-001    BLS     ADMIN    21-JUL-94 RptingInfoTech FinRes on 43A

18-94-016-03-355    ETA     DINAP    21-JUL-94 TohonoO'OdhamNation

18-94-016-03-365    ETA     DFREP    16-AUG-94 CaliforniaHumanDevelopmentCorporation-Washington

16-94-015-03-370    ETA     OJC      14-JUL-94 RobinsonSteel ConstructionCompany

16-94-008-07-735    OASAM   OPGM     06-JUN-94 Nat'lCouncilof La Raza
18-94-014-07-735    OASAM   OPGM     24-JUN-94 IllinoisMigrantCouncil
18-94-019-07-735    OASAM   OPGM     19-AUG-94 OICA, Inc
18-94-020-07-735    OASAM   OPGM     19-AUG-94 Res-Care,Inc.
18-94-021-07-735    OASAM   OPGM     27-SEP-94 WAVE, Inc.
16-94-022-07-735    OASAM   OPGM     26-SEP-94 Centerfor Employment  Training,Inc.



                             D'.S.
                                GOV_ENT       PI_INTIIq'G
                                                      OFFICE: 1994- 383-845- 814/20334




                                                         99
                       United States Department of Labor
                           Office of Inspector General




                                        The
                                      Hotline
                                       OIG                          ' iiiiiiii]i
                                                                             !:




Call:

                       202-219-5227     or 1-800-347-3756


The OIG Hotline is open to the public and to Federal employees 24 hours
a day, 7 days a week to receive allegations of fraud, waste, and abuse.
An operator is on duty during normal business hours. At all other times,
a message can be recorded.




Written   complaints    may be sent to:

                          OIG Hotline
                          U. S. Department of Labor
                          Office of Inspector General
                          Room S-5514
                          200 Constitution Avenue,      N.W.
                          Washington,   D.C. 20210
